Petition
Appendix

Case: 17-2613

Document: 91

Page: 1

Date Filed: 04/14/2020

PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______________
Nos. 17-2613 & 18-1319
______________
UNITED STATES OF AMERICA,
Appellant in No. 18-1319
v.
WILLIE TYLER,
Appellant in No. 17-2613
______________
Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. No. 1-96-cr-00106-001)
District Judge: Hon. John E. Jones, III
______________
Appeal No. 17-2613
Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
February 4, 2020
Appeal No. 18-1319
Argued February 4, 2020
_________________

1a

Case: 17-2613

Document: 91

Page: 2

Date Filed: 04/14/2020

Before: SHWARTZ, SCIRICA, and RENDELL,
Circuit Judges.
(Filed: April 14, 2020)
______________
OPINION
______________

Stephen R. Cerutti, II
Carlo D. Marchioli [ARGUED]
Office of the United States Attorney
228 Walnut Street, P.O. Box 11754
220 Federal Building and Courthouse
Harrisburg, PA 17108
Counsel for United States of America
Ronald A. Krauss
Quin M. Sorenson [ARGUED]
Office of the Federal Public Defender
100 Chestnut Street
Suite 306
Harrisburg, PA 17101
Counsel for Willie Tyler

SHWARTZ, Circuit Judge.
Doreen Proctor reported drug activity in her
neighborhood and decided to cooperate with law enforcement.

2

2a

Case: 17-2613

Document: 91

Page: 3

Date Filed: 04/14/2020

She was murdered. Willie Tyler was charged in state court
with her murder. He was acquitted.
A federal grand jury thereafter charged Tyler with,
among other things, witness tampering by murder, in violation
of 18 U.S.C. § 1512(a)(1)(C),1 and witness tampering by
intimidation, in violation of 18 U.S.C. § 1512(b)(3).2 Tyler has
been tried three times on these charges.3 Each jury returned a
Section 1512(a)(1)(C) makes it a crime to “kill[] or
attempt[] to kill another person, with intent to . . . prevent the
communication by any person to a law enforcement officer . . .
of information relating to the commission or possible
commission of a Federal offense.”
2
Section 1512(b)(3) makes it a crime to “knowingly
use[] intimidation, threaten[], or corruptly persuade[] another
person, or attempt[] to do so, or engage[] in misleading conduct
toward another person, with intent to . . . hinder, delay, or
prevent the communication to a law enforcement officer . . . of
information relating to the commission or possible commission
of a Federal offense.”
3
Tyler’s first conviction was vacated on constitutional
grounds. See United States v. Tyler (Tyler I), 164 F.3d 150,
151 (3d Cir. 1998); United States v. Tyler, No. 1:CR-96-106,
2000 U.S. Dist. LEXIS 21891 (M.D. Pa. Feb. 10, 2000). He
was retried and convicted of two counts of witness tampering
by murder and intimidation and one count of using and
carrying a firearm in furtherance of a crime of violence, in
violation of 18 U.S.C. § 924(c), and we affirmed the
convictions on direct appeal. United States v. Tyler (Tyler II),
281 F.3d 84, 89, 101 (3d Cir. 2002). Tyler collaterally attacked
this second jury’s witness tampering verdicts based upon a
change in the law, and we directed the District Court to hold a
hearing on whether Tyler was now actually innocent of these
1

3

3a

Case: 17-2613

Document: 91

Page: 4

Date Filed: 04/14/2020

guilty verdict. The first two verdicts were overturned due to
legal errors. The District Court set aside the third jury’s guilty
verdict pursuant to Federal Rule of Criminal Procedure 29,
concluding that there was insufficient evidence for a
reasonable juror to conclude that Tyler had the intent to murder
or intimidate Proctor to prevent her from communicating with
a qualifying officer.
Because (1) the District Court erred in ruling that
Fowler v. United States, 563 U.S. 668 (2011), applies only to
situations where a defendant does not know the identity of a
specific law enforcement officer to whom the witness would
have communicated; and (2) there was sufficient evidence
upon which a rational juror could conclude that (a) Tyler acted
with intent to prevent Proctor from communicating with law
enforcement, and (b) there was a “reasonable likelihood” that
she would have communicated with a qualifying law
enforcement officer had she not been murdered, we will
reverse and direct the District Court to reinstate the verdict and
proceed to sentencing.

crimes. United States v. Tyler (Tyler III), 732 F.3d 241, 243,
252-53 (3d Cir. 2013). On remand, the District Court held that
Tyler had established actual innocence of witness tampering
with intent to interfere with an official proceeding but not of
witness tampering with intent to prevent communication with
a law enforcement officer. United States v. Tyler, 35 F. Supp.
3d 650, 653-54 (M.D. Pa. 2014). Based upon this ruling, and
consistent with our instructions, see Tyler III, 732 F.3d at 253,
the District Court conducted a third trial on the witness
tampering to prevent a law enforcement communication
charges.

4

4a

Case: 17-2613

Document: 91

Page: 5

Date Filed: 04/14/2020

I
A
Proctor was a confidential informant for the Tri County
Task Force (“Task Force”), which focused on drug crimes and
was staffed with law enforcement officers from Pennsylvania’s
Cumberland, York, and Perry Counties. Agent Ronald Diller
of the Pennsylvania Attorney General’s Office coordinated the
Task Force’s activities. Detective David Fones, a Carlisle
Police Officer, was a Task Force member.
The Task Force frequently worked with federal
agencies, including the Drug Enforcement Administration
(“DEA”). Agent Diller met with the DEA multiple times a
month, or more frequently as needed, to discuss the DEA’s
interest in the Task Force’s cases. If the DEA adopted a Task
Force case, Agent Diller often became a co-case agent and had
been deputized to handle specific cases. In any given year,
Agent Diller referred between five and ten cases to the DEA.
DEA Special Agent David Keith Humphreys was the
DEA’s liaison to the Task Force and had regular contact with
Agent Diller. Special Agent Humphreys testified that if Agent
Diller approached him with information from a confidential
informant, it “would be required almost” for Special Agent
Humphreys to interview that informant. App. 670.
From 1984 to 1996, 65% of the 246 investigations that
the Harrisburg, Pennsylvania DEA office initiated were jointly
worked with state and local law enforcement.

5

5a

Case: 17-2613

Document: 91

Page: 6

Date Filed: 04/14/2020

B
In 1990, Proctor called a drug hotline in Carlisle,
Pennsylvania to express concern about drug trafficking in her
neighborhood. After speaking with Detective Fones, Proctor
began working as a confidential informant for the Task Force.
As a confidential informant, Proctor provided information,
made controlled purchases, and testified in court. Specifically,
Proctor made three controlled purchases of cocaine in Carlisle,
leading to the arrests of four individuals, including David Tyler
(“David T.”), Tyler’s brother, and Mary Jane Hodge, a woman
with whom Tyler and his brother resided. All four were
charged in state court, and Proctor testified at their preliminary
hearings. Proctor also testified at Hodge’s state jury trial. At
Hodge’s January 1992 trial, Proctor testified that she was “out
of this business now,” App. 118, which meant that she was no
longer making covert drug purchases.
Proctor nonetheless continued to provide information
about illegal drug activity to Detective Fones and Agent Diller.
Among other things, over the course of the investigation,
Proctor told Detective Fones that David T.’s cocaine supplier
was in New York City and that David T. made trips to Jamaica.
Detective Fones relayed this out-of-state drug activity to Agent
Diller so that they could determine how to proceed.4 This

4

Agent Diller had frequent contact with Proctor. He
met with her ten to fifteen times and used the information that
she provided to obtain permission to record her interactions
with suspected drug dealers. Agent Diller was also present for
her controlled purchases, and debriefed her before and after
each controlled buy, in part to determine whether she had

6

6a

Case: 17-2613

Document: 91

Page: 7

Date Filed: 04/14/2020

information, however, was not conveyed to the DEA before
Proctor’s death, and Special Agent Humphreys had not heard
Proctor’s name before her murder.
C
Proctor was murdered in the early morning hours of
April 21, 1992, the day she was scheduled to testify at David
T.’s trial.5 The following events preceded her murder. On the
day before Proctor was set to testify, Tyler was driving with
David T. and Gwanda Campbell, a friend of Hodge’s.
Campbell testified that she knew Tyler because she “used to
get high with him.” App. 484. While they were driving, Tyler
and David T. spotted Proctor and said that they “were going to
do something to her then, but there were too many cars.” App.
490. Campbell, Tyler, and David T. then drove to Hodge’s
house, where David T. and Tyler were living. There, David T.
retrieved a gun and Tyler showed him how to cock it.
Early the next morning, Roberta Bell (David T.’s
girlfriend) lured Proctor from her house by offering her
cocaine. Eventually, Bell convinced Proctor to take a ride in
Bell’s car. David T. and Tyler were in a separate car. Bell and
Tyler eventually pulled their cars over, and Bell exited her car,
approached the Tylers, and told them, “I have her.” App. 719.
In a 1993 letter Tyler wrote, Tyler stated that he asked David
T. what was going on, and David T. told Tyler that Bell “had a
surprise for him.” App. 719. Tyler claims that he then “hear[d]
a shot.” App. 719.
obtained information concerning the sources of the drugs she
purchased.
5
Proctor was also scheduled to testify at two other trials.

7

7a

Case: 17-2613

Document: 91

Page: 8

Date Filed: 04/14/2020

Proctor’s body was found on the side of a rural road.
She had been beaten, shot in the chest, and then shot in the head
while on the ground. After the murder, Tyler returned to
Hodge’s house and said, “[t]he bitch is gone” or “she’s gone.”
App. 507, 514. Later that morning, David T. came to the house
dressed for court and said, “I’ll be at court and that bitch
won’t.” App. 507.
Laura Barrett, who stayed with Bell’s children while
Bell was with the Tylers the night of the murder, said that Bell
returned home carrying bloody clothes and told Barrett that, if
anyone asked, Barrett should say Bell was home all night.
Barrett testified that sometime later, Tyler, Bell, and David T.
were at Bell’s house arguing about drugs. She heard the three
of them discussing that David T. gave Tyler drugs that were
supposed to be given to Jerome King, Bell’s uncle. During this
argument, Barrett heard Bell say to Tyler that she (Bell) shot
Proctor, but that “you killed her.” App. 935. Tyler responded
“You don’t know who’s listening. You don’t know who hears
this.” App. 935. Tyler then said, “I’m leaving,” and left. App.
935.6 Hodge testified that Proctor was killed because she was
set to testify against David T.

Ola Woods, the mother of David T.’s children, said
that sometime after the murder, Bell asked her to tell David T.
that “[Bell] and her uncles,” David and Jerome King, who were
also present at Proctor’s murder, “have their story together, and
if worst comes to worst, to put it on Little Man,” a reference to
Tyler. App. 660.
6

8

8a

Case: 17-2613

Document: 91

Page: 9

Date Filed: 04/14/2020

D
Based upon this evidence, the jury found Tyler guilty
on both witness tampering counts.7 The District Court granted
Tyler’s post-trial motion for judgment of acquittal under Rule
29. The Court held that: (1) the evidence supported a finding
that Tyler was guilty of murder under accomplice liability,
United States v. Tyler, Case No. 1:96-cr-106, 2018 WL
10322201, at *6-7 (M.D. Pa. Feb. 14, 2018); (2) the evidence
supported a finding that Proctor was murdered to prevent her
from testifying at David T.’s trial but did not support a finding
that Tyler acted with intent to prevent an investigation-related
communication, id. at *10; (3) although the evidence
supported a finding that any communication concerned the
possible commission of a federal offense, id. at *11, the
“reasonable likelihood” standard set forth in Fowler, 563 U.S.
at 677, for determining whether such a communication would
be made to a federal officer did not apply because it was known
that Proctor served as an informant for Detective Fones, so any
act of witness intimidation was directed at preventing a
communication to a specific known person, Tyler, 2018 WL
10322201, at *13-14, and the Fowler standard only applies
when the defendant did not have in mind “some specific law
7

Because we vacated, and Tyler was only retried on, the
witness tampering counts, his conviction following the second
trial for using and carrying a firearm during a crime of
violence, 18 U.S.C. § 924(c), was left undisturbed. Tyler has
cross-appealed his conviction for that crime, contending that
his conviction under § 924(c) following his second trial should
be reversed because the Rule 29 order overturned the predicate
crime of violence in which he allegedly used a firearm. We
will discuss the merits of that appeal infra note 17.

9

9a

Case: 17-2613

Document: 91

Page: 10

Date Filed: 04/14/2020

enforcement officer or set of officers,” id. at *12 (emphasis
omitted), with whom the witness would communicate; and (4)
the Government did not introduce any evidence from which a
rational trier of fact could conclude that Detective Fones was a
federal law enforcement officer, id. at *14.
The Government appeals the District Court’s Rule 29
order.
II8
A
We exercise plenary review over the District Court’s
order granting a motion for judgment of acquittal based on the
sufficiency of the evidence, United States v. Willis, 844 F.3d
155, 164 n.21 (3d Cir. 2016), and apply the same standard as
the district court, United States v. Freeman, 763 F.3d 322, 343
(3d Cir. 2014). This standard requires that we view the
evidence “in the light most favorable to the prosecution” to
determine whether a “rational trier of fact could have found the
essential elements of the crime[s] beyond a reasonable doubt.”
Jackson v. Virginia, 443 U.S. 307, 319 (1979). This review is
“highly deferential” to the factual findings of the jury, and we
“must be ever vigilant . . . not to usurp the role of the jury by
weighing credibility and assigning weight to the evidence, or
by substituting [our] judgment for that of the jury.” United
States v. Caraballo-Rodriguez, 726 F.3d 418, 430 (3d Cir.

8

The District Court had jurisdiction under 18 U.S.C.
§ 3231, and we have jurisdiction under 28 U.S.C. § 1291.

10

10a

Case: 17-2613

Document: 91

Page: 11

Date Filed: 04/14/2020

2013) (en banc) (alteration and omission in original) (quoting
United States v. Brodie, 403 F.3d 123, 133 (3d Cir. 2005)).
Thus, even if the evidence adduced is consistent
with multiple possibilities, our role as a
reviewing court is to uphold the jury verdict . . .
as long as it passes the bare rationality test.
Reversing the jury’s conclusion simply because
another inference is possible—or even equally
plausible—is inconsistent with the proper
inquiry for review of sufficiency of the evidence
challenges, which is that [t]he evidence does not
need to be inconsistent with every conclusion
save that of guilt if it does establish a case from
which the jury can find the defendant guilty
beyond a reasonable doubt. It is up to the jury—
not the district court judge or our Court—to
examine the evidence and draw inferences.
Unless the jury’s conclusion is irrational, it must
be upheld.
Id. at 433 (alteration in original) (internal quotation marks and
citation omitted).
Considering the evidence under this highly deferential
standard, we conclude that the evidence supported each
element of the offenses charged, that “the jury’s verdict did not
fall below the threshold of bare rationality,” and that the verdict
“should therefore be reinstated.” Id. at 432-33 (internal
quotation marks and citation omitted). We examine the
evidence supporting each element in turn.

11

11a

Case: 17-2613

Document: 91

Page: 12

Date Filed: 04/14/2020

B
The Victim and Witness Protection Act of 1982, 18
U.S.C. §§ 1512-1515, 3663-3664, “was enacted to provide
protection to witnesses in federal cases,” Tyler III, 732 F.3d
241, 247 (3d Cir. 2013), and prohibits witness tampering by
murder and by threats or intimidation. To prove witness
tampering by murder, the Government must demonstrate that:
(1) “the defendant killed or attempted to kill a person”;
(2) “the defendant was motivated by a desire to prevent
the communication between any person and law
enforcement authorities concerning the commission or
possible commission of an offense”;
(3) “that offense was actually a federal offense”; and
(4) “a reasonable likelihood that the person whom the
defendant believes may communicate with law
enforcement would
in
fact make
a
relevant
communication with a federal law enforcement
officer.”
Bruce v. Warden Lewisburg USP, 868 F.3d 170, 184 (3d Cir.
2017) (emphasis omitted) (citing Tyler III, 732 F.3d at 252).
Witness tampering by intimidation requires proof of the same
elements as witness tampering by murder, except that the first
element instead requires evidence that the defendant
intimidated, threatened, or corruptly persuaded the witness.
See § 1512(b)(3).
Viewing the evidence in a light most favorable to the
Government, a rational juror could have concluded that the

12

12a

Case: 17-2613

Document: 91

Page: 13

Date Filed: 04/14/2020

evidence supported each element of the offenses charged
beyond a reasonable doubt, and thus the District Court erred by
entering a judgment of acquittal.
1
As to the first element, we must determine whether the
evidence supports a finding that Tyler murdered or aided and
abetted Proctor’s murder. Section 1512 incorporates the
definition of murder in 18 U.S.C. § 1111, which requires proof
that Tyler: (1) unlawfully killed Proctor, (2) with malice
aforethought, and (3) with premeditation. See 18 U.S.C.
§ 1111(a). For the jury to have found Tyler guilty of murder
based on aiding and abetting, the Government had to prove
that: (a) someone murdered Proctor, (b) Tyler knew the murder
would be committed or was being committed by this actor,
(c) Tyler knowingly performed an act for the purpose of aiding,
assisting, soliciting, facilitating, or encouraging the actor and
with the intent that the actor commit the murder, and (d) Tyler
performed an act in furtherance of the murder. See United
States v. Nolan, 718 F.2d 589, 592 (3d Cir. 1983).
The evidence provided a basis for a rational juror to
conclude that Tyler murdered Proctor or aided and abetted her
murder. The night before Proctor was scheduled to testify at
David T.’s trial, Tyler and David T. spotted Proctor on the
street but declined to do anything to her only because there
“were too many cars” around. App. 490. Tyler and David T.
thereafter went to the back of Hodge’s house where David T.
retrieved a gun and asked Tyler if Tyler knew how to cock it.
Tyler said he did and showed David T. how to cock the gun.
Hours later, Tyler drove David T. to the murder scene.
Afterwards, Tyler told Campbell “[t]he bitch is gone,” or

13

13a

Case: 17-2613

Document: 91

Page: 14

Date Filed: 04/14/2020

“she’s gone.” App. 507, 514. In discussing the murder, Bell
said to Tyler, “I shot Doreen but you killed her,” and Tyler
responded, “You don’t know who’s listening. You don’t know
who hears this.” App. 935. Proctor’s autopsy confirmed that
she was shot multiple times, with a shot to her body, followed
by a shot to her head after she was lying on the ground. This
evidence provided a basis for a rational juror to conclude that
Tyler knew about a desire to harm Proctor, knew how to use a
gun, drove with his brother to the murder scene, and played a
role in her murder. In short, a rational juror had a sufficient
basis to conclude beyond a reasonable doubt that Tyler killed
Proctor or aided and abetted her murder.9
2
Sufficient evidence also establishes that Tyler killed or
intimidated Proctor, at least in part, with the intent to prevent
her communication with law enforcement. On direct appeal
from accomplice Roberta Bell’s conviction, we previously
considered whether a reasonable juror could infer, from the
facts adduced in Bell’s case, an intent to hinder Proctor’s future
communication with law enforcement. Our Court considered
and rejected the argument, accepted by the District Court here,
that the only permissible inference was that Bell acted solely
to prevent Proctor from testifying at David T’s trial. United
States v. Bell, 113 F.3d 1345, 1350 (3d Cir. 1997). Of course,
9

Tyler did not challenge the sufficiency of the evidence
on the jury’s finding that he intimidated or threatened Proctor.
Thus, he has waived any such argument. See Wood v. Milyard,
566 U.S. 463, 474 (2012); United States v. Dupree, 617 F.3d
724, 727 (3d Cir. 2010) (“[A]rguments not raised in the district
courts are waived on appeal.”).

14

14a

Case: 17-2613

Document: 91

Page: 15

Date Filed: 04/14/2020

the Bell trial transcript is not the transcript we are reviewing,
but as in Bell, “while the evidence may lend itself more
obviously to the theory that [Tyler] killed Proctor in order to
prevent her from testifying a few hours later at [David T.’s]
trial,” the record in Tyler’s trial “also supports the inference
that [Tyler] believed Proctor was going to continue to
communicate with the Task Force concerning drug crimes that
[Tyler] and others had committed.” Id. As we held in Tyler I,
and do so again today, we apply Bell’s reasoning to this record
and conclude that a reasonable juror could infer Tyler acted
with an intent to hinder Proctor from communicating with law
enforcement. See Tyler I, 164 F.3d at 153 (“We reject Tyler’s
argument . . . for the same reasons that we rejected the identical
arguments of Ms. Bell.”). The fact the evidence “may be
consistent with multiple possibilities” does not mean the
verdict fails the “‘bare rationality’ test.” Caraballo-Rodriguez,
726 F.3d at 432.
The evidence adduced at Tyler’s third trial is sufficient
to support an inference that Tyler acted with intent to prevent
Proctor’s communication with law enforcement. Proctor’s
cooperation with law enforcement was well known. She
completed controlled drug buys from and testified against
individuals with close relationships with Tyler: his brother and
Hodge, a woman with whom he and his brother had lived.
Even after Proctor stopped making covert purchases, she
continued to provide information to Detective Fones and Agent
Diller about, among other things, David T.’s New York drug
supplier and his trips to Jamaica.
Moreover, Tyler himself was involved with drugs. The
jury heard evidence that he used drugs, and was involved in a
dispute with his brother and Bell about the fact that David T.

15

15a

Case: 17-2613

Document: 91

Page: 16

Date Filed: 04/14/2020

provided him drugs that were meant for Jerome King. During
the argument, Bell was heard saying that Tyler had killed
Proctor to which he retorted, “You don’t know who’s listening.
You don’t know who hears this.” App. 935. Tyler’s retort
gives rise to an inference that he was concerned about others
learning about his illegal activities, and “it was reasonable for
the jury to infer that [Tyler] feared that Proctor’s continued
cooperation with the Task Force would have resulted in
additional communications with law enforcement officers
concerning drug crimes committed by [him], among others,
and that at least part of [Tyler]’s motivation in killing Proctor
was to prevent such communications.”10 Bell, 113 F.3d at
10

Relying on United States v. Stansfield, 101 F.3d 909,
917-18 (3d Cir. 1996), the Dissent reasons that the evidence
showed “that [Tyler] acted to prevent Proctor’s testimony at
his brother’s trial or to retaliate for her past informant work,”
but that “there is no evidence from which a jury could infer that
he was motivated in any way by a desire to prevent . . .
Proctor’s future communication with law enforcement.”
Dissenting Op. at 2-3. In Stansfield, however, we reasoned
that evidence of the defendant’s questions to the victim about
why he had spoken to law enforcement was “sufficient for a
jury to conclude beyond a reasonable doubt that [defendant]
intended to prevent [the victim’s] future communications with
law enforcement officials, not merely that he intended to
retaliate against [him] for past communications,” and that
“inherent in” pointing a loaded gun at the victim’s throat “and
asking, in effect, ‘Why did you do it?’ is the implicit message,
‘Don’t ever do it again.’” 101 F.3d at 917-18. Evidence of
Proctor’s past communications to law enforcement about
David T. and Hodge, together with Tyler’s own illegal
activities, is sufficient for a rational juror to conclude that Tyler

16

16a

Case: 17-2613

Document: 91

Page: 17

Date Filed: 04/14/2020

1350. Based on this evidence, a rational juror could have
found, beyond a reasonable doubt, that Tyler killed Proctor, at
least in part, to prevent her from communicating with law
enforcement.11
3
Sufficient evidence also establishes the third element—
that the “offense” about which Proctor would have
communicated “was actually a federal offense.” Tyler III, 732
F.3d at 252 (quoting Stansfield, 101 F.3d at 918). The jury
heard that Proctor provided information about the distribution
of controlled substances, which is a federal crime. See 21
acted, at least in part, to prevent Proctor’s future
communications.
11
The Dissent’s conclusion that “if evidence that
[Tyler] knew Proctor had previously served as an informant
was enough to establish the necessary intent, any murder of a
known informant could become a federal crime,” Dissenting
Op. at 9, fails to account for the evidence that Tyler resided
with two of the individuals about whom Proctor was
communicating to law enforcement, that Tyler was involved
with drugs, and that shortly after the murder, Tyler argued with
his brother about receiving drugs meant for someone else.
Proctor’s known informant status was not the sole evidence
supporting Tyler’s intent, at least in part, to prevent Proctor’s
future communications. Instead, that evidence coupled with
the evidence about Tyler’s own illegal activities and his close
relationship to others against whom Proctor had acted as an
informant provided a basis for a rational juror to conclude that
Tyler intended to kill Proctor, at least in part, to prevent a law
enforcement communication.

17

17a

Case: 17-2613

Document: 91

Page: 18

Date Filed: 04/14/2020

U.S.C. § 841(a)(1). Indeed, federal authorities in the
Harrisburg area might have investigated and prosecuted the
activities about which Proctor had knowledge. In the
Harrisburg region, the DEA often made small controlled buys
to develop federal cases, and federal law does not set a
minimum amount of controlled substances that must be
involved for the conduct to violate federal law.
Moreover, Proctor told Detective Fones that David T.’s
cocaine source was in New York and that he had travelled to
Jamaica. This evidence shows that drug offenses about which
Proctor had knowledge were federal, not “purely state in
nature.” Fowler, 563 U.S. at 677; see also United States v.
Veliz, 800 F.3d 63, 75 (2d Cir. 2015) (holding that the offense
was not “purely state in nature” and that sufficient evidence
supported a federal nexus under § 1512(b)(3) where defendant
“committed multiple related crimes across multiple states, with
multiple accomplices”). Thus, the evidence was sufficient to
satisfy the third element.
4
The Government also presented sufficient evidence
upon which a rational juror could conclude that there was a
reasonable likelihood that one of Proctor’s communications
would have been to a qualifying law enforcement officer,
whether to Agent Diller or to a DEA agent.
To convict a defendant under the investigation-related
provision of the witness tampering statute, the Government
must show that the defendant tampered with a witness to
hinder, delay, or prevent a communication from that witness to

18

18a

Case: 17-2613

Document: 91

Page: 19

Date Filed: 04/14/2020

a qualifying law enforcement officer.12 § 1512(a)(1)(C),
(b)(3). To satisfy this element, the Government must prove “a
reasonable likelihood that, had, e.g., the victim communicated
with law enforcement officers, at least one relevant
communication would have been made to a federal law
enforcement officer.” Fowler, 563 U.S. at 677 (emphasis
omitted). This standard “is a ‘relatively low bar.’” Bruce, 868
F.3d at 185 (quoting United States v. Smith, 723 F.3d 510, 518
(4th Cir. 2013)). Indeed, to establish reasonable likelihood,
“[t]he Government need not show that such a communication,
had it occurred, would have been federal beyond a reasonable
doubt, nor even that it is more likely than not.”13 Fowler, 563
U.S. at 678. Instead, it “must show that the likelihood of
communication to a federal officer was more than remote,
outlandish, or simply hypothetical.” Id.
12

The Government need not prove that the defendant
knew that the law enforcement officer was federal or acting as
an advisor or consultant to the federal Government.
§ 1512(g)(2).
13
This is because “[t]he Government will already have
shown beyond a reasonable doubt that the defendant possessed
the relevant broad indefinite intent, namely, the intent to
prevent the victim from communicating with (unspecified) law
enforcement officers.” Fowler, 563 U.S. at 674. Thus, “where
the defendant kills a person with an intent to prevent
communication with law enforcement officers generally, that
intent includes an intent to prevent communications
with federal law enforcement officers only if it is reasonably
likely under the circumstances that (in the absence of the
killing) at least one of the relevant communications would have
been made to a federal officer.” Id. at 677-78 (emphasis
omitted).

19

19a

Case: 17-2613

Document: 91

Page: 20

Date Filed: 04/14/2020

Before examining the proof concerning this element, we
will address the District Court’s incorrect view that this
“reasonable likelihood” standard is limited to circumstances
where the defendant does not have “some specific law
enforcement officer or set of officers” in mind as the recipient
of the witness’s communication. Tyler, 2018 WL 10322201,
at *12 (quoting Fowler, 563 U.S. at 672) (emphasis omitted).
a
Fowler instructs that the reasonable likelihood standard
applies “where the defendant does not have particular federal
law enforcement officers in mind,” so long as “the Government
. . . show[s] a reasonable likelihood that, had, e.g., the victim
communicated with law enforcement officers, at least one
relevant communication would have been made to a federal
law enforcement officer.” 563 U.S. at 677. Pursuant to
Fowler, we held in Tyler III that the “reasonable likelihood”
standard applied in determining whether Proctor would
communicate with a qualifying federal officer, not a specific
person, and directed the District Court to evaluate the evidence
under this standard. Tyler III, 732 F.3d at 252-53. Later, in
Bruce, we applied the “reasonable likelihood” standard where
a defendant allegedly prevented witnesses from
communicating with state law enforcement about a defendant’s
robbery and arson. 868 F.3d at 175-76, 181. Applying the
“reasonable likelihood standard,” id. at 181, we held that the
Government must prove that there is “a reasonable likelihood
that the person whom the defendant believes may
communicate with law enforcement would in fact make a
relevant communication with a law enforcement officer,” id. at
184 (emphasis omitted). We observed that the statute “reaches
conduct that ‘takes place before the victim has engaged in any

20

20a

Case: 17-2613

Document: 91

Page: 21

Date Filed: 04/14/2020

communication at all with law enforcement officers—at a time
when the precise communication and nature of the officer who
may receive it are not yet known.’” Id. at 185 (quoting Fowler,
563 U.S. at 673).14
As in Fowler, evidence was presented that Tyler “killed
[Proctor] with an intent to prevent [her] from communicating
with law enforcement officers in general” but that Tyler “did
not have federal law enforcement officers (or any specific
individuals) particularly in mind.” 563 U.S. at 670. Thus,
Fowler’s “reasonable likelihood” standard applies.15
Other Courts of Appeals have applied the “reasonable
likelihood” standard where there was evidence that witnesses
had already communicated with a specific law enforcement
officer. See, e.g., Dhinsa v. Krueger, 917 F.3d 70, 82-84 (2d
Cir. 2019) (applying the standard where defendant murdered
witnesses after one witness started questioning the
organization’s illegal activities and the other began
cooperating with state police); United States v. Johnson, 874
F.3d 1078, 1080-82 (9th Cir. 2017) (applying the standard
where correctional officer kept his report of a use of force from
reaching a specific prison sergeant allegedly to prevent the
report from reaching a federal officer); Smith, 723 F.3d at 51214 (applying the standard where defendant allegedly
firebombed a witness’s house in retaliation for her regular
reports to local police about drug activity).
15
Application of the “reasonable likelihood” standard
may not always be necessary. Where there is sufficient
evidence that a defendant intended to prevent a witness from
communicating with a specific federal law enforcement
officer, there would be no need to apply the “reasonable
likelihood” standard to determine whether, had the witness
14

21

21a

Case: 17-2613

Document: 91

Page: 22

Date Filed: 04/14/2020

b
Applying the Fowler standard, the record shows that it
was “reasonably likely” that Proctor would have
communicated with a “law enforcement officer” as defined
under § 1515(a)(4)(A).
To satisfy this element, the
Government must prove two things: (1) it is reasonably likely
the witness would communicate information and (2) the person
to whom she would communicate the information would be a
“law enforcement officer” as defined under § 1515(a)(4)(A).
The statute defines a “law enforcement officer” as an “officer
or employee of the Federal Government, or a person . . . serving
the Federal Government as an adviser or consultant . . .
authorized under law to engage in or supervise the prevention,
detection, investigation, or prosecution of an offense.”
§ 1515(a)(4)(A). We will examine whether Agent Diller and
Special Agent Humphreys qualify as § 1515(a)(4)(A) law
enforcement officers and whether it was reasonably likely that
Proctor would have communicated with them.
Agent Diller was a qualifying law enforcement officer
because he advised and consulted with the DEA. Agent Diller
coordinated the Task Force, and in that capacity met with the
DEA frequently. Agent Diller referred up to ten cases per year
“communicated with [that officer], at least one relevant
communication would have been made to a federal law
enforcement officer.” Fowler, 563 U.S. at 677-78. This is
because the statute “fits like a glove” when the defendant has
a federal law enforcement officer in mind, since it would be
undisputed that that officer is federal and thus the Government
would not have to offer additional proof to establish the federal
nexus. See id. at 672.

22

22a

Case: 17-2613

Document: 91

Page: 23

Date Filed: 04/14/2020

to the DEA, often to Special Agent Humphreys. For certain
cases the DEA adopted, Agent Diller was deputized as a
federal agent or served as a co-case agent. See Bruce, 868 F.3d
at 186 (observing that state law enforcement officers who
“participated in the investigation after federal intervention . . .
would count as federal officers”). The evidence presented at
Tyler’s third trial again provided a basis for a rational juror to
conclude that Agent Diller was a qualifying “law enforcement
officer” under § 1515(a)(4)(A), as he worked closely with the
DEA to both personally participate in cases and to advise
whether a case should be pursued on the federal level. As we
have concluded in the past, these facts demonstrate that Agent
Diller was a “law enforcement officer” under 18 U.S.C.
§ 1515(a)(4). See Tyler II, 281 F.3d at 99.
The evidence also showed that it was reasonably likely
that Proctor would have communicated with Agent Diller. Part
of Agent Diller’s role as the Task Force coordinator was to
interview confidential informants. Not only did Agent Diller
meet with Proctor more than ten times, he was also present for
each of her controlled purchases and debriefed her before and
after each buy. Even after the Task Force no longer used her
to make controlled purchases, Proctor continued to provide
information to the Task Force. Over the course of the
investigation, Proctor also told Detective Fones that David T.’s
cocaine supplier was in New York and that David T. made trips
to Jamaica. Detective Fones relayed this information to Agent
Diller to determine how it could be used and how Proctor could
assist. Given how often Proctor met with Agent Diller, the
information Proctor had concerning interstate drug activity,
and the fact that she was continuing to provide information to
law enforcement, it was far from “remote, outlandish, or
simply hypothetical” that she would communicate with him

23

23a

Case: 17-2613

Document: 91

Page: 24

Date Filed: 04/14/2020

about David T.’s interstate drug connection and that Agent
Diller would share that information with the DEA. Fowler,
563 U.S. at 678.
The jury also heard evidence from which it could
conclude that Proctor was “reasonably likely” to communicate
with a DEA agent such as Special Agent Humphreys, who is a
qualifying law enforcement officer. Agent Diller and Special
Agent Humphreys had regular contact. Among the criteria
Agent Diller would have considered in determining whether to
refer a case to the DEA was whether “the source was outside
Pennsylvania.” App. 596. Because the Task Force could only
investigate crimes occurring in Pennsylvania, and the DEA has
an interest in pursuing interstate drug activity, a reasonable
juror could conclude that Proctor’s information about David
T.’s New York source and trips to Jamaica would have been
relayed to the DEA. Special Agent Humphreys testified that
had Agent Diller approached him with information from a
confidential informant, it “would be required almost” that
Special Agent Humphreys would interview the informant.
App. 670. From this evidence, a juror could infer that Proctor
was reasonably likely to communicate with Special Agent
Humphreys or another DEA agent about the out-of-state drug
activity.16 See United States v. Johnson, 874 F.3d 1078, 1083
16

The likelihood of such communication is further
corroborated by how often the DEA and local law enforcement
worked together. The jury heard evidence that 65% of the
investigations that the Harrisburg DEA office initiated from
1984 to 1996, were worked jointly with state and local law
enforcement. Over 50% of the time, the DEA worked with
informants obtained from state and local task forces.
Furthermore, federal authorities regularly prosecuted cases

24

24a

Case: 17-2613

Document: 91

Page: 25

Date Filed: 04/14/2020

(9th Cir. 2017) (suggesting that the reasonable likelihood
standard would be fulfilled by evidence that federal officials
were in contact with the county jail, had a policy or practice of
investigating similar incidents, or assisted or shared
information with state and local officials); Aguero v. United
States, 580 F. App’x 748, 753 (11th Cir. 2014) (per curiam)
(holding, in a police-related shooting, the reasonable likelihood
standard satisfied where police had a working relationship with
the federal government, investigations occurred after each
police shooting, and there was a standard practice of
forwarding information from shootings to the FBI); Smith, 723
F.3d at 518 (holding the reasonable likelihood standard
satisfied where victim complained of gang activity and drug
trafficking, and evidence showed that the DEA worked closely
with the city police and that the police were its “biggest source
of information”). Therefore, a rational juror had a basis to
conclude it was reasonably likely that Proctor would have
spoken to a qualifying law enforcement officer and that Tyler
murdered or aided in her murder to prevent her from doing so.17
involving small amounts of drugs, and such cases were often
of interest even without evidence of an interstate source.
17
We will also affirm the order denying Tyler’s motion
to dismiss his § 924(c) conviction. Tyler contends that because
the commission of an underlying predicate is a necessary
element of a § 924(c) conviction, and because this Court
vacated his predicate witness tampering charges, dismissal of
his § 924(c) conviction was required.
Tyler’s argument fails for two reasons. First, because
we direct the reinstatement of his witness tampering
convictions, the basis for Tyler’s argument challenging his
§ 924(c) conviction evaporates. Second, and in any event, our
precedent forecloses Tyler’s argument. A conviction under

25

25a

Case: 17-2613

Document: 91

Page: 26

Date Filed: 04/14/2020

III
For the foregoing reasons, we will reverse the District
Court’s order granting Tyler’s motion for judgment of acquittal
on the witness tampering charges, direct that the jury’s verdict
be reinstated, affirm the judgment on the firearms conviction,
and remand for sentencing.

§ 924(c) “requires that the government prove the defendant
committed a qualifying offense but does not require that the
defendant be charged or convicted of such an offense.” United
States v. Galati, 844 F.3d 152, 155 (3d Cir. 2016); see also
United States v. Haywood, 363 F.3d 200, 211 (3d Cir. 2004)
(holding that § 924(c) “requires only that the defendant have
committed a violent crime for which he may be prosecuted in
federal court” and “does not even require that the crime be
charged; a fortiori, it does not require that he be convicted”
(emphasis and citations omitted)).

26

26a

Case: 17-2613

Document: 91

Page: 27

Date Filed: 04/14/2020

RENDELL, Circuit Judge, concurring in part and dissenting
in part:
I disagree with the Majority on one essential issue—
Willie Tyler’s intent. Judge Jones, an experienced trial judge,
vacated the jury’s verdict based on this issue, concluding that
it was mere speculation that Willie acted with the intent to
prevent Proctor from communicating with law enforcement. I
was initially skeptical that this rejection of the jury’s verdict
was warranted, but upon further reflection have come to
believe that it was entirely correct. Judge Jones stated:
Based on the evidence presented, an inference
that Willie acted with the distinct intent to
prevent an investigation-related communication
is far too speculative to withstand judicial
review. At the end of the day, it is clear that
Proctor was murdered because she was going to
testify the next morning against [David] Tyler.
Though an atrocious crime, it is one that falls
under the purview of state charges unless the
evidence can satisfy the specific intent element
that brings it under the ambit of the federal
witness tampering statute. Even in the face of
the incredibly high standard of review for a Rule
29 post-trial motion for judgment of acquittal,
we cannot hold that this evidence was sufficient
to support any rational trier of fact to find guilt
beyond a reasonable doubt for this element. This
finding of intent was a necessary element for
each of Willie’s convictions under § 1512. We
therefore must grant the Motion on this basis and
vacate both of his convictions.

1
27a

Case: 17-2613

Document: 91

Page: 28

Date Filed: 04/14/2020

App. 29.
Noting the importance of evidence of such intent to
federalize an otherwise state crime, Judge Jones observed that
finding the evidence here sufficient “would essentially
eviscerate any intent requirement at all and would allow federal
witness tampering convictions against virtually all homicides
of state and local police informants.” Id. The federal statute
has two distinct elements. The Government need only
establish that there is a reasonable likelihood that any alleged
communication would be made to a qualifying federal officer.
That bar is quite low. The low bar of that element stands in
contrast to the standard of proof beyond a reasonable doubt for
the element of intent to prevent a communication. In fact, the
Supreme Court found the low threshold of the reasonable
likelihood standard permissible precisely because “[t]he
Government will already have shown beyond a reasonable
doubt that the defendant possessed the relevant broad
indefinite intent, namely, the intent to prevent the victim from
communicating with (unspecified) law enforcement.” Fowler
v. United States, 563 U.S. 668, 674 (2011) (emphasis added).
The Supreme Court has cautioned against “bring[ing] within
the scope of [§ 1512] many instances of witness tampering in
purely state investigations and proceedings, thus extending the
scope of this federal statute well beyond the primarily federal
area that Congress had in mind.” Id. at 675. We would engage
in just this sort of expansion of the statute if we were to allow
a conviction to stand where the evidence cannot establish
beyond a reasonable doubt the intent element necessary to
make the offense a federal crime.
In order to convict Willie Tyler, the jury had to find
beyond a reasonable doubt that he acted with intent to prevent

2
28a

Case: 17-2613

Document: 91

Page: 29

Date Filed: 04/14/2020

Doreen Proctor from communicating information to law
enforcement.
Importantly, the intent to prevent a
communication differs from the intent to prevent a person’s
appearance in an official proceeding, which is an element of
separate 18 U.S.C. § 1512 offenses, see 18 U.S.C.
§ 1512(a)(1)(A), (a)(1)(B), (b)(1), (b)(2),1 and from the intent
to retaliate for past communications with law enforcement.
See United States v. Stansfield, 101 F.3d 909, 917–18 (3d Cir.
1996), abrogated in part by Fowler, 563 U.S. 668. While there
is little doubt that the evidence demonstrated that Willie acted
to prevent Proctor’s testimony at his brother’s trial or to
retaliate for her past informant work, there is no evidence from
which a jury could infer that he was motivated in any way by
a desire to prevent Doreen Proctor’s future communication
with law enforcement.2
Following the Supreme Court’s decision in Arthur Andersen
LLP v. United States, the evidence in this case could not
establish guilt under § 1512’s official proceeding provisions,
which require a nexus between the alleged conduct and a
federal proceeding. United States v. Tyler (Tyler III), 732 F.3d
241, 245, 250–51 (3d Cir. 2013) (citing Arthur Andersen LLP
v. United States, 544 U.S. 696, 707–08 (2005)). The official
proceeding charges therefore were not advanced at the trial
below.
2
As the Majority points out, in Stansfield, we held that the
evidence was “sufficient for a jury to conclude beyond a
reasonable doubt that [the defendant] intended to prevent [the
victim’s] future communications with law enforcement
officials, not merely that he intended to retaliate against [him]
for past communications.” Id. We reasoned that the
defendant’s questions to the victim about why he had spoken
to law enforcement demonstrated the necessary intent because
1

3
29a

Case: 17-2613

Document: 91

Page: 30

Date Filed: 04/14/2020

The narrative that played out at Willie Tyler’s trial—
perhaps unlike evidence at previous trials—had very little to
do with Willie Tyler. He was a peripheral player, while the
evidence focused on Doreen Proctor and her relationships with
David Tyler’s cronies and with law enforcement. Willie’s only
drug activities were that he used to get high with Gwanda
Campbell and, after the murder, his brother made Roberta Bell
angry by giving Willie drugs. Much was made of Doreen
Proctor’s role in the state, and potentially federal,
investigations and trials in order to satisfy the necessary
element of a reasonable likelihood that, if she did make a
communication to law enforcement, it would have been to a
federal officer. The nature of her continued role was disputed,
but it was never even urged that Willie knew of any such
ongoing role, let alone that he had reason to care about or fear
any future communication by her. In most cases in which the
“inherent in . . . asking, in effect, ‘Why did you do it?’” while
pointing a loaded gun at the victim’s throat “is the implicit
message, ‘Don’t ever do it again.’” Id. at 918. In Stansfield,
the defendant knew the victim had been communicating
information to law enforcement regarding a pending
investigation into the defendant’s insurance fraud scheme. Id.
at 911. The facts in Stansfield showed that the defendant was
not merely retaliating for cooperation in a past investigation
but attempting to prevent communication that would further
law enforcement’s ongoing investigation into his own illegal
activity. Here, there was no investigation into Willie Tyler’s
activities, and no evidence that Willie Tyler knew of any
ongoing investigation into his friends. I therefore disagree
with the Majority’s suggestion that the facts in Stansfield are
analogous to the facts before us. See Maj. Op. at 16 n.10.

4
30a

Case: 17-2613

Document: 91

Page: 31

Date Filed: 04/14/2020

element of intent to prevent an investigation-related
communication can be inferred, it is clear that the perpetrator
had reason to fear that, had the victim lived, he or she would
have gone to the police to tell them of the perpetrator’s
activities.3 Here, there was no speculation, let alone evidence,
3

Indeed, in each of the cases on which the Majority relies, the
perpetrator had a clear reason to want to prevent the victim’s
communication with law enforcement, most often the victim’s
knowledge of the defendant’s own criminal activity. See
Fowler, 563 U.S. at 670 (defendant killed officer who
witnessed defendant and others planning a robbery); Dhinsa v.
Krueger, 917 F.3d 70, 82–83 (2d Cir. 2019) (defendant ordered
murders of witnesses who confronted associates about
defendant’s racketeering organization or cooperated with
police investigation into defendant’s illegal activities); Bruce
v. Warden Lewisburg USP, 868 F.3d 170, 175–76 (3d Cir.
2017) (defendant killed owner of the business he robbed, along
with owner’s fiancée who was present); United States v. Veliz,
800 F.3d 63, 67–68 (2d Cir. 2015) (defendant solicited murder
of co-conspirator whom he feared would talk to police about
defendant’s role in two murders); Aguero v. United States, 580
F. App’x 748, 753 (11th Cir. 2014) (defendant, a police officer,
planted weapons at scenes of shootings in which he was
involved and provided misleading statements to investigators
who would relay information to federal law enforcement);
United States v. Smith, 723 F.3d 510, 512 (4th Cir. 2013)
(defendant, a gang leader, orchestrated an attack on a witness
who was communicating with police on a near-daily basis
about the gang’s drug activity in her neighborhood); Stansfield,
101 F.3d at 917–18 (defendant killed witness who was sharing
information with law enforcement about defendant’s insurance
fraud scheme); see also United States v. Johnson, 874 F.3d

5
31a

Case: 17-2613

Document: 91

Page: 32

Date Filed: 04/14/2020

that Doreen Proctor posed any threat at all to Willie, or that
Willie knew of any such threat to himself or others. Allowing
the jury to infer that Proctor would have a future role in a
federal investigation is a far cry from allowing them to
conclude that Willie Tyler knew this and acted with an intent
to prevent it.
If Willie was portrayed as part of David’s group,
perhaps the result would be different. But Willie was not a
drug dealer, and he had to be asked by his brother if he knew
how to cock a gun. At one point, he had to be told his brother
was in town, and at the time of the murder, when he asked his
brother what was going on, he was told that it was not his
business. The most damning evidence of Willie’s involvement
was his accompanying his brother to the murder, his
declaration that “the bitch is gone” or “she’s gone” the
following morning, App. 507, 514, and Bell’s statement,
purportedly to Willie, that “you killed her,” App. 935. But,
again, that proves nothing as to his fear of Proctor’s
prospective communications, only his desire that she not be
alive to testify against his brother.
The intent element requires a showing that the
defendant “was motivated by a desire to prevent the
communication” between the victim and law enforcement.
Stansfield, 101 F.3d at 918. Such motivation is impossible
1078, 1079–80, 1083 (9th Cir. 2017) (defendant allegedly
withheld information from supervisor about an assault in
which defendant was purportedly involved, but evidence was
insufficient to demonstrate reasonable likelihood of
communication to a federal officer); see also United States v.
Bell, 113 F.3d 1345, 1350 (3d Cir. 1997) discussed infra.

6
32a

Case: 17-2613

Document: 91

Page: 33

Date Filed: 04/14/2020

unless the defendant knew or believed that the victim would,
in fact, communicate with law enforcement. See United States
v. Kozak, 438 F.2d 1062, 1065–66 (3d Cir. 1971). There is
simply no evidence from which this intent on Willie’s part can
be inferred. At most, there is evidence to allow two inferences:
(a) Willie knew that Proctor had provided information about
his brother and others, that she had testified against Hodge, and
that she was going to testify the next morning against his
brother; and (b) Proctor had continued to communicate
information to Detective Fones despite the apparent end to the
investigation. Lacking, however, is evidence that Willie knew
or believed Proctor was going to have any future
communication with law enforcement or acted to prevent it.4
4

If anything, the evidence shows that Willie had reason to
believe Proctor was finished working as an informant. Proctor
testified publicly at Hodge’s trial that she was “out of this
business.” App. 462. There is no suggestion in her
testimony—of which the Government asks us to assume Willie
was aware—that she still worked with law enforcement.
Further, the preliminary hearings, where Proctor’s identity as
an informant was revealed, occurred in late July and early
August 1991, but the murder did not occur until April 1992,
after Proctor had testified against Hodge and just before she
was expected to testify against David Tyler. Although the
timing shows that Willie and others sought to prevent the
testimony against David, it cuts against the idea that they
wanted to prevent investigation-related communications by
Proctor. Such a motive would have warranted earlier timing of
the murder to prevent law enforcement building a case against
Hodge and David. By the time of the murder, the evidence
indicates that, from Willie Tyler’s perspective, Doreen Proctor
was a trial witness who was done serving as an informant.

7
33a

Case: 17-2613

Document: 91

Page: 34

Date Filed: 04/14/2020

The evidence similarly fails to support the Majority’s
inference that Willie Tyler sought to prevent Proctor from
communicating with law enforcement about his own drug
activity. Nothing in the record suggests that Willie knew
Proctor or was familiar with her other than through her
testimony against his brother and Hodge. The record thus
contains zero evidence that Proctor knew about any drug
activity in which Willie was involved. The only evidence of
Willie engaging in drug activity at all before Proctor’s death is
Campbell’s testimony that she “used to get high with him.”
App. 484. There is no evidence that Proctor was present for or
aware of this drug use or that Willie believed she knew about
it. The same can be said of Willie’s receipt of drugs from his
brother after Proctor’s death, when Proctor could neither have
known nor communicated about the drug possession. Given
the lack of evidence that Willie Tyler had anything to fear from
Proctor’s communications to law enforcement, it would be
irrational to conclude on this record that his participation in
Proctor’s murder was motivated by a desire to prevent such
communications.
The Majority makes much of Willie’s response to Bell’s
statement that he killed Proctor, suggesting that his reaction
“gives rise to an inference that he was concerned about others
learning about his illegal activities.” Maj. Op. at 16. In
response to Bell saying, about Proctor, “you killed her,” Willie
said, “You don’t know who’s listening. You don’t know who
hears this.” App. 935. This certainly gives rise to an inference
that Willie was concerned about others learning of his
involvement in Proctor’s murder, but no greater inference
follows from the exchange. Notably, Willie did not try to
silence Bell during the preceding argument that revealed his
possession of unlawful drugs. Willie’s response to the murder

8
34a

Case: 17-2613

Document: 91

Page: 35

Date Filed: 04/14/2020

accusation does not show that he believed Proctor had
continued to cooperate with the Task Force or had any
information about drug crimes committed by him. One
therefore cannot rationally infer from Willie’s exchange with
Bell that he “feared that Proctor’s continued cooperation with
the Task Force would have resulted in additional
communications with law enforcement officers concerning
drug crimes committed by [him]” and that such a fear
motivated the killing. Maj. Op. at 16 (alteration in original)
(quoting United States v. Bell, 113 F.3d 1345, 1350 (3d Cir.
1997)).
The Majority makes that inference largely by importing
our analysis from United States v. Bell, but the factual records
of the two cases differ in dispositive ways.5 In Bell, we found
that “it was reasonable for the jury to infer that Bell feared that
Proctor’s continued cooperation with the Task Force would
have resulted in additional communications with law
enforcement officers concerning drug crimes committed by
5

The Majority contends otherwise, claiming that we applied
the Bell reasoning in Willie Tyler’s first direct appeal and
should do so here. Maj. Op. at 15. I disagree. In Tyler I, we
rejected Willie “Tyler’s argument that the evidence did not
establish federal jurisdiction under [18 U.S.C. § 1512] for the
same reasons that we rejected the identical arguments of Ms.
Bell.” United States v. Tyler (Tyler I), 164 F.3d 150, 153 (3d
Cir. 1998). We did not discuss Willie’s sufficiency of the
evidence arguments, and we did not describe the evidence
introduced at the trial at all. In my view, our scant reasoning
in Tyler I does not provide a basis from which we can conclude
that Bell’s reasoning with respect to intent to prevent a
communication should apply to the record before us.

9
35a

Case: 17-2613

Document: 91

Page: 36

Date Filed: 04/14/2020

Bell.” 113 F.3d at 1350. We reached that conclusion based in
part on evidence that Bell was involved in the drug trade with
David Tyler, about whom Proctor had provided information
and against whom she planned to testify. Id.6 The evidence in
Bell showed that “Bell was personally and heavily involved”
in the drug trade in Carlisle and Harrisburg about which
Proctor had provided information. Id. Indeed, we noted that
there was “evidence that Bell was at least as heavily implicated
as [David] Tyler in the drug trade for which Tyler was on trial.”
Id. Even on the current record in Willie’s case, we have
evidence that Bell engaged in drug distribution and specifically
distributed drugs to Proctor. Bell knew that Proctor had
information about her that Bell would not want communicated
to law enforcement. In contrast, the evidence presented at
Willie’s trial offered no reason to believe Willie was involved
in his brother’s drug trade, knew Proctor, or had reason to
Our emphasis in Bell on Bell’s involvement in the drug trade
was consistent with our case law, which has held evidence
sufficient to support a conviction for witness tampering with
intent to prevent a communication under § 1512 when the
defendant was the subject of the information he feared the
victim would communicate. See, e.g., Stansfield, 101 F.3d at
917–19 (holding evidence sufficient where defendant sought to
prevent informant from communicating information about
defendant’s insurance fraud scheme). Even the Government
argues that the implication that an informant was murdered to
prevent a communication with law enforcement arises “[i]f a
known informant is murdered by the subjects of her
information.” Appellant’s Br. at 33 (emphasis added). Here,
there is no evidence that Willie Tyler would have been the
subject of any information Proctor possessed.
6

10
36a

Case: 17-2613

Document: 91

Page: 37

Date Filed: 04/14/2020

believe she had information about him. Unlike Bell, Willie had
nothing to fear from Proctor’s potential communications with
law enforcement that would allow us to infer a motive to
prevent them.7
We also cannot rationally infer from knowledge of
Proctor’s past informant activities and plans to testify in state
court proceedings that Willie sought to prevent Proctor’s future
communications with law enforcement. Rational inferences
require “a logical and convincing connection between the facts
established and the conclusion inferred.” United States v.
Bycer, 593 F.2d 549, 550 (3d Cir. 1979). Here, the admittedly
rational inference that Willie knew of Proctor’s past informant
activities concerning his brother and associates does not
logically or convincingly lead to the further conclusions that
Willie believed Proctor had additional information, believed
she would continue to communicate with law enforcement
months after the investigation had apparently ended, and acted
to prevent such communications. Those inferences are not
rational and would not allow a jury to conclude beyond a
reasonable doubt that Willie intended to prevent Proctor’s
future communications.

The Majority emphasizes Willie’s “illegal activities” as
evidence of his intent to prevent Proctor from communicating
with law enforcement. Maj. Op. at 16, 16 n.10, 17 n.11. But,
as discussed supra, the only illegal activity that could have
contributed to his intent to participate in the murder was his
personal drug use, and there is no evidence that Proctor knew
anything about that use. Such illicit use is a far cry from Bell’s
heavy involvement in David Tyler’s drug trade. See Bell, 113
F.3d at 1350.
7

11
37a

Case: 17-2613

Document: 91

Page: 38

Date Filed: 04/14/2020

As the District Court noted, if evidence that Willie knew
Proctor had previously served as an informant was enough to
establish the necessary intent, any murder of a known
informant could become a federal crime. That approach would
allow the Government to circumvent the federal nexus
requirement of the official proceeding provisions, permitting
federal prosecution of a murder intended only to prevent state
court testimony. The District Court was correct in vacating
Willie Tyler’s conviction due to the absence of proof necessary
for the jury to find the essential element of intent. I therefore
respectfully dissent and would affirm.8

I concur in the judgment as to Willie Tyler’s cross appeal,
case number 17-2613. Although I would not find the basis for
the appeal moot, I agree with the Majority that our precedent
forecloses his argument.
8

12
38a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 1 of 40

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.
WILLIE TYLER,
Defendant.

:
:
:
:
:
:

1:96-cr-106

Hon. John E. Jones III

MEMORANDUM & ORDER
February 14, 2018
Presently pending before the Court is Defendant Willie Tyler’s (“Willie”)1
post-trial motion for judgment of acquittal. (the “Motion”) (Doc. 537). The Motion
has been fully briefed (Docs. 538, 552, 555, 557) and is therefore ripe for our
review.
I.

BACKGROUND
This matter has a lengthy and complex procedural history, of which the

parties are undoubtedly familiar. We will limit our recitation of the facts to those
relevant to the subject of the instant Motion – Willie’s most recent federal jury
trial.
In July 1992, state authorities arrested Willie, along with his brother David
Tyler (“Tyler”) and Roberta Bell (“Bell”), for murder and related offenses in
1

Because Willie Tyler’s brother, David Tyler, is integral to the facts presented at trial, and
another key person is David King, we refer to the Defendant as “Willie” and his brother as
“Tyler” to avoid confusion from using “Tyler” or “David” more than once. We intend no
disrespect nor imply familiarity with the Defendant in referring to him by his first name.
1
39a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 2 of 40

connection with the April 1992 death of Doreen Proctor (“Proctor”), a law
enforcement informant. Proctor was a Commonwealth witness in the prosecution
of Tyler for a drug trafficking offense, and she had been scheduled to testify the
day of her murder. Tyler was convicted of Proctor’s murder, Bell was acquitted,
and Willie was acquitted of homicide charges but was convicted of witness
intimidation. After serving his state sentence of imprisonment for witness
intimidation, on April 17, 1996, Willie was charged with federal offenses relating
to Proctor’s murder.
Following two prior jury trials, appeals, post-conviction petitions, and
intervening changes in interpretation of the law, and after the case’s initial
assignment to our now retired colleague, the Honorable William W. Caldwell,
Willie’s third federal jury trial commenced before this Court on July 12, 2017. On
July 18, 2017, Willie was found guilty of witness tampering by murder in violation
of 18 U.S.C. § 1512(a)(1)(C) (“Count II”) and witness tampering by intimidation
in violation of 18 U.S.C. § 1512(b)(3). (“Count III”). Count II carries a mandatory
sentence of lifetime imprisonment. 18 U.S.C. § 1111. Willie filed a timely posttrial motion for judgment of acquittal pursuant to Federal Rule of Criminal
Procedure 29. (“Rule 29”) (Doc. 537). The Motion is now ripe for disposition.

2
40a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 3 of 40

II.

LEGAL STANDARD
Pursuant to Rule 29, in ruling on a post-verdict motion for judgment of

acquittal, a district court must “review the record in the light most favorable to the
prosecution to determine whether any rational trier of fact could have found proof
of guilt beyond a reasonable doubt based on the available evidence.” United States
v. Wolfe, 245 F.3d 257, 262 (3d Cir. 2001). The court is required to “draw all
reasonable inferences in favor of the jury's verdict.” United States v. Anderskow,
88 F.3d 245, 251 (3d Cir.1996). A finding of insufficiency should “be confined to
cases where the prosecution's failure is clear.” United States v. Leon, 739 F.2d 885,
891 (3d Cir. 1984). A district court must be careful “not to usurp the role of the
jury by weighing credibility and assigning weight to the evidence, or by
substituting [its] judgment for that of the jury.” United States v. Brodie, 403 F.3d
123, 133 (3d Cir. 2005) (citing United States v. Jannotti, 673 F.2d 578, 598 (3d
Cir. 1982)) (en banc).
III.

DISCUSSION

Willie argues that the record, reviewed carefully and viewed in the light
most favorable to the Government, does not provide a sufficient basis to find him
guilty beyond a reasonable doubt on either Count II or III. We begin our analysis
with a review of the elements for each offense. The jury found Willie guilty of 18
U.S.C. § 1512(a)(1)(C) and (b)(3). Both offenses require four elements to be
3
41a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 4 of 40

satisfied in order to sustain a verdict of guilty, and three of those elements are
identical for each. The first element in each offense involves the actions of the
defendant and the latter three elements pertain to the defendant’s intent.
The first element of Count II, witness tampering by murder, is that Willie
“kill[ed] or attempt[ed] to kill another person.” 18 U.S.C. § 1512(a)(1). To
establish this first element, the jury had to find that the evidence supported the
three underlying elements of murder beyond a reasonable doubt, namely: (1)
Willie unlawfully killed Proctor as charged; (2) Willie acted with malice
aforethought; and (3) Willie acted with premeditation. See 18 U.S.C. § 1111. The
first element of Count III, witness tampering by intimidation, is that Willie
“knowingly use[d] intimidation, threaten[ed], or corruptly persuade[d] another
person, or attempt[ed] to do so, or engage[d] in misleading conduct toward another
person.” 18 U.S.C. § 1512(b).
The Government argued that the jury could find either that Willie murdered
Proctor or that he aided and abetted Tyler and Bell in her murder. For the jury to
find Willie guilty of the elements of murder based on aiding and abetting, the
evidence must satisfy four elements: (1) someone else committed the offense
charged, namely, the murder of Proctor; (2) Willie knew that the murder was going
to be committed or was being committed; (3) Willie knowingly did some act for
the purpose of aiding, assisting, facilitating or encouraging the others in the murder
4
42a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 5 of 40

and with the intent that they commit the murder; and (4) Willie performed an act in
furtherance of the murder. See Third Circuit Model Criminal Jury Instructions
7.02.
The latter three elements of each charge under 18 U.S.C. § 1512 relate to the
defendant’s intent and are as follows: (2) the defendant acted with an intent to
prevent a communication; (3) the communication would concern the commission
or possible commission of a federal offense; and (4) the communication would be
addressed to “a law enforcement officer or judge of the United States.” 18 U.S.C.
§ 1512(a)(1)(C) and (b)(3); see also Fowler v. United States, 563 U.S. 668, 672
(2011).
In his Motion, Willie argues that the trial evidence was insufficient for a jury
to find beyond a reasonable doubt that the action element was satisfied for Count
II, witness tampering by murder, and that the latter three intent elements were
likewise unsatisfied for either count. Following Willie’s lead, we shall begin our
discussion with the action element of Count II, namely, the underlying offense of
murder. We will then analyze the latter three elements for each offense.
A. Count II – Action Element
Willie argues that the trial evidence concerning the murder of Proctor, even
when viewed in the light most favorable to the Government, cannot support a
finding that Willie knowingly engaged in or aided and abetted the murder of
5
43a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 6 of 40

Proctor. The Court has thoroughly reviewed the factual testimony offered at trial,
with a particular eye towards the evidence offered to support a finding of Willie’s
involvement.2 We will first summarize the pertinent evidence presented to prove
that Willie knowingly engaged in or aided and abetted the murder of Proctor, and
then analyze the sufficiency of that evidence in light of the jury verdict.
1. Trial Evidence of Willie’s Action
The Government’s first relevant fact witness to testify was Gwanda
Campbell. On direct examination, Campbell testified that on the day prior to
Proctor’s murder, April 20, 1992, she was at the house of Mary Jane Hodge with
Willie. (Tr. 175).3 She testified that she and Willie drove to the store to get Hodge
a soda and ended up picking up Willie’s brother, David Tyler. (Id.). Campbell
testified that while the three of them were driving, they spotted Proctor and Tyler
and that Willie said something to the effect of “they were going to do something to
her then, but there were too many cars.” (Tr. 177:19-20). She testified that the
three then returned to Hodge’s house. (Tr. 178). Tyler walked to the back of the
house and picked something up “and he asked Willie did he know how to cock it.”
(Tr. 178:19-20). Campbell testified that Tyler was holding a long gun and Willie
2

Willie did not dispute at trial, and the evidence presented unequivocally demonstrated, the
circumstances and causes of Proctor’s death. The Government recounts testimony relating to this
in their brief in opposition to the Motion (Doc. 552, pp. 5-9), but we will focus on the factual
evidence offered in support of who committed the murder as relevant to the Motion.
3
Citations to the transcript of the proceedings shall be made as Tr. followed by the page number
and, when applicable, line numbers.
6
44a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 7 of 40

cocked it. (Tr. 179). She then got scared and hurried inside of the house. (Id.).
Campbell testified that Hodge was in the home, as well as Jerry King and David
King, who are Roberta Bell’s uncles. (Tr. 182). She further testified that Willie and
Tyler eventually left the house, and, after some time, Jerry and David King left as
well. (Tr. 187). While at Hodge’s house, Campbell observed several phone calls.
Roberta Bell, Tyler’s girlfriend, first called Hodge. (Tr. 187). Tyler then called
Hodge. (Tr. 188). Campbell testified that she spent the night at Hodge’s house and
that Willie returned in the morning and stated, “[t]he bitch is gone.” (Tr. 194:5-6).
An hour later, Tyler returned in a purple suit for court that morning and said, “I’ll
be at court and that bitch won’t.” (Tr. 194:13-14).
On cross examination, Campbell was presented with prior testimony from
1996 where she testified that she did not see Willie cock the gun at Hodge’s house,
but that she heard the gun cock. (Tr. 195). She was asked on cross-examination
about her testimony that Willie returned in the morning and said “the bitch is
gone.” (Tr. 198). Defense counsel asked, “[t]hat statement was actually made by
David Tyler, wasn’t it?” and Campbell responded “I really can’t recall.” (Tr.
198:18-19). Defense counsel presented Campbell with her prior sworn testimony
that all Willie said when he returned was simply “that he had to drive Mary Jane’s
car back to Gettysburg.” (Tr. 199:3-4). On re-direct examination, Campbell
testified that she remembered Willie “coming in saying something - - like I said, I
7
45a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 8 of 40

can’t really recall, but I just know he said something like, she’s gone.” (Tr. 201:1113).
The next relevant fact witness offered by the Government was Mary Jane
Hodge. Hodge testified that on April 20th, 1992, she was driving around with
Campbell when she saw David Tyler, David King, Jerry King, and Roberta Bell in
front of a bar in a gray car. (Tr. 208). She continued driving and saw Willie
standing on the corner. (Id.). Hodge testified that she told Willie, “your brother’s in
town” and gave him a ride to his brother. (Tr. 208:16). Willie and Tyler talked, and
then Willie got in the car with Hodge and Campbell and went back to Hodge’s
house. (Tr. 208). At a later point, Willie and Campbell left to get Hodge a soda
from the store. (Tr. 209-210). When they returned, they stayed out back for a
moment and Campbell came in the back door visibly shaken up. (Tr. 210).
Campbell told Hodge that she saw a gun. (Id.). Still later, Willie left with Tyler and
Jerry King left as well. (Tr. 212-213).
Hodge testified that Roberta Bell came to her house later that night. (Tr.
213). Bell told Hodge that she was at Proctor’s house and “could have killed her
right there, but then her daughter was there, and she would have had to kill her
daughter, too.” (Tr. 214:1-2). Bell was “waiting on drugs,” which were to be used
to “lure” Proctor out of her apartment, and then Bell left. (Tr. 214-216).

8
46a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 9 of 40

Later in the evening, Tyler called Hodge and “said he lost” Bell due to the
fog and asked Hodge to give Bell his phone number if she called the house. (Tr.
216). Bell then called Hodge from a car phone and “she said, I have her,” referring
to Proctor. (Tr. 217-218). David King, who was at Hodge’s house, then called Bell
back and gave her the phone number for Tyler. (Tr. 217-219). Hodge testified that
the next morning, Tyler returned to the house and said “she’s gone.” (Tr. 220:6).
Hodge testified that she did not see Willie that morning. (Tr. 220:11). Though the
timeline was unclear, Hodge testified that at some point, Jerry King and Willie
were sitting in her living room and “Jerry was saying how sloppy it was. He said it
was a sloppy job they did, he said, because where he came from, they use
binoculars and a time watch.” (Tr. 212:4-6).
On cross-examination, defense counsel presented Hodge with her prior
sworn testimony regarding the statement from Jerry King; in 1992, Hodge had
testified that nobody was present when Jerry King discussed that it was a “sloppy”
job. (Tr. 224). Defense counsel also presented Hodge with other examples of times
where she lied; Hodge admitted that she lied when she initially spoke to state
troopers in 1992 and lied when she previously testified under oath that she did not
hear any conversations between any of the defendants. (See, Tr. 228, 230). She
also admitted to lying under oath at her trial in January 1992 when she denied
selling drugs to Proctor. (Tr. 230).
9
47a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 10 of 40

The Government’s next witness to testify as to Willie’s involvement was
Laura Barrett – this testimony was actually read into the record from a transcript of
prior trial testimony. The Government attached the transcript as an exhibit to their
brief in opposition to the Motion. (Doc. 552, Ex. 1). Barrett testified that Roberta
Bell was like a daughter to her and that she watched her kids and was around
Bell’s house often. (Id. at 281). Barrett testified that, prior to April 20, 1992, there
was a time where Willie, Bell, Tyler, Hodge, and Jerry and David King were all at
Bell’s house. (Id. at 282). Bell told Barrett that she could not stay at the house
because “they were having a family meeting.” (Id.).
Barrett testified that on April 20, 1992, Bell called her and asked if Barrett
would watch her children. (Id. at 285). Barrett went to Bell’s house and saw Tyler,
David King, and Jerry King at the house. (Id. at 286). Barrett testified that the next
morning, she saw Bell come in the back of the house with “an arm full of bloody
clothes.” (Id. at 287). Bell told Barrett that “if anybody asked [], she was home all
night, to tell them that she was.” (Id.).
Finally, Barrett testified regarding a conversation that she overheard
between Bell, Willie, and Tyler sometime after April 21, 1992. The three were
arguing because Tyler gave Willie some drugs that he was supposed to give to
Jerry King. (Id. at 289). Barrett testified, “I heard [Bell] tell David that she shot
[Proctor].” (Id.). She testified that Bell said to Willie, “I shot [Proctor] but you
10
48a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 11 of 40

killed her” and that Willie then said “[y]ou don’t know who’s listening. You don’t
know who hears this” and left. (Id., at 290). Tyler then said to Bell, “I knew this
shit was going to happen.” (Id.). Barrett initially told police, and testified at Bell’s
first trial, that she and Tyler were at the house when she went to sleep and were
there when she awoke, but did not relay any information regarding the bloody
clothing or subsequent conversation. (Tr. 290-291). Defense counsel stressed that
Barrett only overheard the conversation, rather than saw it, and thus could not
positively identify to whom Bell was speaking when she stated that “you killed
her.”
The Government also presented Ola Woods. Woods has two children with
Tyler. (Tr. 344). Woods testified that in 1992, she would receive phone calls from
Bell to pass along to Tyler in prison. (Tr. 346). During one of those calls, Woods
testified that Bell “told me to let David know that her and her uncles have their
story together, and if worst comes to worst, to put it on Little Man.” (Tr. 346:1719). Woods made clear on cross-examination that “Little Man” is Willie Tyler. (Tr.
348:1-2). That was the extent of Woods’ testimony.4
The Government also presented a portion of a letter written by Willie
detailing his version of the events. The letter was Government Exhibit 18A. The
letter is dated June 8, 1993 and is addressed to the sentencing judge in the state
4

Indeed, the Court must express its curiosity as to the Government’s purpose in presenting this
witness at all, as her only effect was to cast doubt on its case.
11
49a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 12 of 40

court case in which he was acquitted of murder and found guilty of witness
intimidation. The letter was certainly the clearest and most direct evidence of
Willie’s involvement. The parts of the letter introduced by the Government are as
follows:5
One night when I was at Mary Jane Hodge house, it was about
11:30 p.m. I was laying on the couch, watch TV half asleep. Mary and
Gwanda came in the house, and she ask me to go to the store for her
because she was expecting a telephone call. So I ask Gwanda out, she
want to ride with me to the store to get a soda. That wasn’t unusual
because I had did that a number of time when I was live there.
On my way there to the store, I run across my brother David.
He ask me, he want me to take him someplace. That wasn’t unusual,
even because I always drove him different place. So I told him that I
had to take Mary a soda and use the bathroom.
When I got there, Jerry and David King was there, so when I
went and use the bathroom upstair and came back down, Jerry had
left. So on the way out the house, I ask him why did Jerry leave David
King at the house, and he told me that they was going to pick him up
because they had something to do.
So he told me that he want me to take him across the mountain,
that meant Gettysburg, because he had to pick up something from
Mrs. Bell, and he didn’t want Mary to know he was going to Mrs. Bell
house. We wait at the fire station for Mrs. Bell, David, and Jerry for
about 15-20 minute.
So I follow them down 34 to Gettysburg that night. It was very
foggy, and I had to drive slow, and we got lost. So David told me to
stop at the High store to use the phone, and he call someone, but I

5

While the letter is difficult to decipher in its original form, there were no objections to the
accuracy of the content read into the record at trial. We thus will use the transcript of a
Government witness reading the letter into the record.
12
50a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 13 of 40

don’t know who. So we left there about five minute lately after he got
another phone call.
So we left there and went down by the bank in Biglerville. That
where he told me Mrs. Bell was taking Jerry home and want us to
meet her in Arendtsville because she had his court paper with her.
So on the way to Arendtsville, he told me to pull over, and Mrs.
Bell was behind us at that time, because I ask him where we was
going. So Mrs. Bell got out of the car and came where we was at and
said that I have her. So I ask David what was going on. He told me
that Mrs. Bell had a surprise for him.
After she left the car, I’m not sure, but I believe she had a gun.
About five second after that, I hear a shot. I ask him what was going
on, and he told me it wasn’t my business. In about 10 to 15, I was
drove off and I hear another shot.
On the way back to Gettysburg, I told him I would have did that
to you, and I left him in Gettysburg.
(Tr. 404-405). Finally, the Government also presented Craig Fenstermacher,
a Pennsylvania State Police trooper at the time of Proctor’s death, to testify as to
certain facts. He testified that Bell lived in Gettysburg at the time of the homicide.
(Tr. 331). He also testified that Willie and Tyler had a sister who resided in the
Arendtsville area, near where Proctor’s body was found. (Tr. 332-333). He also
recounted phone records that confirmed that there were a series of phone calls
made from High’s Dairy Store in Biglerville, Pennsylvania, Hodge’s house, and
the car phone in the gray Marquis. (Tr. 335-339, 341-342). Other evidence
demonstrated that the gray Marquis was associated with Jerry King and Bell and
that it contained evidence that Proctor had been in the vehicle.
13
51a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 14 of 40

2. Analysis of Evidence Presented Against Willie
Each of the Government’s primary fact witnesses presented testimony that
was riddled with memory failures and material inconsistencies from prior
testimony. Mary Jane Hodge and Laura Barrett each admitted to previously lying
under oath. Defense counsel further impeached Mary Jane Hodge with other
information, most notably that she went from facing the death penalty for her
involvement in Proctor’s death to two to four years for her cooperation to testify
against the others. (Tr. 237). However, notwithstanding our concerns, we are
mindful that case law is abundantly clear that “the district court may not make
credibility determinations when it rules on a motion for judgment of acquittal.”
United States v. Giampa, 758 F.2d 928, 935 (3d Cir. 1985). The Supreme Court
clearly instructs that the trial court “is not to weigh the evidence or assess the
credibility of witnesses when it judges the merits of a motion for acquittal.” Burks
v. United States, 437 U.S. 1, 16 (1978). We therefore will accept the testimony of
each of the Government’s witnesses at trial in analyzing whether the evidence was
sufficient to support a finding of guilt.
To reiterate, the Government bore the burden to prove beyond a reasonable
doubt that Willie “kill[ed] or attempt[ed] to kill another person.” 18 U.S.C.
§ 1512(a)(1). To establish this first element based on principal liability, the jury
had to find Willie guilty of the underlying three elements of murder: (1) Willie
14
52a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 15 of 40

unlawfully killed Proctor as charged; (2) Willie acted with malice aforethought;
and (3) Willie acted with premeditation. See 18 U.S.C. § 1111. Alternatively, the
jury could have found that the first element was satisfied because Willie aided and
abetted the murder of Proctor. See Third Circuit Model Criminal Jury Instructions
7.02. This still requires a finding beyond a reasonable doubt that Willie knew that
the murder was being committed or would be committed, knowingly performed an
act for the purpose of aiding, assisting, facilitating, or encouraging the others, in
committing the murder, and performed an act in furtherance of the murder.
In the Motion, the defense argues that “[w]hile the evidence may permit a
reasonable inference that David Tyler and Roberta Bell murdered Doreen Proctor,
it does not permit such an inference for Willie Tyler.” (Doc. 538, p. 8). The
defense argues that “such a finding is purely speculative.” (Doc. 538, p. 9).
Viewing the evidence in the light most favorable to the Government, and
constrained by the jury’s credibility determinations, we cannot hold that no
“rational trier of fact could have found proof of guilt beyond a reasonable doubt
based on the available evidence.” United States v. Wolfe, 245 F.3d 257, 262 (3d
Cir. 2001). The evidence supports a finding that Willie is guilty of the underlying
offense of murder under accomplice liability. The Defendant admits that the
evidence is sufficient to support a finding that Tyler and Bell murdered Doreen
Proctor. (Doc. 538, p. 9). The first element of murder by accomplice liability is that
15
53a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 16 of 40

someone else committed the crime charged; Willie’s concession therefore satisfies
the first element in establishing Willie’s guilt as an accomplice to Proctor’s
murder. See Third Circuit Model Criminal Jury Instructions 7.02.
The next element to establish in order to find Willie guilty of murder as an
aider and abettor is that Willie knew that the murder was going to happen. See
Third Circuit Model Criminal Jury Instructions 7.02. Campbell testified that Willie
showed Tyler how to cock a gun on the night of the murder – the night before
Proctor was to testify against Tyler. (Tr. 178-179). A reasonable inference to draw
from this evidence is that Willie was aware of Tyler’s intention to use that gun on
Proctor. This is a particularly reasonable inference to draw in light of Campbell’s
testimony that Willie and Tyler saw Proctor while driving earlier and said “they
were going to do something to her then, but there were too many cars.” (Tr. 177:
19-20).
The last two elements are that Willie knowingly did some act for the purpose
of aiding, assisting, facilitating or encouraging Tyler and Bell in committing the
murder and with the intent that they commit the murder, and that Willie performed
an act in furtherance of the murder. See Third Circuit Model Criminal Jury
Instructions 7.02. The same evidence of showing Tyler how to cock the gun can be
used to satisfy these elements. In addition, Willie admitted in his letter that he
drove Tyler to the murder scene that night – although he claims that he was
16
54a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 17 of 40

unaware of what was going to happen. It was reasonable for the jury to conclude
that by showing Tyler how to cock the gun and by driving Tyler to the murder
scene, Willie twice acted to assist, facilitate, and encourage the murder and acted
in furtherance of that murder. The jury chose not to credit Willie’s assertion in his
letter that he was unaware of what was going to happen when he was driving Tyler
and we are duty-bound to respect that credibility determination.
Despite the foregoing, the evidence implicating Willie in Proctor’s murder
was manifestly quite thin, and consisted primarily of testimony that raised
considerable credibility issues. As a result, we paid careful attention during trial in
order to analyze whether the Government had met its burden in its case-in-chief to
establish the underlying offense of murder in the first element of Count II. The
conclusion that we drew then is the same that we make now – viewing all of the
evidence in the light most favorable to the Government, and drawing all inferences
in its favor, it is possible for a rational trier of fact to find that Willie knowingly
killed Proctor or aided and abetted Tyler and Bell in her murder. With a strict legal
standard of review at play, and a jury’s duly-rendered guilty verdict before us, we
must hold that the evidence was sufficient to support the jury’s finding that the first
element of Count II, as it incorporates the underlying offense of murder, was
satisfied.

17
55a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 18 of 40

B. Intent Elements
As previously stated, the latter three elements of each offense under 18
U.S.C. § 1512 require that the evidence establish, beyond a reasonable doubt, that:
(2) the defendant acted with an intent to prevent a communication; (3) the
communication would concern the commission or possible commission of a
federal offense; and (4) the communication would be addressed to “a law
enforcement officer or judge of the United States.” 18 U.S.C. § 1512(a)(1)(C) and
(b)(3); see also Fowler v. United States, 563 U.S. 668, 672 (2011). Willie argues
that the trial evidence cannot support his convictions under either count because it
does not establish any of the three required intent elements beyond a reasonable
doubt. (Doc. 538, p. 10). We will address each element in turn.
1. Intent To Prevent a Communication
First, Willie argues that the evidence does not support a finding that he
killed or intimidated Proctor with an intent to prevent a communication; rather,
Willie argues that the only evidence offered suggested that his intent was to
prevent Proctor from testifying at the state trial against Tyler the next day. (Id.). As
the parties recognize, Proctor’s testimony at the state trial against Tyler the next
morning is separate from an investigation-related communication and cannot form
the basis of convictions against Willie. For both witness tampering by murder and

18
56a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 19 of 40

witness tampering by intimidation, the statute outlines several distinct types of
intent:
18 U.S.C. § 1512
(a) (1) Whoever kills or attempts to kill another person, with intent to—
(A) prevent the attendance or testimony of any person in an official
proceeding;
(B) prevent the production of a record, document, or other object, in
an official proceeding; or
(C) prevent the communication by any person to a law enforcement
officer or judge of the United States of information relating to
the commission or possible commission of a Federal offense or a
violation of conditions of probation, parole, or release pending
judicial proceedings;
[. . .]
(b)

Whoever knowingly uses intimidation, threatens, or corruptly
persuades another person, or attempts to do so, or engages in
misleading conduct toward another person, with intent to—
(1) influence, delay, or prevent the testimony of any person in an
official proceeding;
(2) cause or induce any person to—
(A) withhold testimony, or withhold a record, document, or other
object, from an official proceeding;
(B) alter, destroy, mutilate, or conceal an object with intent to
impair the object’s integrity or availability for use in an
official proceeding;
(C) evade legal process summoning that person to appear as a
witness, or to produce a record, document, or other object, in
an official proceeding; or
(D) be absent from an official proceeding to which such person
has been summoned by legal process; or
(3) hinder, delay, or prevent the communication to a law
enforcement officer or judge of the United States of information
relating to the commission or possible commission of a Federal
offense . . .
19
57a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 20 of 40

The statute contemplates conduct intended to “prevent the attendance or
testimony of any person in an official proceeding” at § 1512(a)(1)(A) and (b)(1),
which are separate subsections from the ones that Willie was charged with and was
ultimately convicted under. See 18 U.S.C. § 1512(a)(1)(A) and (b)(1). Willie was
charged with and convicted of § 1512(a)(1)(C) and (b)(3), which require a finding
of a specific intent to prevent investigation-related communications. Even if Willie
was charged with § 1512 under the sections that criminalize killing or intimidation
with an intent to prevent attendance or testimony at an official proceeding,
following the reasoning of the Supreme Court in Arthur Andersen LLP v. United
States, 544 U.S. 696 (2005), the Third Circuit has made explicit that the “official
proceeding” language of § 1512 requires a finding that the official proceeding was
federal in nature. No one contends this is applicable to Proctor’s testimony at
Tyler’s state trial. United States v. Shavers, 693 F.3d 363, 378 (3d Cir. 2012),
vacated on other grounds by Shavers v. United States, 133 S. Ct. 2877 (2013).
The Government, therefore, needed to establish Willie’s intent to prevent
Proctor from making a communication separate from her testimony at Tyler’s state
trial. Willie argues that no evidence, direct or circumstantial, was introduced to
support an inference that his intent was to prevent any communication other than
Proctor’s testimony against Tyler in state court. (Doc. 538, p. 11).

20
58a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 21 of 40

The Government counters that the evidence was sufficient for a rational jury
to find that Willie killed Proctor with an intent to prevent a communication. The
Government maintains that the “evidence presented at trial proved that Proctor had
access to David Tyler and his associates, and that she was aware of their collective
nefarious activities.” (Doc. 552, p. 45). From this, the Government argues, “[t]he
reasonable inference is that [Willie] and his accomplices knew that Proctor had
information about their illegal activities” and “acted to prevent what they perceived
to be the inevitable, that Proctor would continue to inform on their criminal
activities, so long as she was their neighbor in Carlisle.” (Id.). The Government
points to just three facts in the record to support this contention: that Proctor was
providing information about drug dealing to the authorities, that Barrett and
Campbell referenced ongoing drug use on the night before Proctor’s murder, and
that Proctor obtained cocaine from Bell on the night of her death. (Doc. 552, 4445).
In addition to the aforestated three facts proffered by the Government, we
have scoured the record to determine the existence of evidence that tends to prove
that Willie’s intent was anything other than to prevent Proctor’s testimony. We can
find none. The Government relies exclusively upon Proctor’s status as an
informant as circumstantial evidence of Willie’s intent to prevent an investigation-

21
59a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 22 of 40

related communication; we will thus look to the evidence of Proctor’s activities as
an informant.
To start, and most obviously, we reiterate that the evidence firmly
established that Proctor was scheduled to testify at the state court trial of Tyler the
morning of her death. (Tr. 87). Detective David Fones testified that Proctor was
“due to testify in court proceedings, and she was also providing information and
intel of drug dealing that she knew was going on at the time.” (Tr. 88). Proctor had
also testified at the state court preliminary hearings of Mary Jane Hodge, Jerome
Butchie Evans, Cindy Brooks, and David Tyler after making controlled purchases
of cocaine from them. (Tr. 83-86, 125-126). Proctor testified at the state court jury
trial of Hodge in January 1992 and Hodge was ultimately convicted. (Tr. 96).
Proctor’s identity as a police informant was therefore known at the time of her
murder. The Government presented evidence that Bell sold cocaine to Proctor on
the night of her murder even with the knowledge of her status as an informant,
suggesting that Proctor had ongoing information that could be used to implicate
Tyler and his associates. (Tr. 214-216).
Beyond the timing of Proctor’s murder and her actions as an informant
against members of Willie’s group of friends, the only evidence relating to the
intent behind Proctor’s murder comes from the testimony of Campbell and Hodge
– and, indeed, their testimony does not support an inference that Willie’s intent
22
60a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 23 of 40

was something other than to prevent Proctor’s testimony. To reiterate, Campbell
testified that Willie returned to Hodge’s house the morning after Proctor’s murder
– the morning of Tyler’s state court trial – and said, “[t]he bitch is gone.” (Tr.
194:5-6). She further testified that Tyler returned to Hodge’s house an hour later
dressed for court and said, “I’ll be at court and that bitch won’t.” (Tr. 194:13-14).
Hodge also testified that Tyler returned to her house that morning and said “she’s
gone.” (Tr. 220:11).
The foregoing is the full extent of the evidence offered to prove intent at
Willie’s trial. The Government has not directed us to any other portion of the
record, and our comprehensive review of all the testimony has yielded no other
evidence, from which a jury could infer intent. Willie argues that “the evidence
proved nothing more than that she was murdered for one purpose, and one purpose
only: to prevent her from testifying against David Tyler in the County of Common
Pleas of Cumberland County in April 1992.” (Doc. 538, p. 10). The Government
reasons, “even if a portion of their motivation and intent was to prevent her from
testifying, it is not mutually exclusive to their larger goal of preventing her from
communicating with law enforcement” as “they were also aware that she
necessarily had ongoing relationships and contacts with law enforcement officers.”
(Doc. 552, p. 44).

23
61a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 24 of 40

Though we agree that a defendant can have multiple intentions behind his
actions, we are now tasked with determining whether this evidence, viewed in a
light most favorable to the government, was sufficient for any rational trier of fact
to find beyond a reasonable doubt that Willie acted with an intent to prevent a
communication. As we have already held, the evidence was sufficient to support a
finding that Willie was involved with Proctor’s murder in some capacity; as
heinous and deplorable as this is, convictions under 18 U.S.C. § 1512(a)(1)(C) and
(b)(3) require a finding that the specific intent of Willie’s actions was to prevent
investigation-related communications. This intent requirement is what makes
§ 1512 a federal crime and provides the very reason that the federal government
was permitted to bring charges against Willie even after he was acquitted of
homicide charges in state court for the same conduct. Put another way, without this
specific intent requirement, the proceedings before us would have merely been a
retrial on charges virtually identical to those for which Willie had been acquitted.
As aforementioned, this intent is separate from an intent to prevent a person
from testifying at an official proceeding; the Government cannot subvert the
federal requirement for the “official proceeding” subsections of § 1512 by
morphing a state proceeding into a general investigation-related communication.
To allow Willie’s convictions to stand based upon evidence that is anything less
than sufficient to establish guilt beyond a reasonable doubt that he intended to
24
62a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 25 of 40

prevent a communication other than Proctor’s testimony at Tyler’s trial would, in
practicality, sidestep double jeopardy restrictions and allow him to be convicted
purely for homicide when, as noted, he had already been acquitted of that charge.6
The timing of Proctor’s murder and Tyler’s statement that the “bitch” would
not be at court point only to an inference that Willie killed Proctor to prevent her
testimony at his state court proceeding – an inference that cannot be used to
support the intent requirement for the investigation-related communication
provisions. Apart from that, the only evidence offered to prove the relevant
specific intent was Proctor’s known status as an informant with information that
could implicate Willie’s brother and friends. The Government built off of Proctor’s
status as an informant and adduced much evidence to support the third intent
element that Proctor would have made a relevant communication to a federal
officer; yet, a review of the record makes clear that evidence to prove the crucial
threshold intent to prevent that hypothetical future communication was severely
lacking. Were we to hold that evidence that the defendant knew that the victim was
6

It is worthwhile to note that Willie moved to dismiss the federal indictment on the grounds of
double jeopardy. (Doc. 375). Our now retired colleague Judge Caldwell denied the motion based
on well-established law that prosecution of the same crime in both federal and state systems is
not violative of the Double Jeopardy Clause, and based upon clear instruction from the Third
Circuit to conduct a retrial. (Doc. 412). The Third Circuit summarily affirmed. (Doc. 431). Willie
filed a petition for a writ of certiorari with the Supreme Court on July 27, 2017. (Supreme Court
No. 17-5410). The Supreme Court ordered a response from the Government and has scheduled
the case for distribution for conference. The Constitutional Accountability Center, in partnership
with the Cato Institute, has filed an amici curiae brief in support of Willie. The National
Association of Criminal Defense Lawyers also filed an amici curiae brief in Willie’s support, as
well as a group named only as “Law Professors.”
25
63a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 26 of 40

an informant with implicating information against his friends and family was
sufficient to prove this specific intent, we would essentially eviscerate any intent
requirement at all and would allow federal witness tampering convictions against
virtually all homicides of state and local police informants.
Based on the evidence presented, an inference that Willie acted with the
distinct intent to prevent an investigation-related communication is far too
speculative to withstand judicial review. At the end of the day, it is clear that
Proctor was murdered because she was going to testify the next morning against
Tyler. Though an atrocious crime, it is one that falls under the purview of state
charges unless the evidence can satisfy the specific intent element that brings it
under the ambit of the federal witness tampering statute. Even in the face of the
incredibly high standard of review for a Rule 29 post-trial motion for judgment of
acquittal, we cannot hold that this evidence was sufficient to support any rational
trier of fact to find guilt beyond a reasonable doubt for this element. This finding
of intent was a necessary element for each of Willie’s convictions under § 1512.
We therefore must grant the Motion on this basis and vacate both of his
convictions.
Though our holding that the evidence could not support a finding that Willie
acted with an intent to prevent a communication is determinative, for the sake of
clarity and completeness, we address the defense’s arguments regarding the latter
26
64a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 27 of 40

two elements as well. In doing so, we have found an additional basis on which to
vacate Willie’s convictions.
2.

Communication Concerning a Federal Offense

Willie next argues that even if he intended to prevent a communication, the
evidence was insufficient to prove that the communication would concern the
commission or possible commission of a federal offense. To this end, Willie argues
that there was no evidence presented at trial to prove that Proctor would provide
any communication of a federal offense, namely, interstate drug trafficking. (Doc.
538, p.11). Further, the defense maintains that the record is devoid of any evidence
that Willie was aware of any interstate drug dealings, negating any alleged intent
of Willie to prevent a communication regarding a federal offense. (Doc. 538, p.
12). The defense concedes “the record would support the inference that Willie
Tyler knew about the allegations of David Tyler’s local drug dealings,” but the
defense argued at trial that Tyler’s drug dealings would not ultimately be
prosecuted as federal offenses. (Doc. 538, p. 12) (emphasis in original).
The Government responds by pointing to the testimony from Gregory Lee, a
retired agent with the Drug Enforcement Agency (“DEA”), that cocaine sold in
Pennsylvania necessarily originated from outside of the country. (Tr. 510). The
Government further presented testimony from DEA Special Agent David Keith
Humphreys that he has “handled a multitude of [] cases and generally they are
27
65a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 28 of 40

small buys, and we try to make multiple buys in order to develop the case.” (Tr.
353). He also testified that the distribution of any quantity of cocaine is a violation
of the federal Controlled Substances Act. (Tr. 353). The Government presented
substantial evidence to the jury concerning the DEA’s process of selecting drug
cases to prosecute and how a local drug investigation could transform into a federal
prosecution. The jury thus accepted the Government’s theory that Proctor would
have made a communication concerning a federal offense because Tyler’s drug
activity constituted a potential federal offense.
The Government does not respond to Willie’s assertion that this element was
not satisfied because there was no evidence that Willie was aware of any of Tyler’s
interstate drug activities, but we can easily dispose of this argument. We find no
indication that convictions under § 1512(a)(1)(C) and (b)(3) require a finding that
the defendant was aware that the underlying offense was actually federal in nature
– indeed, most lay people would not know what type of conduct constitutes a state
or local crime as opposed to a federal offense. Moreover, in United States v. Tyler,
the Third Circuit recited this element as requiring proof “that offense was actually
a federal offense,” without reference to the defendant’s knowledge of the federal
status. 732 F.3d 241, 252 (3d Cir. 2013) (citing United States v. Stansfield, 101
F.3d 909, 919 (3d Cir. 1996)). We therefore find that sufficient evidence supported

28
66a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 29 of 40

the jury’s finding that the communication concerned the commission or possible
commission of a federal offense, satisfying this element for both counts.
3.

Communication Made to a Federal Law Enforcement Officer

Finally, assuming arguendo that Willie intended to prevent a communication
and that communication concerned a federal offense, Willie argues that the
evidence does not support a finding that Willie killed Proctor with an intent to
prevent a communication to a federal law enforcement officer. (Doc. 538, p. 12).
This argument is multifaceted. Willie first argues that this element cannot be
satisfied because the evidence pointed to potential future communications to one
specific non-federal law enforcement officer – Detective David Fones of the
Carlisle Police Department. (Doc. 538, p. 14). With the evidence pointing to one
specific law enforcement officer, Willie argues that the standard elucidated in
Fowler v. United States, 663 U.S. 668 (2011), and relied upon by the
Government’s theory of the case, is inapplicable. (Doc. 538, pp. 12-18). Next,
Willie argues that the evidence was insufficient to support a finding that he killed
Proctor with an intent to prevent a communication to a federal law enforcement
officer even under the Fowler standard because there was not a reasonable
likelihood that a relevant communication would have been made to a federal
officer. (Doc. 538, pp. 19-30).

29
67a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 30 of 40

The Government does not and cannot argue that Detective Fones was a
federal law enforcement officer. Rather, the Government disputes Willie’s
contention that the Fowler analysis cannot apply where the defendant had a
specific law enforcement officer in mind. (Doc. 552, p. 46). The Government
argues that the existence of a “‘known individual’ with whom Proctor
communicated” is not “mutually exclusive” with the application of Fowler. (Id.).
The Government’s theory at trial, and its present argument to uphold Willie’s
convictions, relies exclusively on an application of the “reasonable likelihood”
analysis of Fowler.
Applying Fowler, the Government points to myriad evidence from which the
jury could conclude that there was a reasonable likelihood that Proctor would have
made a relevant communication to Detective Fones, who would then have put her
in touch with fellow officer Ronald Diller. (Doc. 552, pp. 28-31). The Government
then points to testimony regarding Diller’s connection with federal law
enforcement to argue that the jury could reasonably conclude that Diller was an
“adviser or consultant” that qualifies as a federal law enforcement officer for
purposes of § 1512. (Id.). In addition, the Government points to evidence presented
to suggest that it was reasonably likely that Diller would then put Proctor in
communication with DEA Special Agent Humphreys, who was a federal law
enforcement officer by definition. (Doc. 552, p. 35).
30
68a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 31 of 40

We begin with a discussion of Fowler. In Fowler v. United States, the
Supreme Court considered the “law enforcement officer . . . of the United States”
element of the witness tampering by murder statute. 563 U.S. 668 (2011). The
underlying facts of the case concerned a defendant who was with a group of men
one evening discussing their plan to rob a bank. Id. at 670. When a local police
officer came upon the group and addressed one of the men by name, the defendant
shot and killed him. Id. The defendant challenged his conviction under
§ 1512(a)(1)(C), arguing that the evidence was insufficient to show that he
intended to prevent a communication with a federal officer. Id., at 670-671.The
Court vacated the defendant’s conviction and remanded, revealing a new
interpretation of the law and holding that, in order to establish the federal law
enforcement officer requirement of § 1512, “the Government must show a
reasonable likelihood that, had, e.g., the victim communicated with law
enforcement officers, at least one relevant communication would have been made
to a federal law enforcement officer.” Id. at 678 (emphasis in original). Writing for
the majority, Justice Breyer outlined the scope of the Court’s discussion several
times:
“We focus on instances where a defendant killed a person with an
intent to prevent that person from communicating with law
enforcement officers in general but where the defendant did not have
federal law enforcement officers (or any specific individuals)
particularly in mind.” Id. at 670.
31
69a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 32 of 40

“The question here is how this language applies when a defendant (1)
kills a victim, (2) with an intent (a) to prevent a communication (b)
about the commission or possible commission of a federal offense but
(c) to law enforcement officers in general rather than to some specific
law enforcement officer or set of officers which the defendant had in
mind.” Id. at 672 (emphasis in original).
“And we must consequently decide what, if anything, the Government
must show about the likelihood of a hypothetical communication with
a federal law enforcement officer in circumstances where the
defendant did not think specifically about any particular
communication or recipient.” Id. at 673.
“The Government will already have shown beyond a reasonable doubt
that the defendant possessed the relevant broad indefinite intent,
namely, the intent to prevent the victim from communicating with
(unspecified) law enforcement officers.” Id. at 674.
“We consequently hold that (in a case such as this one where the
defendant does not have particular federal law enforcement officers in
mind) the Government must show a reasonable likelihood that, had,
e.g., the victim communicated with law enforcement officers, at least
one relevant communication would have been made to a federal law
enforcement officer.” Id. at 677 (parentheses and emphasis in
original).
The Court, therefore, made it exceedingly clear that the “reasonable
likelihood” analysis was limited to the specific circumstance where the defendant
did not have “some specific law enforcement officer or set of officers” in mind. Id.
at 672 (emphasis in original). The Third Circuit has recognized in dicta that Fowler
was concerned with situations where the victim had not yet communicated with
law enforcement; in United States v. Tyler, the Third Circuit stated,
“[n]evertheless, just as Fowler specifically noted that § 1512 reaches conduct that
32
70a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 33 of 40

occurs before the victim had any communications with law enforcement officers . .
.” 732 F.3d 241, 252 (3d Cir. 2013). The Government argues that this circumstance
is not mutually exclusive with a situation where the defendant had a particular set
of officers or a “known individual” in mind; the Government maintains that the
Fowler analysis can apply even when the defendant did have a specific law
enforcement officer or set of law enforcement officers with whom he wished to
prevent the victim from communicating. (Doc. 552, p. 46). We disagree.
Not only did the Court in Fowler specifically delineate the circumstances to
which their analysis applies, but it distinguished those circumstances from the
situation where a defendant did have a known individual in mind: “When the
defendant has in mind a particular individual or particular set of individuals with
whom he fears the victim might communicate, the application of the statute is
relatively clear.” Fowler, 563 U.S. at 672. The Court goes on to discuss the
alternative instance “when the crime takes place before the victim has engaged in
any communication at all with law enforcement officers – at a time when the
precise communication and nature of the officer who may receive it are not yet
known.” Id. at 673.
The Court created the “reasonable likelihood” standard for this situation
because the application of the statute to these circumstances was unclear, not as an
additional avenue to obtain convictions in the circumstances where the application
33
71a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 34 of 40

already “fits like a glove.” Id. at 672. The Government’s proposed interpretation of
Fowler gives prosecutors a second bite at the apple and would allow the
Government to bypass their burden to prove all criminal elements beyond a
reasonable doubt; where the evidence points to identifiable officers with whom the
victim would communicate, but they are unable to prove beyond a reasonable
doubt that the officers qualified as law enforcement officers of the United States,
they can instead illustrate a “reasonable likelihood” of communication with a
hypothetical federal officer. We cannot agree that this was the Court’s intent.
To read Fowler as creating an additional pathway to convictions under
§ 1512 in all circumstances would ignore the Court’s express concern not to
broaden the scope of the statute beyond its original purpose – a concern that it
articulated numerous times in its opinion. In determining what level intent is
required by statute, the Court cautioned that “to allow the Government to show no
more than the broad indefinite intent . . . would bring within the scope of this
statute many instances of witness tampering in purely state investigations and
proceedings, thus extending the scope of this federal statute well beyond the
primarily federal area that Congress had in mind.” Id. at 675. Later in its opinion,
the Court warned against a standard that “would transform a federally oriented
statute into a statute that would deal with crimes, investigations, and witness
tampering that, as a practical matter, are purely state in nature.” Id. at 677.
34
72a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 35 of 40

The Fowler Court also noted with caution the “frequent overlap between
state and federal crimes” and the “federal-state balance in the prosecution of
crimes.” Id. (quoting Jones v. United States, 529 U.S. 848, 858 (2000)). These
dual-sovereignty concerns are not lost on us. The scope of the federal criminal law
is significantly more expansive than it once was. A task force of the American Bar
Association on the Federalization of Criminal law commented back in 1998, “[t]he
expanding coverage of federal criminal law, much of it enacted in the absence of a
demonstrated and distinctive federal justification, is moving the nation rapidly
toward two broadly overlapping, parallel, and essentially redundant sets
of criminal prohibitions, each filled with differing consequences for the same
conduct.” James A. Strazzella, The Federalization of Criminal Law: Task Force on
Federalization of Criminal Law, 1998 A.B.A. Sec. Crim. Just., p. 55. That
expansion has only continued in the recent years. Courts must be ever vigilant not
to permit a statute designed for specific federal circumstances to be so portable as
to gift authorities with a “do-over” when state prosecutions fail.
After a thorough reading of Fowler, with a particular eye toward its
language to limit its applicability and its caution against expanding the scope of
§ 1512, we hold that the evidence presented did not bring the Fowler “reasonable
likelihood” standard into play. The trial evidence demonstrated that Proctor’s
status as an informant was known and that she reported to Detective Fones of the
35
73a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 36 of 40

Carlisle Police Department. (Tr. 78-80). Assuming that the evidence was sufficient
to prove that Willie killed Proctor with an intent to prevent an investigation-related
communication, that intent was directed towards a “particular communication or
recipient,” namely, the law enforcement officers with whom Proctor was working
as an informant. Fowler, 563 U.S. at 673. This was not a situation “when the crime
takes place before the victim has engaged in any communication at all with law
enforcement officers.” Id. The evidence demonstrated that Proctor’s status as an
informant was known and that she was in communication with state law
enforcement, subsequently testifying at preliminary hearings and trials in state
court. (Tr. 83-86, 96, 125-126). The application of the statute for this situation “fits
like a glove,” rendering the Fowler “reasonable likelihood” standard inapplicable.
Fowler, 563 U.S. at 672.
The Government cannot bypass its burden to prove beyond a reasonable
doubt that the communication would be made to a federal law enforcement officer
simply because the only officers in mind were not federal. The Government’s
interpretation that Fowler allows for alternative ways to prove the elements of
§ 1512 is inconsistent with concerns regarding scope and dual-sovereignty, and the
general notion that the “beyond a reasonable doubt” burden applies to all elements
of criminal prosecutions. The Government’s interpretation stretches the law to the
point of breaking. Fowler created a legal standard specifically to deal with the
36
74a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 37 of 40

problem of determining whether unknown officers were federal. Allowing the
“reasonable likelihood” standard and “would’ve, could’ve, should’ve” evidence to
support a conviction under any instance would secure federal convictions anytime
drug trafficking crimes were at issue.
Because the evidence, assuming that it demonstrated an intent to prevent a
communication, pointed only towards an inference that Willie had specific law
enforcement officers and specific communications in mind, this element cannot be
met using the hypothetical “reasonable likelihood” standard. The jury was
instructed using the “reasonable likelihood” standard, which would usually require
a new trial for a jury to consider the evidence in light of the proper legal standard.
However, the Government did not introduce any evidence from which a rational
trier of fact could have concluded that Detective Fones was a federal law
enforcement officer, nor does it attempt to argue that to be the case. Rather, the
evidence demonstrated that the officer with whom Proctor worked with as an
informant was Detective Fones and that he was a state police officer. (Tr. 88). We
therefore conclude that even if the evidence could have supported a finding by a
rational trier of fact that Willie acted with an intent to prevent an investigationrelated communication, we would nonetheless be required to vacate his convictions
for a lack of evidence to prove this element under either subsection of § 1512.

37
75a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 38 of 40

IV.

CONCLUSION

We do not view this result as an instance where strict legal interpretation
yields injustice; in fact, we believe the opposite to be the case. Willie Tyler faced a
murder charge for his actions in state court alongside his brother, and was
acquitted of that crime. After serving his sentence for the lesser offense of witness
intimidation, he was indicted under the federal witness tampering statute. He has
since endured three federal trials for the exact same conduct, all the while fighting
through the appellate and post-conviction relief process to correct legal errors in
his first two trials. He has spent the entirety of this time, over twenty years, in
federal prison.
Intervening changes in the law make crystal clear that Willie cannot be
found guilty of witness tampering for an intent to prevent Proctor from testifying at
the state proceeding, leaving the investigation-related communications provision of
18 U.S.C. § 1512 the only avenue for Willie to be convicted. See United States v.
Tyler, 732 F.3d 241, 250-251 (3d Cir. 2013). In consideration of the scant evidence
offered at trial pertaining to Willie’s intent, and the Supreme Court’s deliberate
caution not to “extend[] the scope of this federal statute well beyond the primarily
federal area that Congress had in mind,” we hold that no rational trier of fact could
have found that Willie acted with intent to hinder, delay, or prevent a

38
76a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 39 of 40

communication concerning the commission of a federal offense to a law
enforcement officer of the United States. Fowler, 563 U.S. at 675.
To hold otherwise on this record would allow federal authorities to
transform any witness tampering on a state level into a federal offense. An
interpretation of the statute that is so over-broad runs counter not just to the
teachings of Fowler, but also to the most fundamental precepts of our system of
criminal justice. By any measure, Willie’s involvement in the senseless killing of
Proctor is inexcusable. But a federal court is not a forum for the do-over of a failed
state court prosecution. If the Government chooses a path such as it has in the case
at bar, it must strictly adhere to its burden to prove the elements of the offenses
charged beyond a reasonable doubt. This it has not done. The tragic death of
Doreen Proctor, and the long and tortuous federal prosecution of Willie Tyler that
ensued after his acquittal in state court have resulted in a saga that calls to mind
Captain Ahab futilely pursuing Moby Dick in The Whale. Our task is to end this
narrative and do justice, joyless though it may be.
After an acquittal of murder in state court, a state sentence served for
witness intimidation, three federal trials, countless appeals and post-conviction
petitions, and more than two decades in federal prison, we will now grant the
Defendant’s motion for judgment of acquittal and vacate his convictions under 18
U.S.C. § 1512(a)(1)(C) and (b)(3).
39
77a

Case 1:96-cr-00106-JEJ Document 559 Filed 02/14/18 Page 40 of 40

NOW, THEREFORE, IT IS HEREBY ORDERED THAT:
1. The Defendant’s post-trial motion for judgment of acquittal (Doc. 537) is
GRANTED.
2. The Defendant’s convictions for witness tampering by murder in Count II
and witness tampering by intimidation in Count III are hereby VACATED.

s/ John E. Jones III
John E. Jones III
U.S. District Judge

40
78a

Case: 18-1319

Document: 87

Page: 1

Date Filed: 07/02/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-1319

UNITED STATES OF AMERICA,
Appellant
v.
WILLIE TYLER,

(D.C. No. 1-96-cr-00106-001)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, *SCIRICA, and *RENDELL, Circuit Judges

The petition for rehearing filed by Appellee in the above-entitled case having been
submitted to the judges who participated in the decision of this Court and to all the other
available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
_________________
*Hon. Anthony J. Scirica and Hon. Marjorie O. Rendell vote are limited to panel
rehearing only.

79a

Case: 18-1319

Document: 87

Page: 2

Date Filed: 07/02/2020

panel and the Court en banc, is denied.

BY THE COURT,

s/Patty Shwartz
Circuit Judge
Dated: July 2, 2020
ARR/cc: SRC; CDM; RAK; QMS

80a

18 U.S.C. § 1512 – Tampering with a witness, victim, or an informant
***
(a)(1) Whoever kills or attempts to kill another person, with intent to-(A) prevent the attendance or testimony of any person in an official
proceeding;
(B) prevent the production of a record, document, or other object, in an
official proceeding; or
(C) prevent the communication by any person to a law enforcement
officer or judge of the United States of information relating to the
commission or possible commission of a Federal offense or a violation
of conditions of probation, parole, or release pending judicial
proceedings;
shall be punished as provided in paragraph (3).
(2) Whoever uses physical force or the threat of physical force against any
person, or attempts to do so, with intent to-(A) influence, delay, or prevent the testimony of any person in an
official proceeding;
(B) cause or induce any person to-(i) withhold testimony, or withhold a record, document, or other
object, from an official proceeding;
(ii) alter, destroy, mutilate, or conceal an object with intent to
impair the integrity or availability of the object for use in an
official proceeding;
(iii) evade legal process summoning that person to appear as a
witness, or to produce a record, document, or other object, in an
official proceeding; or
(iv) be absent from an official proceeding to which that person
has been summoned by legal process; or
(C) hinder, delay, or prevent the communication to a law enforcement
officer or judge of the United States of information relating to the
commission or possible commission of a Federal offense or a violation
of conditions of probation, supervised release, parole, or release
pending judicial proceedings;

81a

shall be punished as provided in paragraph (3).
(3) The punishment for an offense under this subsection is—
(A) in the case of a killing, the punishment provided in sections 1111
and 1112;
(B) in the case of—
(i) an attempt to murder; or
(ii) the use or attempted use of physical force against any
person;
imprisonment for not more than 30 years; and
(C) in the case of the threat of use of physical force against any person,
imprisonment for not more than 20 years.
(b) Whoever knowingly uses intimidation, threatens, or corruptly persuades another
person, or attempts to do so, or engages in misleading conduct toward another
person, with intent to-(1) influence, delay, or prevent the testimony of any person in an official
proceeding;
(2) cause or induce any person to-(A) withhold testimony, or withhold a record, document, or other
object, from an official proceeding;
(B) alter, destroy, mutilate, or conceal an object with intent to impair
the object's integrity or availability for use in an official proceeding;
(C) evade legal process summoning that person to appear as a witness,
or to produce a record, document, or other object, in an official
proceeding; or
(D) be absent from an official proceeding to which such person has
been summoned by legal process; or
(3) hinder, delay, or prevent the communication to a law enforcement officer
or judge of the United States of information relating to the commission or
possible commission of a Federal offense or a violation of conditions of
probation1 supervised release,,2 parole, or release pending judicial
proceedings;

82a

shall be fined under this title or imprisoned not more than 20 years, or both.
(c) Whoever corruptly-(1) alters, destroys, mutilates, or conceals a record, document, or other object,
or attempts to do so, with the intent to impair the object's integrity or
availability for use in an official proceeding; or
(2) otherwise obstructs, influences, or impedes any official proceeding, or
attempts to do so,
shall be fined under this title or imprisoned not more than 20 years, or both.
(d) Whoever intentionally harasses another person and thereby hinders, delays,
prevents, or dissuades any person from-(1) attending or testifying in an official proceeding;
(2) reporting to a law enforcement officer or judge of the United States the
commission or possible commission of a Federal offense or a violation of
conditions of probation1 supervised release,,2 parole, or release pending
judicial proceedings;
(3) arresting or seeking the arrest of another person in connection with a
Federal offense; or
(4) causing a criminal prosecution, or a parole or probation revocation
proceeding, to be sought or instituted, or assisting in such prosecution or
proceeding;
or attempts to do so, shall be fined under this title or imprisoned not more than 3
years, or both.
(e) In a prosecution for an offense under this section, it is an affirmative defense, as
to which the defendant has the burden of proof by a preponderance of the evidence,
that the conduct consisted solely of lawful conduct and that the defendant's sole
intention was to encourage, induce, or cause the other person to testify truthfully.
(f) For the purposes of this section-(1) an official proceeding need not be pending or about to be instituted at the
time of the offense; and
(2) the testimony, or the record, document, or other object need not be
admissible in evidence or free of a claim of privilege.

83a

(g) In a prosecution for an offense under this section, no state of mind need be
proved with respect to the circumstance-(1) that the official proceeding before a judge, court, magistrate judge, grand
jury, or government agency is before a judge or court of the United States, a
United States magistrate judge, a bankruptcy judge, a Federal grand jury, or
a Federal Government agency; or
(2) that the judge is a judge of the United States or that the law enforcement
officer is an officer or employee of the Federal Government or a person
authorized to act for or on behalf of the Federal Government or serving the
Federal Government as an adviser or consultant.
(h) There is extraterritorial Federal jurisdiction over an offense under this section.
(i) A prosecution under this section or section 1503 may be brought in the district in
which the official proceeding (whether or not pending or about to be instituted) was
intended to be affected or in the district in which the conduct constituting the
alleged offense occurred.
(j) If the offense under this section occurs in connection with a trial of a criminal
case, the maximum term of imprisonment which may be imposed for the offense
shall be the higher of that otherwise provided by law or the maximum term that
could have been imposed for any offense charged in such case.
(k) Whoever conspires to commit any offense under this section shall be subject to
the same penalties as those prescribed for the offense the commission of which was
the object of the conspiracy.

84a

Case: 18-1319

Document: 86-1

Page: 1

Date Filed: 06/12/2020

NO. 18-1319
IN THE

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
UNITED STATES OF AMERICA,
Appellant,
v.

WILLIE TYLER,
Appellee.

On Appeal from the Judgment of Acquittal entered in the
United States District Court, Middle District of Pennsylvania,
on February 14, 2018, at No. 1:96-CR-106 (Jones, C.J.)

PETITION FOR PANEL HEARING
OR REHEARING EN BANC

`

HEIDI R. FREESE, ESQ.
Chief Federal Public Defender
RONALD A. KRAUSS, ESQ.
First Assistant Federal Public Defender
QUIN M. SORENSON, ESQ.
Assistant Federal Public Defender
100 Chestnut Street, Suite 306
Harrisburg, PA 17101
717-782-2237
Attorneys for Appellee,
Willie Tyler

85a

Case: 18-1319

Document: 86-1

Page: 2

Date Filed: 06/12/2020

TABLE OF CONTENTS
Table of Authorities ...................................................................................ii
Petition for Panel Rehearing or Rehearing En Banc............................... 1
LAR 35.1 Statement of Counsel In Support of Rehearing ...................... 1
Statement of the Case ............................................................................... 2
I. Introduction.................................................................................. 2
II. Brief Background and Procedural History ................................. 3
Reasons for Granting the Petition ............................................................ 6
Conclusion ................................................................................................ 14
Certification of Bar Membership, Word Count,
Identical Text, and Virus Check
Certificate of Service

Exhibit A
United States v. Willie Tyler, No. 18-1319 (3d Cir. April 14, 2020)
Reported at 956 F. 3d 116 (3d Cir. 2020)

i

86a

Case: 18-1319

Document: 86-1

Page: 3

Date Filed: 06/12/2020

TABLE OF AUTHORITIES
Cases
Bruce v. Warden Lewisburg USP,
868 F.3d 170 (2017) .............................................................1, 7-8, 13
Fowler v. United States,
563 U.S. 668 (2017) ................................................................ passim
United States v. Stansfield,
101 F.3d 909 (3d Cir. 1996).............................................................. 7
United States v. Tyler (Tyler III),
732 F.3d 241 (3d Cir. 2013).................................................1, 6-7, 13
Statutes
18 U.S.C. § 1512............................................................................... passim

Rules
Federal Rules of Appellate Procedure 35 ................................................. 1
Federal Rules of Appellate Procedure 40 ................................................. 1
Federal Rules of Criminal Procedure 29 .................................................. 5

ii

87a

Case: 18-1319

Document: 86-1

Page: 4

Date Filed: 06/12/2020

PETITION FOR PANEL REHEARING
OR REHEARING EN BANC
The Appellee, Willie Tyler, petitions this Court for rehearing
of this case before the Panel or en banc, under Federal Rules of
Appellate Procedure 35 and 40.
LAR 35.1 STATEMENT OF COUNSEL IN SUPPORT OF
REHEARING
I, Ronald A. Krauss, Esq., First Assistant Federal Public
Defender, express a belief, based on a reasoned and studied
professional

judgment,

that

the

Panel’s

opinion

warrants

rehearing because it is contrary to a decision of the United States
Supreme Court—Fowler v. United States, 563 U.S. 668 (2011)
(refining the scope of the “investigation-related” prong of
18 U.S.C. § 1512(a)(1), (b) (federal witness tampering)), and two
decisions of this Court—United States v. Tyler (Tyler III), 732 F.3d
241 (3d Cir. 2013), and Bruce v. Warden Lewisburg USP, 868 F.3d
170 (3d Cir. 2017)—and that this appeal involves a question of
exceptional importance: whether, under Fowler, the federal
witness tampering murder statute federalizes all state witness
tampering prosecutions.

1

88a

Case: 18-1319

Document: 86-1

Page: 5

Date Filed: 06/12/2020

STATEMENT OF THE CASE
I.

Introduction.
The federal witness murder statute, 18 U.S.C. § 1512(a)(1)(C),

requires the Government to prove:
(1) a killing or attempted killing;
(2) committed with a particular intent, namely, an intent
(a) to “prevent” a “communication”
(b) about “the commission or possible commission of a Federal
offense”
(c) to a federal “law enforcement officer or judge.”
Fowler v. United States, 563 U.S. 668, 672 (2011)(emphasis
added).
Four judges reviewed the jury’s guilty verdict here.
Two judges—the district court judge and the dissenting
member of the Panel in this appeal—held that the verdict could
not stand because the Government presented no evidence that the
defendant intended to prevent a local police informant from
communicating with a federal officer about a federal offense. They
viewed the record strictly through the Fowler lens, which cautions
against “extending the scope of this federal statue well beyond the
primarily federal area that Congress had in mind.” Fowler, 563
U.S. at 675.
Two other judges—who joined in the Panel majority opinion
opinion, which reversed the judgment of acquittal—concluded that
2

89a

Case: 18-1319

Document: 86-1

Page: 6

Date Filed: 06/12/2020

the statute does not require such specific proof of intent, and may
be satisfied merely by evidence that the defendant intended to
prevent communications to any law enforcement officer about any
offense, so long as a federal offense might have also been
discussed. The majority opinion viewed the record through a lens
that distorts Fowler, effectively standing Fowler on its head,
skewing the majority opinion’s conclusions about the jury’s
inferences.
As the dissenting opinion showed, Fowler’s intent element
requires proof beyond a reasonable doubt that the defendant
intended to prevent witness communications regarding a federal
offense to a federal official. The majority opinion’s holding
erroneously severs the required link between proof beyond a
reasonable doubt of defendant’s intent and communication to a
federal official.
II.

Brief background and procedural history.
In 1992, Willie Tyler (“Willie”), his brother David Tyler

(“David Tyler”) and Roberta Bell (“Bell”) were involved in the
early-morning murder of Doreen Proctor (“Proctor”).1 Proctor had
The majority opinion refers to Willie Tyler as “Tyler” and his brother
David Tyler as “David T.” Judge Rendell’s dissenting opinion and Chief
Judge Jones’s Memorandum refer to Willie Tyler as “Willie”; the dissenting
1

3

90a

Case: 18-1319

Document: 86-1

Page: 7

Date Filed: 06/12/2020

been a local-police informant who was scheduled to testify that
day as a witness in David Tyler’s drug trafficking trial. Local
police arrested all three. A state-court jury convicted David Tyler
of Proctor’s murder and acquitted Bell. The jury acquitted Willie
of murder but found him guilty of conspiracy to intimidate a
witness; he was sentenced in June 1993 to two-to-four years, and
paroled in July 1994.
A federal Grand Jury indicted Willie with federal witness
tampering in April 1996, and in a third federal trial in July 2017,
the jury found Willie guilty.2 The jury heard evidence that Willie,
David Tyler, and Bell were involved in Proctor’s murder. The jury
also heard evidence from which they could reasonably infer that
when Proctor was murdered, Willie may have been concerned that
she would disclose information to local law enforcement about his
past personal drug use. But the jury heard no evidence that Willie

opinion refers to David Tyler as “David Tyler”, and the District Court refers
to David Tyler as (“Tyler”). This Petition will refer to Willie Tyler as
“Willie” and David Tyler as “David Tyler”.
This case has a long procedural history that began with the state court
witness tampering trial of Willie and others for witness tampering in 1992.
Willie’s 1996 Indictment was prompted by an FBI agent who was “troubled”
by Willie’s acquittal of the state court murder charge. The majority opinion
recounts the several direct appeals, collateral challenges, and remands. See
Ex. A, Maj. Op. at 3-4. Willie was in federal custody from 1996 to 2018.

2

4

91a

Case: 18-1319

Document: 86-1

Page: 8

Date Filed: 06/12/2020

intended to prevent Proctor from communicating with any law
enforcement official—local, state, or federal—or to prevent her
from disclosing information about any federal offense.
Willie filed a Rule 29 motion for judgment of acquittal. The
District Court granted the motion, ruling that the evidence did not
permit the jury to find beyond a reasonable doubt that Willie
intended to prevent Proctor from communicating with federal law
enforcement about his possible commission of a federal offense.
(App. 4-43.) The District Court reasoned that Fowler requires
proof of intent to prevent an informant from communicating
information on a federal offense to federal officials. Because the
court found that, based on the record, the jury could only
speculate

that

Willie

intended

to

prevent

Proctor

from

communicating with a federal law enforcement officer, the court
ruled that the evidence did not satisfy the Fowler standard. (Id.)
The Government filed this appeal.
The majority opinion read the Fowler standard to permit
conviction so long as the evidence supported a “reasonable
likelihood” that the witness would have communicated with a
federal officer about a federal offense—even if the defendant did
not intend to prevent that communication and even if the

5

92a

Case: 18-1319

Document: 86-1

Page: 9

Date Filed: 06/12/2020

defendant did not have that offense in mind. The majority
reversed the District Court’s order, directed that the jury's verdict
be reinstated, and remanded for sentencing. Ex. A, Maj. Op. at 26.
Circuit Judge Rendell concurred in part and dissented in part.
Most notably, the dissenting opinion disputed the majority
opinion’s analysis and application of Fowler on the intent
requirement of § 1512. The dissenting opinion expressed concern
that the majority opinion establishes a precedent that fails to
follow the Supreme Court’s caution in Fowler against “bring[ing]
within the scope of [§ 1512] many instances of witness tampering
in purely state investigations and proceedings . . . .” Ex. A, Dis.
Op. at 2 (quoting Fowler, 563 U.S. at 675).
REASONS FOR GRANTING THE PETITION
Section 1512(a)(1)(C) prohibits killing “with intent to. . .
prevent the communication by any person” to a federal law
enforcement officer “relating to the commission. . . of a Federal
offense.” Before Fowler, this Court held that § 1512(a)(1)(C)
required proof only that “the defendant believed that the [witness]
might communicate with the federal authorities. . . . [and that the
jury could infer this element] from the fact that the offense was
federal in nature, plus additional appropriate evidence.” United

6

93a

Case: 18-1319

Document: 86-1

Page: 10

Date Filed: 06/12/2020

States v. Tyler (Tyler III), 732 F.3d 241, 251 (3d Cir. 2013)
(quoting United States v. Stansfield, 101 F.3d 909, 918 (3d Cir.
1996)) (emphasis added). Stansfield struck a balance “between the
requirement

that

the

government

must

prove

[beyond

a

reasonable doubt] the defendant’s specific intent to hinder a
federal investigation without imposing an unnecessary hurdle by
proving the defendant knew the federal status of any particular
law enforcement officer involved in an investigation." Id. (internal
quotation omitted).
Fowler did not alter § 1512(a)(1)(C)’s specific intent element—
proof beyond a reasonable doubt of defendant’s intent to prevent
the witness from communicating with federal law enforcement.
Rather, Fowler narrowed § 1512(a)(1)(C)’s reach by increasing the
Government’s burden to prove more than that “the officers with
whom the defendant believed the victim might communicate
would in fact be federal officers”. Under Fowler, Section
1512(a)(1)(C) now required the Government to prove that it “was
‘reasonably likely under the circumstances that (in the absence
of the killing) at least one of the relevant communications would
have been made to a federal officer.’” Bruce v. Warden Lewisburg
USP, 868 F.3d 170, 181 (3d Cir. 2017)(quoting Fowler, 563 U.S. at

7

94a

Case: 18-1319

Document: 86-1

Page: 11

Date Filed: 06/12/2020

677-78)(emphasis added). Fowler increased the Government’s
burden out of concern that the lesser burden “’transform[ed] a
federally oriented statute into a statute that would deal with
crimes, investigations, and witness tampering that, as a practical
matter, are purely state in nature.’” Tyler III, 732 F.3d at 251
(quoting Fowler, 563 U.S. at 677).
As the dissenting opinion observes, Section 1512(a)(1)(C) has
“two distinct elements”: 1) that a defendant, beyond a reasonable
doubt, intended to prevent a witness’s communication with law
enforcement officials, one of whom would be a federal officer; and
2) a “reasonable likelihood” that the witness’s communication
would be made to a federal officer. Ex. A, Dis. Op. at 2. The
dissenting opinion acknowledged that proof of the reasonable
likelihood element has a low bar, and explained why the Supreme
Court set it so low:
The low bar of [the reasonable likelihood] element stands in
contrast to the standard of proof beyond a reasonable doubt
for the element of intent to prevent a communication. In
fact, the Supreme Court found the low threshold of the
reasonable likelihood standard permissible precisely
because “[t]he Government will already have shown
beyond a reasonable doubt that the defendant possessed
the relevant broad indefinite intent, namely, the intent to
prevent the victim from communicating with (unspecified)
law enforcement.” Fowler v. United States, 563 U.S. 668,
674 (2011) (emphasis added).
8

95a

Case: 18-1319

Document: 86-1

Page: 12

Date Filed: 06/12/2020

Ex. A, Dis. Op. at 2. The dissenting opinion further noted Fowler’s
effort to prevent federal prosecutors from “bring[ing] within the
scope of [§ 1512] many instances of witness tampering in purely
state investigations and proceedings . . . .” Ex. A, Dis. Op. at 2
(quoting Fowler, 563 U.S. at 675).
Put simply, the statute requires, at its core, proof that the
defendant intended to prevent the witness from communicating
with a federal official about a federal crime. Only if the defendant
had that intent—and, even then, only if there was a “reasonable
likelihood” that the witness would in fact have talked to a federal
officer about the federal crime—may a conviction stand. That is
what Fowler holds, and what later opinions of this Court,
including Tyler III and Bruce, demand.
Yet, the majority opinion holds otherwise, and fundamentally
alters the Fowler standard when it holds that a defendant violates
Section 1512(a)(1)(C) if it was “reasonably likely that [the witness]
would have spoken to a qualifying law enforcement officer and
that [defendant] murdered or aided in [the witness’s] murder to
prevent [the witness] from doing so.” Ex. A, Maj. Op. at 25. This
holding says nothing about the defendant’s specific intent to
prevent the witness from communicating about a federal offense

9

96a

Case: 18-1319

Document: 86-1

Page: 13

Date Filed: 06/12/2020

to a federal official. The majority’s opinion thus holds that the
“reasonable likelihood” standard applies so long as there is proof
that the defendant intended to prevent communications of an
offense to law enforcement, regardless whether the offense in the
defendant’s mind was federal, and regardless whether the law
enforcement group included federal officials.
And the majority opinion appears to be creating a presumption
that when the evidence does not show that the defendant had a
specific officer or group in mind, the defendant intended to
prevent communications to law enforcement in general—meaning
that the “reasonable likelihood” standard applies. But Fowler’s
rule is precisely the opposite: the Government must first prove
beyond a reasonable doubt that the defendant had in mind law
enforcement officers, one of whom was a federal officer, before
applying the reasonable likelihood standard.
Because

the

majority

opinion

eliminates

the

federal

component of the defendant’s intent element, its application of
Fowler to the record is skewed. This distorted view of Fowler led
the dissenting opinion to warn that because the intent element is
critical to federalize an otherwise state crime, the majority opinion
“would essentially eviscerate any intent requirement at all and

10

97a

Case: 18-1319

Document: 86-1

Page: 14

Date Filed: 06/12/2020

would allow federal witness tampering convictions against
virtually all homicides of state and local police informants.” Ex. A,
Dis. Op. at 2.
These divergent readings of Fowler are reflected in the
divergent conclusions about what inferences the jury could
reasonably draw from the record evidence.
The dissenting opinion’s proper application of Fowler to its
comprehensive review of the record shows that no rational jury
could reasonably infer that Willie intended to prevent Proctor
from future communication with federal law enforcement. The
record provided the jury with no basis to infer that Willie knew or
believed that Proctor would communicate post-trial with any law
enforcement officials. To the contrary, the record demonstrates
that there was every reason for Willie to believe that Proctor
would not communicate further with law enforcement: at an
earlier public trial of one of David Tyler’s crew, Proctor testified
publicly that she was “out of this business” – i.e., done working as
an informant. Ex. A, Dis. Op. at 7 & n.4. Without evidence that
permits the jury to infer that Willie believed Proctor would
continue to work as an informant, no rational jury could
reasonably

infer

that

Willie

11

98a

intended

to

prevent

her

Case: 18-1319

Document: 86-1

Page: 15

Date Filed: 06/12/2020

communications with law enforcement. At most, the evidence
supported an inference that Willie intended to prevent Proctor’s
testimony at trial. Ex. A, Dis. Op. at 3. But as the District Court
noted, if that evidence was enough to establish the necessary
intent under Section 1512(a)(1)(C), then murder of any known
informant working with local or state police—like Doreen
Proctor—could become a federal crime. Ex. A, Dis. Op. at 2; App.
462.
The majority opinion’s misreading of Fowler becomes evident
in its assessment of the record. The majority opinion asserted that
the jury had a reasonable basis to infer Willie’s intent to prevent
Proctor from communicating with law enforcement about his
involvement with drug activities. But as the dissenting opinion
pointed out, the record included “no speculation, let alone
evidence, that Doreen Proctor posed any threat at all to Willie, or
that Willie knew of any such threat to himself or others.” Ex. A.
Dis. Op. at 6. Given the lack of evidence that Willie Tyler had
anything

to

fear

from

Proctor’s

communications

to

law

enforcement, “it would be irrational [for a jury] to conclude . . .
that his participation in Proctor’s murder was motivated by a

12

99a

Case: 18-1319

desire

to

Document: 86-1

prevent”

future

Page: 16

Date Filed: 06/12/2020

communication

with

any

law

enforcement. Ex. A, Dis. Op. at 8. See also Ex. A, Dis. Op. at 11.3
But even more important to future cases is that the majority
opinion’s misreading of Fowler will empower federal prosecutors
to use Section 1512 to prosecute any state witness-tampering
charge. That result departs from the governing jurisprudence of
Fowler, Tyler III, and Bruce, which acknowledge the importance of
cabining Section 1512’s reach. This Court should vacate the
majority opinion, and rehear this case to restore a proper reading
of Fowler and application of Section 1512.

3

The dissenting opinion further explained:
Here, the admittedly rational inference that Willie knew of Proctor’s
past informant activities concerning his brother and associates does
not logically or convincingly lead to the further conclusions that
Willie believed Proctor had additional information, believed she
would continue to communicate with law enforcement months after
the investigation had apparently ended, and acted to prevent such
communications. Those inferences are not rational and would not
allow a jury to conclude beyond a reasonable doubt that Willie
intended to prevent Proctor's future communications.
13

100a

Case: 18-1319

Document: 86-1

Page: 17

Date Filed: 06/12/2020

CONCLUSION
WHEREFORE, for all the foregoing reasons, Appellee Willie
Tyler respectfully requests that this Court grant his Petition for
Rehearing En Banc, vacate the Panel decision, and rehear this
appeal before the Panel or en banc.
Respectfully submitted,
HEIDI R. FREESE, ESQ.
Chief Federal Public Defender
/s/ Ronald A. Krauss
RONALD A. KRAUSS, ESQ.
First Assistant Federal Public Defender
(Attorney ID No. 47938)
Ronald_krauss@fd.org

QUIN M. SORENSON, ESQ.
Assistant Federal Public Defender
100 Chestnut Street, Suite 306
Harrisburg, PA 17101
717-782-2237
Counsel for Appellee,
Willie Tyler
Date: June 12, 2020

14

101a

Case: 18-1319

Document: 86-1

Page: 18

Date Filed: 06/12/2020

CERTIFICATION OF BAR MEMBERSHIP,
WORD COUNT, IDENTICAL TEXT, AND VIRUS CHECK.
I, Ronald A. Krauss, Esquire, First Assistant Federal Public
Defender, certify, in compliance with the Federal Rules of
Appellate Procedure and the Third Circuit Local Appellate Rules,
that:
1) I am a member in good standing of the bar of this Court;
2) This Petition for Rehearing En Banc contains 2,976 words,
which is less than the 3,900 word limit;
3) The text of the electronic format of the Petition for Rehearing
is identical to the hard copy format;
4) A virus check was performed on the Petition for Rehearing using
Symantec Endpoint Protection, last update was June 11, 2020, and
no virus was detected.
I make this combined certification under penalty of perjury,
pursuant to 28 U.S.C. § 1746.
/s/ Ronald A. Krauss
RONALD A. KRAUSS, ESQ.
Date: June 12, 2020

15
102a

Case: 18-1319

Document: 86-1

Page: 19

Date Filed: 06/12/2020

CERTIFICATE OF SERVICE
I, Ronald A. Krauss, Esq., First Assistant Federal Public Defender, certify that I caused to be served on this date a hard copy
of the attached Petition for Rehearing En Banc via Electronic
Case Filing, and/or by placing a copy in the United States mail,
first class in Harrisburg, Pennsylvania, and/or by hand delivery,
addressed to the following:
CARLO D. MARCHIOLI, ESQ.
United States Attorney’s Office
228 Walnut Street, Room 220
Harrisburg, PA 17101
carlo.d.marchioli@usdoj.gov

(717) 221-4482
Attorney for Appellant,
United States of America
MR. WILLIE TYLER
Appellee
/s/ Ronald A. Krauss
RONALD A. KRAUSS, ESQ.
Date: June 12, 2020

16
103a

Case: 18-1319

Document: 003113415548

Page: 1

Date Filed: 11/25/2019

NO. 18-1319
IN THE

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
UNITED STATES OF AMERICA,
Appellant,
v.

WILLIE TYLER,
Appellee.

On Appeal from the Judgment of Acquittal entered in the
United States District Court, Middle District of Pennsylvania,
on February 14, 2018, at No. 1:96-CR-106 (Jones, J.)

BRIEF FOR APPELLEE

`

HEIDI R. FREESE, ESQ.
Chief Federal Public Defender
RONALD A. KRAUSS, ESQ.
First Assistant Federal Public Defender
QUIN M. SORENSON, ESQ.
Assistant Federal Public Defender
100 Chestnut Street, Suite 306
Harrisburg, PA 17101
717-782-2237
Attorneys for Appellee,
Willie Tyler

104a

Case: 18-1319

Document: 003113415548

Page: 2

Date Filed: 11/25/2019

TABLE OF CONTENTS
Table of Authorities ..................................................................... ...iii
Prefatory Statement ...................................................... ……………1
Statement of the Issues and Standard of Review ........................... 5
Statement of the Case ...................................................................... 8
A. Doreen Proctor cooperated only with state and local law
enforcement, and then she was “out of the business” ......................8
B. The events surrounding Doreen Proctor’s death ...........................13
C. The Tri-County Drug Task Force, in 1991-92, operated
solely as a local and state law enforcement entity, with no
federal involvement. .......................................................................17
1. The Task Force ...........................................................................17
2. The Government invents Agent Diller as a person serving
the federal government as an “adviser” or “consultant” .............19
D. When Doreen Proctor died, the federal government was
not involved in any way with Ms. Proctor nor did she have additional
information that would have interested them .................................22
E. The federal government did not prosecute Willie Tyler based on
the need to vindicate federal interests ............................................24
Summary of the Argument ........................................................... .26
Argument ....................................................................................... 29
I. The District Court Properly Granted Tyler’s Rule 29(a) Motion
for Judgment of Acquittal ………..……………………………...30
A.

The Government’s Brief mistakenly relies on inapposite
case law and irrelevant law of the case doctrine..……30

B.

The record does not permit a rational jury to find Tyler
guilty of murder………………..………..………………...34

i
105a

Case: 18-1319

Document: 003113415548

Page: 3

Date Filed: 11/25/2019

C.

The trial evidence was insufficient for a jury to find that
Tyler intended to prevent Ms. Proctor—after David T.’s
trial— from communicating to a law enforcement officer
relevant additional information concerning a federal
offense…………………………………………………….....37

D

The trial evidence was insufficient for a jury to find that
had Doreen Proctor lived, it was “reasonably likely” that
she would have communicated relevant additional
information to a federal law enforcement officer about a
federal offense………………………………..…….……....42
1. No reasonable likelihood that Ms. Proctor would have
communicated with any law enforcement officer……..45
2. No reasonable likelihood that Ms. Proctor would have
communicated with a federal law enforcement officer..48
3. No reasonable likelihood that Ms. Proctor would have
communicated with a federal law enforcement officer
with relevant and material information……………….51

Conclusion…………………………………………………………....... 55
Certification of Bar Membership, Word Count, Identical Text,
Virus Check, and.
Certificate of Service

ii
106a

Case: 18-1319

Cases

Document: 003113415548

Page: 4

Date Filed: 11/25/2019

TABLE OF AUTHORITIES

Arthur Andersen LLP v. United States,

544 U.S. 696 (2005) ................................................................... 36

Bruce v. Warden Lewisburg USP,

868 F.3d 170 (3d Cir. 2017) ................................................. 30, 43

Fowler v. United States,

563 U.S. 668 (2011) ............................................................passim

MRL Dev. I. LLC v. Whitecap Inv. Corp.,

823 F.3d 195 (3d Cir. 2016) ............................................. 7, 29, 54

Pepper v. United States,

562 U.S. 476 (2011) .............................................................. 32-33

Petite v. United States,

361 U.S. 529 (1960) ..................................................................... 2

Pub. Interest Research Group of N.J. v. Magnesium Elektron, Inc.,

123 F.3d 111 (3d Cir. 1997) ....................................................... 33

United States v. Bell,

113 F.3d 1345 (3d Cir. 1997) ......................................... 31, 32, 44

United States v. Bycer,

593 F.2d 549 (3d Cir. 1979) ....................................................... 30

United States v. Freeman,

763 F.3d 322 (3d Cir. 2014) ............................................. 7, 29, 32

United States v. Hadima,

160 Fed. Appx. 224 (3d Cir. 2005) ............................................ 4-5

United States v. Smalls,

752 F.3d 1227 (10th Cir. 2014).................................................. 44

United States v. Smith,

723 F.3d 510 (4th Cir. 2013)...................................................... 44
iii
107a

Case: 18-1319

Document: 003113415548

Page: 5

Date Filed: 11/25/2019

United States v. Tyler (Tyler III),

732 F.3d 241 (3d Cir. 2013) ................................................. 31, 32

United States v. Tyler (Tyler II) ,

281 F.3d 84 (3d Cir. 2002) ......................................................... 31

United States v. Wilson,

413 F.3d 382 (3d Cir. 2005) ......................................................... 2

United States v. Velez,

800 F.3d 63 (2d Cir. 2015) ......................................................... 44

W.R. Grace & Co. v. Chakarian,

591 F.3d 164 (3d Cir. 2009) ....................................................... 32

Statutes, Rules, and Other Materials
18 U.S.C. § 1512 ......................................................................passim
18 U.S.C. § 1515 ......................................................................passim
18 U.S.C. § 1546 ............................................................................... 5
28 U.S.C. § 2241 ............................................................................. 43
Fed. R. Crim. P. 29 ............................................................... 1, 28, 29
MOORE’S FED. PRACTICE—FED. PROCEDURE § 629.02 (2019) ........... 1
BLACK’S LAW DICTIONARY (9th ed. 2009) ....................................... 30

iv
108a

Case: 18-1319

Document: 003113415548

Page: 6

Date Filed: 11/25/2019

PREFATORY STATEMENT
On one point Appellee Willie Tyler agrees with the Government: that
the jury got it right. But it was the 1992 Adams County jury that
indeed got it right. That state jury found that Tyler did bear some
blame in the horrific incident that led to Doreen Proctor’s death, so
they sent Tyler to state prison for two years. But those 12 jurors
found Tyler not guilty of murder, instead finding that it was his
brother, David Tyler, who murdered the woman about to testify
against him.
One of the points that the Government’s Brief gets wrong is
trumpeting that 36 jurors in three federal trials found Tyler guilty,
as if it were proof positive of justice prevailing. [Govt. Br.1.]
But it’s not. The three verdicts have been nullified. No value
attaches to verdicts rendered after trials marred by: (1) evidentiary
error; (2) prejudicially erroneous jury instructions; and 3)
insufficient evidence, where the District Court penetrated the
dense fog of manufactured federal jurisdiction to vacate the jury
verdict by granting a relatively rare Rule 29 Judgment of Acquittal.
See MOORE’S FEDERAL PRACTICE—Fed. Procedure § 629.02 (2019). 1
1

“Rule 29 takes cognizance of the reality that jurors may not always be
capable of applying strictly the instructions of the court, or of basing their
verdict entirely on the evidence developed at trial.”
1
109a

Case: 18-1319

Document: 003113415548

Page: 7

Date Filed: 11/25/2019

So now Tyler—almost 69 years old, with some 22 years of federal
prison behind him—has been living outside prison, without
incident, for over a year. Case law and the record demonstrate why
Tyler should live out the remainder of his life as a free man.
As discussed in detail below, what the 2017 federal jury got
wrong—which the District Court had the dispassionate expertise to
see—is that the federal Government had no business prosecuting
Willie Tyler. Federal law enforcement agents initiated prosecution
to correct—with a second bite of the apple—what they judged a toosoft state court verdict (App. 191). Federal prosecution here neither
vindicated specific federal interests, nor properly served principles
of federalism—as deference is reflected, if imperfectly, in the
Justice Department’s Petite Policy. 2
In brief, evidence here of the requisite federal nexus is
insufficient to permit federal conviction for witness/informant
The Petite Policy derives its name from Petite v. United States, 361 U.S. 529
(1960). It “precludes the initiation or continuation of a federal prosecution,
following a prior state or federal prosecution based on substantially the same
act(s) or transaction(s), absent certain extenuating circumstances.” United
States v. Wilson, 413 F.3d 382, 388 n.7 (3d Cir. 2005)(internal quotations
omitted). Discussing specifically federal prosecutions triggered by a state
court’s suppression of evidence, Judge Aldisert, dissenting, wrote: “I believe
this policy generates serious problems. It increases the caseload in federal
courts, runs counter to modern concepts of federalism, denigrates the quality
of the state-court system, trial and appellate, [and] demeans the
professionalism of state-court judges . . . .” Id. at 391.

2

2
110a

Case: 18-1319

Document: 003113415548

Page: 8

Date Filed: 11/25/2019

murder under Fowler v. United States (U.S. 2011).3 Nothing in the
record supports a finding that: (1) Tyler acted with intent to prevent
Ms. Proctor from communicating additional information to law
enforcement about a federal offense; or (2) that had Doreen Proctor
lived, she was “reasonably likely” to provide such additional
information to a federal officer. To the contrary, Ms. Proctor was
“out of the [witness/informant] business”, and had no access to any
additional information to provide later; but even if she did, the
probability that any such information would travel up the
investigatory chain from local law enforcement to federal hands
was remote. Just as Ms. Proctor was “out of the business”, federal
prosecutors should have been out of Tyler’s business—the
Commonwealth and people of Adams County properly addressed
his conduct, and the evidence at the 2017 trial, measured against
Fowler, demonstrates this decisively.
The Government’s legal arguments are a proverbial house of
cards, built largely on the shaky, legally insupportable foundation
of the Government’s wrong-headed reliance on previous trial and
appellate

legal rulings, and law-of-the-case doctrine. Both are

inapplicable and irrelevant here. Further, that effort to dodge what

3

563 U.S. 668.
3
111a

Case: 18-1319

Document: 003113415548

Page: 9

Date Filed: 11/25/2019

happened at the 2017 trial by setting up false inconsistencies with
previous Court opinions should not distract the Court from the real
issue: the Government’s failure to establish a federal nexus.
The Government seeks to demonstrate the requisite federal
nexus—that if Doreen Proctor had lived she would have provided
federal law enforcement with additional information about
interstate drug dealing—by post hoc conjecture and speculation
served up to manufacture jurisdiction out of whole cloth. In doing
so, the Government’s jurisdictional argument casts such a wide
federal net that any defendant accused of tampering with any
witness-victim in any state court drug case would be subject to
federal prosecution—even if the state acquitted him, and even if
federal law enforcement became involved for the first time years
after the acquittal.
Expressing the court’s insight at what lay at the heart of the
Government’s case, Judge Jones aptly concluded:
The tragic death of Doreen Proctor, and the long and tortuous federal
prosecution of Willie Tyler that ensued after his acquittal in state court
have resulted in a saga that calls to mind Captain Ahab futilely
pursuing Moby Dick in The Whale . . . Our task is to end this narrative
and do justice, joyless though it may be.
(App. 42). This Court should end this saga here. 4
Similarly, this Court has recognized and admonished overheated
prosecutorial zeal when it is all-too apparent. United States v. Hadima, 160

4

4
112a

Case: 18-1319

Document: 003113415548

Page: 10

Date Filed: 11/25/2019

STATEMENT OF THE ISSUES AND STANDARDS OF REVIEW
A. Issues.
1. Witness-murder requires that defendant was involved in
intentionally killing the victim. Here, Tyler merely showed his
brother how to cock a gun for an undisclosed reason, gave him a
ride for an undisclosed purpose, and participated in conversations
about the murder.
Because no evidence supports a finding that Tyler engaged in
Doreen Proctor’s murder as a principal or aider and abettor, isn’t
the jury’s verdict based solely on conjecture and speculation?

2. Witness-murder requires that defendant believes that the
victim might later communicate federal crime-related information

Fed. Appx. 224 (3d Cir. 2005)(not precedential), involved a native Egyptian
granted conditional permanent status after he married a U.S. citizen.
Immigration documents that he needed to file for naturalization required both
his and his wife’s signatures. The documents were due while Hadimah was on
active duty as a sergeant in the U.S. Army reserve. He signed his name and
his wife’s name—with her explicit permission. In the wake of September 11,
2001, the Government apparently felt a need to find a way to prosecute this
native Egyptian. So the Government charged him, inter alia, with making a
false statement (violating 18 U.S.C. § 1546). Ultimately, this Court stated that
it would “refuse to find that signing a spouse’s name, with permission,
constitutes a ‘false statement.’” Id. at 227 (emphasis in original). Vacating his
conviction, and noting that a plea agreement would have permitted the
Government to reinstate other charges dismissed earlier, the Court explicitly
cautioned the Government to leave Hadimah alone: “We are confident that
the Government will let this case end—now.” Id. at 228 n.3 (emphasis added).
5
113a

Case: 18-1319

Document: 003113415548

Page: 11

Date Filed: 11/25/2019

to law enforcement, and then acts to prevent that specific
communication. Here, Tyler did not know: (i) that Doreen Proctor
had information about drug dealing other than David Tyler’s local
activities related to his state drug trial; or (ii) that post-trial,
Doreen Proctor would have any reason to provide drug-related
information to any law enforcement.
Because no evidence supports a finding that Tyler intended to
prevent Doreen Proctor from later communicating additional
information to law enforcement about David Tyler’s purported
multi-state drug connections, didn’t the District Court properly
hold the jury’s finding as speculative?

3.

Informant-murder requires that had the informant-victim

lived, she was “reasonably likely” to provide additional information
about a federal offense to a federal law enforcement officer. Here,
Doreen

Proctor

provided

information

solely

to

state

law

enforcement officers about drug deals related to David Tyler’s state
court trial, and said that her work as informant-witness would end
after her state court trial testimony.
Because Doreen Proctor, had she lived, would have been “out of
the [witness/informant] business”, didn’t the District Court
6
114a

Case: 18-1319

Document: 003113415548

Page: 12

Date Filed: 11/25/2019

properly hold the jury’s finding—that she was reasonably likely to
choose to communicate with law enforcement again—speculative,
as the likelihood of her communication about federal crimes to
federal officers was remote and hypothetical?

B. Standard of review.
This Court reviews “de novo an appeal of a district court's ruling
on a Rule 29 motion and independently applies the same standard
as the District Court. . . . [which must] review the record in the light
more favorable to the prosecution to determine whether any
rational trier of fact could have found proof of guilt beyond a
reasonable doubt based on the available evidence” “United States v.
Freeman (3d Cir. 2014).5
When the Court’s review is plenary, the Court “may affirm the
District Court on any grounds supported by the record, even if the
court did not rely on those grounds.” MRL Dev. I, LLC v. Whitecap
Inv. Corp. (3d Cir. 2016).6

5

763 F.3d 322, 343 (internal quotation and citation omitted).

6

823 F.3d 195, 202 (internal quotations omitted).
7
115a

Case: 18-1319

Document: 003113415548

Page: 13

Date Filed: 11/25/2019

STATEMENT OF THE CASE
The genesis of this appeal lies in the April 1992 death of Doreen
Proctor, a local government informant who, on the day of her murder, was scheduled to testify in a Cumberland County (Pa.) drugtrafficking trial against David Tyler (“David T.”), brother of
Appellee Willie Tyler. Even if, without conceding, Willie Tyler
played a secondary role in that tragic crime, his conduct—as the
District Court ruled—was not a federal offense under Fowler v.
United States (U.S. 2011). 7
In this Response Brief, Tyler will not rehash facts—and particularly not procedural history—that the District Court’s opinion and
the Government’s Opening Brief cover sufficiently. But, while recognizing the need to present facts in the light most favorable to the
verdict, Tyler will paint a factual picture faithful to the record, in
contrast to the Government’s incomplete and thus somewhat
distorted portrait.
A. Doreen Proctor cooperated only with state and local
law enforcement, and then she was “out of the business.”
Doreen Proctor moved to Carlisle, Pa. in February 1990, with
two children (16 and 11) and no job, initially supporting her family
on welfare. (App. 104-06.) About a year later, Ms. Proctor—angry
7

563 U.S. 668.
8
116a

Case: 18-1319

Document: 003113415548

Page: 14

Date Filed: 11/25/2019

after seeing a drug dealer approach her daughter on her own street
corner—decided to act to protect her family. So around the end of
1990 and beginning of 1991, she contacted local Carlisle police and
asked how she could help clean up her streets. Carlisle police put
her in touch with Detective David Fones, who recruited Ms. Proctor
to work under his direction as an undercover drug buyer. (App. 9394.) In addition to serving her community, Ms. Proctor learned that
she would receive cash for her efforts. (App. 107.)
Detective Fones, along with Agent Ronald Diller, of the
Pennsylvania Office of the Attorney General, were members of the
Tri-County Drug Task Force (“Task Force”), charged with
combatting local drug dealing (the Task Force is discussed in more
detail below). In a January 1991 interview with Fones and Diller,
Ms. Proctor told them about the drug dealing that she saw. After
that interview, Fones prepared her to make four small street-level
undercover controlled buys. (App. 205-14.)
Between January 11, 1991 and February 1, 1991, Ms. Proctor
made undercover cocaine buys from four people: Mary Hodge—1.7
grams; Jerome Evans (“Butch”) and Cindy Brooks—3.3 grams; and
David Tyler (“David T.”)—approx. 5 grams. These cocaine buys
totaled approximately 10 grams (0.35 oz.). Police held off arresting
9
117a

Case: 18-1319

Document: 003113415548

Page: 15

Date Filed: 11/25/2019

them so that Ms. Proctor’s usefulness as a confidential information
would not be compromised until she had to appear in court.
Ultimately, all four were arrested on drug charges, and Ms. Proctor,
as well as Detective Fones, testified at their preliminary hearings.
(App. 382-87; 436-38.)
In January 1992, Ms. Proctor testified at Hodge’s state court trial,
resulting in a conviction. (App. 385.) Ms. Proctor testified about the
details of the Hodge controlled buy, that the scope of her undercover
work was limited solely to the controlled local buys with Fones in
1991, and that—noting that she was now gainfully employed—she
did not contemplate any need for further involvement with law
enforcement:
Q.

Since your buy [from Hodge], Ms. Proctor, how many other
buys have you made?

A.

Two.

Q.

Just two?

A.

David [Tyler] and Butch [Jerome Evans].

Q.

Are you out of this business now?

A.

Yes, I am.

Q.

You don't need the money?

A.

I didn't need the money at first.

Q.

And you don't need the drugs?
10
118a

Case: 18-1319

Document: 003113415548

Page: 16

A.

No.

Q.

What are you doing now?

A.

I work for United Telephone.

Date Filed: 11/25/2019

(App. 117-18) (emphasis added).
Having testified in open court, Ms. Proctor’s undercover persona
was compromised, necessarily ending her usefulness for further
controlled buys or obtaining new drug-related information as a
confidential informant in the area. (App. 388.)
Fones’s trial testimony, consistent with his testimony at several
earlier proceedings, established that Ms. Proctor was not involved
in any other current or planned investigations, prosecutions or
proceedings—local, state, or federal. (App. 388.)
At the September 8, 1992 Preliminary Hearing in Tyler’s
Adams County prosecution, Fones testified that Ms. Proctor, at the
time of her death, was cooperating with the Task Force only by
testifying at preliminary hearings and trials about her 1991
controlled buys:
Q.

Was Ms. Proctor still an active participant with you and with your
force as of April 21st, 1992, when she was found dead?

A.

There was no ongoing investigation. We hadn’t been to trial on
all four cases which she had been involved in and was still a
Commonwealth witness at the time.

11
119a

Case: 18-1319

Document: 003113415548

Page: 17

Date Filed: 11/25/2019

Q.

So she was not involved in any undercover work at that point in
time, is that right?

A.

No, she wasn't.

(App. 129, 444-45. ). Similarly, in 1993 Fones testified:
Q.

As of . . . April 21, 1992, was Miss Proctor working on any
other active cases

A.

No, she wasn’t. She was only involved with those four
individuals and that only lasted for a month or two. Her only
involvement with us still at the time was testifying at [state
court] preliminary hearings and trials at the time. There was
[sic] no active cases.

Q.

No other cases were pending in April of 1992 that Miss
Proctor was involved in?

A.

No, there wasn’t.

(App. 445.)

8

The Government’s Brief asserts that Ms. Proctor “was
continuing to provide information to law enforcement about drugtrafficking activity.” (Br. 34.)(emphasis added). That assertion is
imprecise and somewhat misleading. Yes, perhaps Ms. Proctor
could have been “continuing” in the narrow sense that she was
available to talk and testify during the period between Hodge’s
Testimony of Adams County District Attorney Roy Keefer, during the April
1993 state court trial of Bell and David T. is not strictly part of the 2017 trial
record, though it was in a filed pretrial document entered into the District
Court docket at Doc.353-3. Keefer confirmed Fones’s testimony, stating that
Ms. Proctor: “was not doing anymore undercover work for Detective Fones
up through that time. Her sole work was involved in the arrest and testimony
regarding David Tyler, Mary Hodge, Butch Evans, Cindy Brooks, she had no
other ongoing investigations at the time of her death.” (App. 147.)
8

12
120a

Case: 18-1319

Document: 003113415548

Page: 18

Date Filed: 11/25/2019

January trial and David T’s April trial. But she had lost her
confidential persona, so it is unclear how she could have possibly
been providing new information. But there is no evidence that, had
she lived, she would be “continuing” after David T.’s trial. The
Government provides nothing about what additional information—
other than related to the 1991 controlled drug buys, and vague
comments

about

extra-state

connections—Ms.

Proctor

was

“continuing to provide.”
The record lacks any evidence to contradict or even cast doubt
on Ms. Proctor’s testimony that her assistance to law enforcement
would be ending as of April 1992. Nor does the record reflect any
hint that Ms. Proctor intended to ever communicate again for any
reason with any law enforcement officers—local, state, or federal:
she was “out of the business”. (App. 118, 129, 385-388.)
B. The events surrounding Doreen Proctor’s death.
As the date for Butch and David T.’s drug trial approached,
David T. and his girlfriend Roberta Bell hatched a plan to prevent
Doreen Proctor from testifying. This plan unfolded on the evening
of April 20, 1992, and into the early morning of April 21.
Sometime during the day on April 20, Tyler and Gwanda
Campbell left Hodge’s house and were driving in Carlisle where
13
121a

Case: 18-1319

Document: 003113415548

Page: 19

Date Filed: 11/25/2019

they encountered David T. and picked him up. Driving back to
Hodge’s house, they spotted Ms. Proctor. David T. said that he
“wanted to get her [Ms. Proctor] then but there were too many cars.”
(App. 490.) After arriving back at Hodge’s house, David T. went to
a shed and “picked something up” and asked Tyler “if he knew how
to cock it.” When David T. unwrapped the object, Campbell saw that
it was a long gun or sawed-off shot gun. Campbell believed she
heard—but did not see—the gun being cocked; she got scared and
went inside the house. Campbell speculated that what she heard
was Tyler showing David T. how to cock the gun. (App. 491-93, 50709.)
Tyler and David T. left Hodge’s house, Tyler driving Hodge’s car
to give David T. a ride to Gettysburg, in Adams County. During that
ride, Tyler asked David T. what was going on, and David T. said
that Bell had a surprise for him. When Tyler asked David T. again,
David T. replied, “none of your business.” (App. 716.)
While Willie and David were driving to Gettysburg, Bell showed
up at Hodge’s house. Bell said that she had been to Doreen Proctor’s
house and could have killed her right there but her daughter was
there and she would have had to kill her too. Then Bell left. Hodge

14
122a

Case: 18-1319

Document: 003113415548

Page: 20

Date Filed: 11/25/2019

guessed that Bell’s intention was to use drugs to lure Ms. Proctor
out of her house. (App. 527-28.)
Shortly after midnight, now April 21, Ms. Proctor left her house
with Bell. Bell was driving a gray Mercury Marquis, which had a
car phone. Ms. Proctor called a friend, Gwendolyn Palmer, at 1:00
a.m. Sometime during the early morning, both Bell and David T.
called Hodge, learning that they were unable to find each other in
the fog. David T. gave Hodge a pay phone number that she could
give to Bell if Bell called looking for him. Bell called Hodge and said,
“I have her.” Inferring that Bell meant Ms. Proctor, Hodge replied,
“you better hope she don’t get to a phone.” Bell got the number of
the pay phone where David T. was waiting. (App. 529-33.)
Doreen Proctor was murdered in the early morning. According
to Hodge, Ms. Proctor was killed “because she was set to testify
against David Tyler.” (App. 546.)9
Later in the morning of April 21, at Hodge’s house, Campbell
saw Tyler return. David T. had also returned and dressed in a
purple suit for court. Hodge did not see Tyler come in that morning.
At trial, Hodge agreed to this statement during cross. Significantly, the
Government could have asked on redirect “Was David T’s trial the only
reason Ms. Proctor was killed?”. But the Government did not, giving rise to
the conclusion that Ms. Proctor was indeed killed for one reason and one
reason only: not to testify at David T.’s trial, and her providing additional
information after his trial was no one’s concern.

9

15
123a

Case: 18-1319

Document: 003113415548

Page: 21

Date Filed: 11/25/2019

But she did recall hearing David T. say “she’s gone.” Campbell
testified to hearing something similar: that she heard someone say
“the bitch is gone.” On direct examination she said that it was Tyler;
on cross-examination, when asked if it was actually David T.
speaking—as Hodge had recalled—she stated that she “really can’t
recall.” (App. 507-11.)
Meanwhile that morning, at Bell’s home, Laura Barrett, who
was babysitting Roberta’s children, saw Roberta with an armful of
bloody clothes. Bell told Barrett that if anybody asked about her
whereabouts the night before, Barrett was to say that Bell was
home all night. After David T. and Tyler arrived at Bell’s house,
Barrett overheard a conversation between Bell, David T., and Tyler
in the next room. She heard Bell say that “she shot Doreen but you
killed her.” No testimony clarifies to whom the “you” referred.
Barrett then heard Tyler say “you don’t know who’s listening. You
don’t know who hears this.” Tyler then said he was leaving, and left.
(App. 925-36.)
Finally, at some point that morning, Bell called Ola Brown, the
mother of David T.’s children, and asked her to tell David T. that
Bell had her story together and if worse came to worse they should
“put it on Little Man.” As Brown knew, Bell’s reference to “Little
16
124a

Case: 18-1319

Document: 003113415548

Page: 22

Date Filed: 11/25/2019

Man” meant Tyler—and “put it on” Tyler plainly meant to place the
blame for the killing on him, rather than her and David T. (App.
668-72.)
After Doreen Proctor’s death, the remaining drug trials were
halted. Instead, the Commonwealth charged David T, Bell, and
Tyler with criminal homicide and witness intimidation. The
Adams County jury acquitted Tyler of murder but convicted him
of witness-intimidation conspiracy, for which he served two years
in state prison. David T. was convicted of murder, and Bell was
acquitted of all charges.
After this trial, Judge Jones concluded—similar to the 1992
Adams County jury’s conclusion—that “evidence implicating
[Tyler] in Ms. Proctor’s murder was manifestly quite thin . . . .”
(App. 20.)
C. The Tri-County Drug Task Force, in 1991-92, operated
solely as a local and state law enforcement entity,
with
no federal involvement.
1. The Task Force.
As noted above, Detective Fones’s duties as a Carlisle Police
Officer included assignment to the Task Force, comprised of state
and local law enforcement officers from Cumberland, Perry, and
York Counties. (App. 205-14, 375-81.) As its roster showed, no
17
125a

Case: 18-1319

Document: 003113415548

Page: 23

Date Filed: 11/25/2019

federal agent or agency was part of the Task Force. (App. 231-34;
570). 10
In 1992, Agent Diller served as the Task Force coordinator,
working for the Pennsylvania Attorney General (App. 604). Diller
confirmed that he was not a federal law enforcement officer. (App.
629.)
Diller

testified

concerning

a

1991

Memorandum

of

Understanding signed by the then-Attorney General and President
of the PA District Attorneys Association. (App. 937-42.) Diller
confirmed that the Memorandum memorialized that the Task Force
program was subject to the control and supervision of the district
attorney of the county in which the Task Force operated and—other
than a general prefatory statement recognizing the importance of
drug law enforcement at all levels of government—did not include
language concerning federal involvement with the Task Force
program. (App. 604-16.)

James Caggiano, who was the Director for the Bureau of Narcotics
Investigation, Pennsylvania Office of Attorney General during the relevant
time period, was not available to testify at the 2017 Trial. But in the July 31,
2000 Trial, he confirmed the non-federal composition of the Task Force roster
as of 1991-92. (Doc. 265 at 146-47.)

10

18
126a

Case: 18-1319

Document: 003113415548

Page: 24

Date Filed: 11/25/2019

2. The Government invents Agent Diller as a person
serving the federal government as an “adviser” or
“consultant.”
Putting 2017 Trial testimony about the requisite federal nexus
in proper context requires a brief digression to the Tyler 2000 trial,
when the Government’s efforts to establish the requisite federal
jurisdictional element launched in earnest.
Because all agree that no federal law enforcement had been
involved in any way in the David T. and cohorts drug dealing, the
Government’s prosecution had to produce testimony from someone
who they could argue qualified under the federal nexus language of
18 U.S.C. § 1512: that a federal-offense communication must be
with a “federal law enforcement officer”, defined to include “a
person. . . serving the Federal Government as an adviser or

consultant.” 18 U.S.C. § 1515(4) (emphasis added). Diller was to be
that “adviser” or “consultant”.
To address this jurisdictional need, the prosecutor (“G.Z.”)11
elicited from a DEA agent, Gregory Borland, an undated affidavit
concerning Diller’s role with DEA. G.Z. showed Borland the
relevant statutory language before Borland wrote the affidavit. (See
Because the identity of the prosecutor is not material, did not appear for the
Government at trial, and is no longer a Justice Department employee, that
prosecutor—to maintain a modicum of privacy—will be referred to by the
initials “G.Z.”
11

19
127a

Case: 18-1319

Document: 003113415548

Page: 25

Date Filed: 11/25/2019

App. 260-61.) When drafted, the Borland affidavit used language
that the DEA would accept cases “after consultation with and upon
the advice and recommendation of the state agent. (App.
190)(emphasis added). So, the Government would argue, if a state
law enforcement agent could be viewed as serving the federal
government as an “adviser” or “consultant”, then that state agent
would qualify as a federal officer under § 1512.
In a June 29, 2017 deposition that Judge Jones conducted in
chambers—after defense counsel subpoenaed G.Z. as a witness to
explore at trial Diller’s purported federal status—G.Z. stated that
while not recalling explicitly asking Borland to include the specific
adviser and consultant language in the affidavit, G.Z.:
[did] think it would have been inevitable. Given the fact that we are
going over that language in the statute, I think that—it wouldn’t
surprise me if the court would conclude it was implicit in my
request….
(App. 262). Later in that deposition, G.Z. admitted that he
influenced Diller’s self-described federal connection as stated in the
Borland affidavit:
The question was asked whether I suggested to Mr. Diller [in
preparation for the Tyler 2000 trial] that he use the terms “adviser”
and “consultant.” I did not. But I think in fairness, I showed him the
documents [statute and Borland affidavit]. Implicit in that was, what
is your view, you know, how do you fit into that, do you agree with it,
do you disagree with that, and I think clearly that affected his
testimony. (App. 265.)
20
128a

Case: 18-1319

Document: 003113415548

Page: 26

Date Filed: 11/25/2019

This issue arose in this trial because at the Tyler 2000 trial,
Diller testified on cross-examination as follows:
Q.

Now on redirect you were asked about the term adviser, where
did you get the term adviser and consultant. And your answer
was you stole it from an affidavit; is that right?

A.

Yes. I borrowed it.

Q.

Who gave you that affidavit to review?

A.

The Assistant United States Attorney.

Q.

[G.Z.]

A.

Yes.

Q.

Was that in preparation for your testimony today?

A.

Yes. I reviewed my prior testimony and records in the trial.

Q.

So the term consultant then is not your term; is it?

A.

It is not my term, no.

Q.

And the term adviser is not your term; is it?

A.

No.

(App. 229-30.) Diller’s purported status in earlier proceedings as a
person “serving the Federal Government as an adviser or
consultant”—tracking 1515(a)(4)’s jurisdictional hook—thus arose
out of the prosecutor’s zeal to establish the requisite federal nexus.
At the trial here, Diller explicitly avoided labelling himself as
an “adviser” or “consultant” (App. 623.) Indeed, when counsel
21
129a

Case: 18-1319

Document: 003113415548

Page: 27

Date Filed: 11/25/2019

confronted Diller with his previous testimony that he was an
“adviser” and “consultant”, and that the language came from G.Z.,
Diller flat-out denied it. He testified that “it was in the file, which
[he] reviewed.” (App. 624.)
D. When Doreen Proctor died, the federal government was
not involved in any way with Ms. Proctor nor did she have
additional information that would have interested them.
Doreen Proctor had cooperated with only state and local law
enforcement. She never had contact with any federal law
enforcement officer, nor did state and local law enforcement officers
anticipate that she would contact federal law enforcement.
Q.

[Proctor] had not and was not scheduled to testify in any
federal proceeding up that point [of her death]. Isn’t that
correct?

A.

That’s correct.

(App. 425 (Fones reviewing testimony of 1/10/1996 pp. 53-53).)
Diller, as part of his Task Force duties, would meet with local
officers about potential multi-jurisdictional involvement, and if it
appeared that a case might be appropriate for federal referral, he
would consider contacting federal law enforcement, such as the
DEA. (App. 640.)
Diller never contacted the DEA about Ms. Proctor to see if any

22
130a

Case: 18-1319

Document: 003113415548

Page: 28

Date Filed: 11/25/2019

federal law enforcement officers wanted to talk to her about a
federal drug investigation or involve her in any federal proceeding:
Q.

[Y]ou never referred Ms. Proctor to the DEA, did you?

A.

No, I did not.

Q.

And there was no federal agent involved with Ms. Proctor at
the time of her death. Is that right?

A.

Not that I’m aware of.

Q.

There was no federal involvement at the time of Ms. Proctor’s
death, was there?

A.

Not that I’m aware of.

(App. 641.)
DEA Agent Keith Humphreys confirmed that Ms. Proctor was
not working for the DEA, nor were her activities on the DEA Radar:
Q. You can agree, Mr. Humphreys, that in 1992, Doreen
Proctor was not working for the DEA. Correct?
A. That's correct.
Q. Doreen Proctor was not an informant for the DEA,
was she?
A. She was not.
Q. And no one ever called you and said—and asked you
to talk to Doreen Proctor, did they?
A. In 1992 or afterwards, no.
Q. And before 1992?
A. I was not contacted, correct.
23
131a

Case: 18-1319

Document: 003113415548

Page: 29

Date Filed: 11/25/2019

Q. And Doreen Proctor never communicated with you,
did she?
A. I never met with Doreen Proctor.
(App. 690.)
Diller did testify that Fones told him that Ms. Proctor had given
him some information concerning David T.’s suppliers, that he may
have had New York and Jamaica connections. But although Agent
Diller was present for most if not all the meetings with Ms. Proctor
he never heard Ms. Proctor state that David T. had ties to New York
or Jamaica. (App. 634.)
In addition, in the drug cases that the Commonwealth
prosecuted from 1992 to 1993, Fones never testified that David T.
had ties to New York and Jamaica. And even during Bell’s 1996
federal trial, Fones never testified that Ms. Proctor told him that
David T. had drug connections in New York and Jamaica.
E.

The federal government did not prosecute Willie Tyler
based on the need to vindicate federal interests.
The first time that federal law enforcement involved itself in

any matter related to Ms. Proctor or Tyler was on June 8, 1993—
more than a year after Ms. Proctor’s death, and while Willie Tyler
was still in state prison. Before then, the activities of David T. and
cohorts, and Ms. Proctor’s connection to them, was not on federal
law enforcement’s radar. In a May 8, 2000 affidavit. FBI Special
24
132a

Case: 18-1319

Document: 003113415548

Page: 30

Date Filed: 11/25/2019

Agent Patrick Kelly confirmed that the first time a federal law
enforcement officer became involved in Doreen Proctor’s death was
when he initiated an investigation because he was “troubled” by the
state court verdict that acquitted Bell and Tyler of murder. (App.
191-92; Doc. 168).

25
133a

Case: 18-1319

Document: 003113415548

Page: 31

Date Filed: 11/25/2019

SUMMARY OF THE ARGUMENT
The District Court properly granted Willie Tyler’s Rule 29
Motion for Acquittal because the record does not permit a jury to
find the requisite elements for conviction under the federal witnesstampering statue, 18 U.S.C. § 1512, after the Supreme Court’s
decision in Fowler v. United States.
Fowler did not address the murder element of § 1512, and here
the evidence was, as the District Court concluded, “manifestly quite
thin.” Just as the 1992 Adams County jury acquitted Tyler, the
Court should echo the state jury and find insufficient evidence that
Tyler committed murder.
But what Fowler did address is how to discern a sufficient
federal interest and the proper federal scope in prosecutions for
witness-tampering where the prosecution may rightly belongs in
the state.
Under § 1512, Fowler requires that the defendant intended to
prevent the witness-informant from providing relevant information
about a possible federal offense to a law enforcement officer, and
that there would be a reasonable likelihood that this officer would
have been a federal law enforcement officer. Without such a
restriction, a defendant tampering with any witness in any state
26
134a

Case: 18-1319

Document: 003113415548

Page: 32

Date Filed: 11/25/2019

criminal case involving an offense that could also be prosecuted by
the Federal Government would be subject to federal prosecution—
even after a state court acquittal. Fowler teaches that—although
we know that law enforcement officers at every level in the federal
system must consult and advise each other all the time—every local
and state law enforcement officer is not a “federal officer”, and every
state offense does not implicate federal interests for § 1512
purposes, Otherwise, the bulwark against federal overreach that
Fowler establishes becomes meaningless.
This case presents that precise scenario of federal overreaching
without any specific federal interest to protect. Here, as the District
Court held, the trial evidence was insufficient for a jury to find that
Tyler intended to prevent Doreen Proctor from communicating with
a law enforcement officer about a federal offense. The record
provides no evidence from which a jury could infer that intent;
rather the record shows that Tyler had no reason to even consider
preventing Doreen Proctor’s future communications with law
enforcement.
Further, the trial evidence was insufficient for a jury to find
that, had Doreen Proctor lived, it was “reasonably likely” that she
would

have

communicated

information
27

135a

to

a

federal

law

Case: 18-1319

Document: 003113415548

Page: 33

Date Filed: 11/25/2019

enforcement officer. To the contrary, the record establishes no
likelihood that Ms. Proctor would have chosen to communicate
information to any law enforcement officer, let alone a federal
officer.
The lack of record evidence to support a § 1512 conviction
requires this Court to affirm the District Court’s grant of Tyler’s
Rule 29 Motion for Judgment of Acquittal. What the record does
show is that the federal government did not prosecute Willie Tyler
to vindicate federal interest, but simply to cure what they saw as a
too-soft state verdict and sentence.

28
136a

Case: 18-1319

Document: 003113415548

Page: 34

Date Filed: 11/25/2019

ARGUMENT
I.

The District Court Properly Granted Tyler’s Rule
29(a) Motion for Judgment of Acquittal.
Standard of Review:
This Court reviews “de novo an appeal of a district court's ruling
on a Rule 29 motion and independently applies the same standard
as the District Court. . . . [which must] review the record in the light
more favorable to the prosecution to determine whether any rational
trier of fact could have found proof of guilt beyond a reasonable
doubt based on the available evidence” “United States v. Freeman
(3d Cir. 2014). 12
When the Court’s review is plenary, the Court “may affirm the
District Court on any grounds supported by the record, even if the
court did not rely on those grounds.” MRL Dev. I, LLC v. Whitecap
Inv. Corp. (3d Cir. 2016).13

To uphold the jury’s guilty verdict under 18 U.S.C. § 1512, this
Court, exercising independent de novo review, must be convinced
that a rational jury could find that the record supports three factual
findings that establish § 1512’s elements, that:
(1) Tyler killed or aided and abetted in the killing of Ms. Proctor;
(2) Tyler intended to prevent Ms. Proctor from communicating
additional information—after David T.’s trial—to a law enforcement
officer concerning the commission of a federal offense (David T.’s
purported interstate drug connections);

12

763 F.3d 322, 343 (internal quotation and citation omitted).

13

823 F.3d 195, 202 (internal quotations omitted).
29
137a

Case: 18-1319

Document: 003113415548

Page: 35

Date Filed: 11/25/2019

(3) had Ms. Proctor lived, it was “reasonably likely” that she would
have communicated additional information to a federal law
enforcement officer about a federal offense.

See Bruce v. Warden Lewisburg USP (3d Cir. 2017).14 Each will be
addressed in turn below. 15
A. The Government’s Brief mistakenly relies on inapposite case
law and irrelevant law of the case doctrine.
Before addressing the merits of Tyler’s argument on the § 1512’s
elements, the Government’s Brief demands a response to a global
flaw. The Government’s Brief reveals that flaw in its Introduction
section, with a remarkable statement:
Based on this Court’s prior decisions, moreover, the evidence was
more than sufficient to satisfy Fowler’s reasonable-likelihood
standard. This Court has already resolved the issues presented by this
appeal.”
(Br. 2.)(emphasis added). The Government is mistaken.
14

868 F.3d 170. 185-86.

Because this case turns largely on whether the jury’s findings were based
on reasonable inference or speculation, including here a brief discussion of
the distinction seems appropriate.
15

Black’s Law Dictionary defines the words as follows:
Inference:
An inference is a conclusion reached by considering
other facts and deducing a logical connection from
them.
Speculation:
[T]heorizing about matters over which there is no
certain knowledge.
BLACK’S LAW DICTIONARY 847, 1529 (9th ed. 2009).
This Court, defining a reasonable inference, stated: “It is essential . . . that
there be a logical and convincing connection between the facts established
and the conclusion inferred.” United States v. Bycer, 593 F.2d 549, 550. (3d
Cir. 1979).
30
138a

Case: 18-1319

Document: 003113415548

Page: 36

Date Filed: 11/25/2019

To begin with, the Government’s Brief is peppered with
citations to previous Third Circuit Tyler opinions as precedential
authority for critical rulings here, as well as explicit reliance on
law-of the-case doctrine. An illustrative sampling includes:
(1)

citing to Tyler II as precedent for Diller’s status as a qualifying
officer under the witness-tampering statute (Br. 10);

(2)

stating that the District Court’s holding that Tyler did not
intend to prevent Ms. Proctor’s future communications to law
enforcement was “foreclosed by this Court’s prior decisions.”
(Br. 28);

(3)

citing United States v. Bell, 113 F.3d 1345, 1350
(3d Cir. 1997) as precedent that sufficient evidence supported
Tyler’s conviction (Br. 31);

(4)

stating that law of the case compels the conclusion that
sufficient evidence supported the verdict. (Br. 29-30).

The Government erroneously asserts that the factual findings,
inferences, and holdings from Tyler’s (and Bell’s) previous trials
and opinions are somehow binding here. 16 They’re not, for two
reasons.
The evidence introduced and issues addressed during the two
previous Tyler trials and appeals (as well as the wholly separate
trial and appeal of Roberta Bell) may share similarities, but they

The Brief also includes a detailed analysis of Judge Shwartz’s dissent in
Tyler III. (Br. 14-15.) With respect, as thoughtful as Judge Shwartz’s dissent
may be, dissents lack any precedential value. And the Government’s effort for
an en banc Court to adopt that dissent proved unsuccessful.

16

31
139a

Case: 18-1319

Document: 003113415548

Page: 37

Date Filed: 11/25/2019

involved different juries, different presentations of evidence, and
were governed by different legal standards; notably, the cases were
decided before Fowler. The de novo standard of review that governs
here requires this Court to review the record “independently”.

Freeman. Surely, if independent de novo review does not permit
this Court to defer to the trial judge—who presided over creation of
this record—then it likewise prohibits deferring to 20 year-old
opinions based on different records under different law. Resolution
of the issues here require this Court to independently review the
evidence actually admitted in this trial under the state of the law
as it now stands.
In addition, law of the case doctrine is inapposite. Rulings in

United States v. Bell (3d Cir. 1997) 17, are not law of the case
because Tyler was not involved in her trial or appeal. See W.R.

Grace & Co. v. Chakarian (3d Cir. 2009)(law of the case doctrine
requires cases to involve the same parties). 18 And when the Court
in Tyler III remanded with the possibility that the District Court
would require a new trial, that effectively “wiped the slate clean”
for the 2017 trial. See Pepper v. United States (U.S. 2011)(where
17

18

113 F.3d 1345.
591 F.3d 164.
32
140a

Case: 18-1319

Document: 003113415548

Page: 38

Date Filed: 11/25/2019

court of appeals set aside defendant’s entire sentence and
remanded for a de novo resentencing, the Court of Appeals
effectively “wiped the slate clean.”) 19 Further, law of the case
doctrine will not apply when: “(1) new evidence is available; [or] (2)
a supervening new law has been announced. . . .” Pub. Interest

Research Group of N.J., Inc. v. Magnesium Elektron, Inc., (3d Cir.
1997).20 And both exceptions apply here.
First, the 2017 trial involved new evidence and a new theory of
the case. For example:
• in previous trials, Laura Barrett’s testimony was live, providing the jury
the opportunity to assess demeanor and gauge credibility. In this trial,
a cold transcript of her testimony was read into the record (App. 92536);
• as the District Court observed “[each] of the Government’s primary fact
witnesses presented testimony that was riddled with memory failures
and material inconsistencies from prior testimony.” (App. 17);
• in previous trials the Government elicited from Diller that he “advised”
and “consulted” with the DEA to support the federal nexus. In this trial,
he avoided using those terms. (App. 229-30);
• evidence came to light in June 2017 that the original federal prosecutor
prepared Diller’s testimony in a way that the prosecutor admitted
“clearly affected [Diller’s] testimony” as to whether he would qualify
as a federal law enforcement officer. (App. 265).
Second, the first two trials and the opinions arising out of them
were decided pre-Fowler. Because the burden of proof increased
19

562 U.S. 476, 507.

.
20

123 F.3d 111, 117.
33
141a

Case: 18-1319

Document: 003113415548

Page: 39

Date Filed: 11/25/2019

from “possible” to “reasonably likely”, the presentation of evidence,
counsel’s arguments, and the courts instructions necessarily
changed for the 2017 trial.
This Court has no need to look over its shoulder at proceedings
held 20 or more years ago and superseded statutory construction to
decide this case.
B. The record does not permit a rational jury to find Tyler
guilty of murder.
The District Court here—constrained by the strict standard of
review in ruling on a post-verdict Rule 29 motion—concluded that
the evidence implicating Tyler in Ms. Proctor’s death as an aider
and abetter “was manifestly quite thin.” (App. 20.) On close review,
the record reveals that, as the 1992 Adams County jury found, even
the “quite thin” evidence disappears. While the evidence may
permit a reasonable inference that David T. and Bell murdered Ms.
Proctor, it does not permit such an inference for Tyler. Tyler’s
alleged connection to the actual murder is based solely on
speculation, not reasonable inference. Viewing the evidence in the
light favoring the verdict, the few reasonable inferences to be drawn
about Tyler’s actions support only the following conclusions:
• Tyler showed David T. how to cock a gun the evening before the
murder (App. 491-92, 495, 508);
34
142a

Case: 18-1319

Document: 003113415548

Page: 40

Date Filed: 11/25/2019

• Tyler drove David T. in Hodge’s car to Adam’s County, where the
murder occurred (App. 718-19);
• When Bell was talking with Tyler and David T., Barrett overheard
Bell say “you” killed her, but because she was in the next room,
she had no way to know whether Bell was referring to Tyler or
David T. To conclude that “you” referred to Tyler, rather than
David T., is impermissible speculation (App. 935);
• Ola Brown’s testimony that Bell said that if necessary she and
David T. could “put it [the murder] on Little Man [Tyler]”—
supports the inference that Bell devised a plan to frame Tyler, and
that Tyler was not involved. (App. 660-62.)
The only reasonable inference to be drawn from this evidence is
that David T. used his brother to assist him in the most minimal
way possible, and with the most minimal awareness of his plan.
No evidence suggests that Tyler intended to participate in Ms.
Proctor’s murder, or that he knew about it. Nobody—not the
Government, not the District Court—contend that the evidence is
sufficient to find that Tyler was personally involved in the actual
act of killing. This puts Bell’s comments in perspective: “you” killed
her did not refer to Tyler, and her motivation for framing “Little
Man’ becomes clear.
Tyler’s conviction is based on nothing more than evidence that
he, at his brother’s request, showed his brother how to cock a gun
for an undisclosed reason, and gave his brother a ride for an
undisclosed purpose. During that ride, David T. said that Bell had
35
143a

Case: 18-1319

Document: 003113415548

Page: 41

Date Filed: 11/25/2019

“a surprise” for him—i.e., Tyler was unaware of what David T. was
planning—and when Tyler pressed David T. for more information,
David T. replied, “none of your business.” (App. 716.) Both
statements fail to comport with a finding that Tyler knew what was
planned or would be taking part in it.
No evidence puts Tyler at the murder scene, only in a car
somewhere in the vicinity. No evidence supports finding that Tyler
was involved in or knew about the killing, except perhaps that he
learned about it shortly after the fact. The facts taken together do
not logically and convincingly connect to the jury’s inference that
Tyler engaged in the murder of Doreen Proctor as a principal or as
an aider and abettor.21

Because the Government’s Brief refers to their opinions, it is worth noting
here that neither Judge Shwartz’s dissent nor Judge Caldwell’s opinion
addressed this murder element—with good reason. Neither was addressing a
sufficiency claim of the type asserted here, which asks whether the evidence
was adequate to support each and every element of the crime of conviction.
Rather, they were addressing an “actual innocence” habeas claim, which asks
whether a past conviction is insupportable based on a change in the law
effected by an intervening Supreme Court decision—specifically, Fowler and
Arthur Andersen. Those Supreme Court decisions did not address the murder
element of the witness intimidation statute, and thus there was no reason and
no basis for Judge Shwartz or Judge Caldwell to consider the sufficiency of
the evidence on that element. Arguably, even if the evidence were inadequate
it would not have supported an “actual innocence” claim since the
insufficiency would not have been based on an intervening change in the law.
21

36
144a

Case: 18-1319

C.

Document: 003113415548

Page: 42

Date Filed: 11/25/2019

The trial evidence was insufficient for a jury to find
that Tyler intended to prevent Ms. Proctor—after David
T.’s trial—from communicating to a law enforcement
officer relevant additional information concerning a
federal offense.

Fowler requires for a conviction under Section 1512 that the
defendant “was motivated by a desire to prevent the communication
between [the victim] and law enforcement authorities concerning
the commission or possible commission of . . . a federal offense.”
Bruce. Here, the record includes no evidence for the jury to find that
Tyler intended to prevent Ms. Proctor, after David T.’s trial, to
communicate additional information about a federal offense. That
conclusion follows from the lack of any evidence that Tyler knew
that Ms. Proctor had any additional information to communicate to
law enforcement, let alone information about a federal offense.
Without such evidence, the jury’s finding rests on speculation. The
record provides support for finding nothing more than that Ms.
Proctor was murdered for one purpose only: to prevent her from
testifying against David T. in the Court of Common Pleas of
Cumberland County in April 1992.
True, the evidence does support a finding that Tyler knew that
Ms. Proctor was an informant with information about local drugrelated activities of David T. and cohorts: she testified publically at
37
145a

Case: 18-1319

Document: 003113415548

Page: 43

Date Filed: 11/25/2019

Hodge’s trial. But that fails to support an inference that Ms. Proctor
would be communicating about additional information with law
enforcement in the future.
To the contrary, with her confidential status compromised, Ms.
Proctor’s access to any additional drug-related information about
David T. and cohorts ended. Nothing in the record supports the
inference that Tyler had any reason to believe that Ms. Proctor had
information about a federal offense that she had not already
disclosed. At the time of Ms. Proctor’s death, no federal law
enforcement officials concerned about federal offenses were
involved in any way in the investigation or trials of David. T. and
his cohorts, or with any Commonwealth witnesses, including Ms.
Proctor. Without any proof to suggest that Tyler believed Ms.
Proctor had additional information relevant to a possible federal
investigation, the jury had no basis to infer that Tyler had the
requisite specific intent. So the jury’s finding that Tyler believed
that Ms. Proctor, after David T.’s trial, would be communicating
with law enforcement about a federal offense is speculation.
Also significant is that Tyler—unlike David T. and cohorts—
was not charged with any drug offenses, so nothing in the record
suggest that Tyler would have felt at risk. To contend that Tyler
38
146a

Case: 18-1319

Document: 003113415548

Page: 44

Date Filed: 11/25/2019

intended to prevent Ms. Proctor from communicating additional
information about David T.’s activities assumes—without any
record support—that Tyler was aware that David T.’s activities
extended beyond the local small street-level dealing that Ms.
Proctor was involved with.
The Government’s argument on this point misses the mark in
two respects: the sufficiency of the record evidence and the
applicable legal standard.
First, the Government points out evidence that the jury heard
that boils down to this: Ms. Proctor was a witness-informant
working with local and state law enforcement who was testifying
about the local drug-related activities of David T. and cohorts in
state court. (Br. 30-31.) The Government then baldly asserts that
“a reasonable jury could easily conclude from this evidence that
Proctor would continue to provide information to law enforcement,
including information about individuals who had not yet been
charged. (Br. 31.)(emphasis added)
“Easily conclude”?—But why? Where is the logical and
convincing connection between the evidence the Government
cites—as well as evidence the Government does not cite, notably
that Ms. Proctor testified that she was “out of the business.” (App.
39
147a

Case: 18-1319

Document: 003113415548

Page: 45

Date Filed: 11/25/2019

118)—and the conclusion that Ms. Proctor would continue to
provide information to law enforcement? Ms. Proctor’s past law
enforcement communication—without more—in no way supports
future law enforcement communication.
Further, the Government asserts as self-evident that “the jury
had to make only a small (and reasonable) step to conclude” that
Tyler intended to stop future communications. Balderdash. That
conclusory conclusion is contrary to logic and human experience,
and, as discussed above, the jury would have to make a large and
unreasonable leap over the record evidence to get there.
Second, the Government’s legal analysis underpinning this
argument is incomplete: it fails to address § 1512 as written,
treating § 1512’s communication element far more broadly than the
statutory language permits. The Government states its first issue
as sufficiency of evidence to support a finding of murder “to prevent
the victim’s communication to law enforcement.” (Br. 4.) And then
in the Argument section, the Brief continues to treat the element
as requiring proof that Tyler knew only that Ms. Proctor was
cooperating with law enforcement. (Br. 28-34.) But the Government
ignores critical language that materially narrows the evidence
required to prove the communication element.
40
148a

Case: 18-1319

Document: 003113415548

Page: 46

Date Filed: 11/25/2019

Conviction under § 1512 requires an element of specific intent:
that the defendant knew and intended to prevent the victim from
communicating to law enforcement specific information—namely,
information about “the commission or possible commission of . . . a
federal offense.” And here, the record lacks evidence that Tyler
would have known that Ms. Proctor had information related to a
federal offense.
Even if David T. and his cohorts were involved in drug-related
activities that had some minimal interstate or international
connections, their activities were essentially local, and at the time
only local and state law enforcement were investigating them. And
again, the record lacks any evidence that Tyler knew about such
extra-local activities: he was never charged as one of David T.’s
drug-dealing crew, and there was no evidence that he had any hand
in it. True, federal law enforcement can and does charge local drug
activities as a federal crime. But Fowler stressed that in finding a
§ 1512 violation, the Government must establish the defendant’s
specific intent to prevent communication involving a federal
offense.
The record here provides no reason for a jury to find that Tyler
had any idea that law enforcement would have any additional
41
149a

Case: 18-1319

Document: 003113415548

Page: 47

Date Filed: 11/25/2019

interest in David T.’s activities, or that Ms. Proctor had any
information related to multi-state or international connections.
Thus, the record fails to support a finding that Tyler could have
formed the requisite specific intent.
D.

The trial evidence was insufficient for a jury to find
that had Doreen Proctor lived, it was “reasonably
likely” that she would have communicated relevant
additional information to a federal law enforcement
officer about a federal offense.

A guilty verdict under 18 U.S.C. § 1512(a)(1)(C) (Count II) and
§ 1512(b)(3) (Count III) requires the Government to prove beyond a
reasonable doubt a jurisdictional federal nexus, which the Supreme
Court explained as follows:
[T]he Government must show a reasonable likelihood that, had, e.g.,
the victim communicated with law enforcement officers, at least one
relevant communication would have been made to a federal law
enforcement officer. That is to say, where the defendant kills a person
with an intent to prevent communication with law enforcement
officers generally, that intent includes an intent to prevent
communications with federal law enforcement officers only if it is
reasonably likely under the circumstances that (in the absence of the
killing) at least one of the relevant communications would have been
made to a federal officer.

Fowler (emphasis in original)22. By “reasonable likelihood, the
“Government must show that the likelihood of communication to a
federal officer was more than remote, outlandish, or simply
22

563 U.S. at 677-78.
42
150a

Case: 18-1319

Document: 003113415548

Page: 48

Date Filed: 11/25/2019

hypothetical.” Id. And “federal law enforcement officer” includes a
Federal Government employee, or a person “serving the Federal
Government as an adviser or consultant”. 18 U.S.C. § 1515(a)(4).
The Fowler Court recognized the need to cabin federal jurisdiction
to avoid overfederalization of the criminal justice system:
[T]o allow the Government to show no more than the broad indefinite
intent we have described (the intent to prevent communications to law
enforcement officers in general) would bring within the scope of this
statute many instances of witness tampering in purely state
investigations and proceedings, thus extending the scope of this
federal statute well beyond the primarily federal area that Congress
had in mind.

Id.

23

The Supreme Court “[left] it to lower courts to determine

whether, and how, the [reasonable likelihood] standard applies in
[a] particular case.” Fowler, 563 U.S. at 678. Courts have found
future communication with a federal law enforcement officer to be
reasonably likely in cases where, unlike here, the federal interest
implicated was plain:
•

addressing the claim in the context of the actual innocence standard of
28 U.S.C. § 2241, robbery and arson were undisputed federal offenses
and defendants’ long-held history of violence and their campaign of
fear and witness intimidation stymied the state investigation making
federal intervention essential, Bruce;

•

the defendant’s conduct was not purely state in nature but involved
multiple offenses across state lines, United States v. Veliz, 800 F.3d

23

563 U.S. at 675.
43
151a

Case: 18-1319

Document: 003113415548

Page: 49

Date Filed: 11/25/2019

63, 75 (2d Cir. 2015);
•

the victim was already cooperating with the FBI and was a potential
witness in a future federal trial, United States v. Smalls, 752 F.3d
1227 (10th Cir. 2014); and

•

when the victim was communicating with a local police department
practically every day about drug trafficking and that local department
was the biggest source of referrals to the DEA field office, United
States v. Smith, 723 F.3d 510, 513 (4th Cir. 2013).24

In contrast, here, where the Government offers only hypothetical
scenarios where Ms. Proctor’s statements to Fones might
eventually be communicated to a federal law enforcement officer
such as Humphreys, the federal nexus requirement is not satisfied.
Here, the Government’s evidence established that a drug Task
Force headed by a local district attorney was investigating drug
trafficking in Carlisle and was using Ms. Proctor as a local
confidential informant. Ms. Proctor was communicating with one
local and one state member of the Task Force, Fones and Diller. No
federal law enforcement officer even knew about David T. or Ms.
Proctor at the time of her death.
24

Post-Fowler, both Veliz and Smith maintain that the “reasonable likelihood”
standard is satisfied by showing the federal nature of the offense plus
“additional appropriate evidence” relying on United States v. Bell, 113 F.3d
1345, 1349 (3d Cir. 1997). Veliz, 800 F.3d at 74; Smith, 723 F.3d at 518. The
Third Circuit has not had occasion post-Fowler to consider whether there is
in fact an “additional appropriate evidence” aspect of the “reasonable
likelihood” standard, and what that “additional appropriate evidence” would
need to be.
44
152a

Case: 18-1319

Document: 003113415548

Page: 50

Date Filed: 11/25/2019

The Government seeks to widen the scope of the federal witness
tampering statute beyond the federal boundaries that Fowler set.
Assuming that a rational jury could find that Tyler intended to
prevent Doreen Proctor from communicating with law enforcement
officers in general, the record does not support a finding that, had
she lived, there was a reasonable likelihood that her information
related to a federal offense and that one of those officers would have
been a federal law enforcement officer. Rather, the likelihood was
hypothetical and remote.
1. No reasonable likelihood that Ms. Proctor would have
communicated with any law enforcement officer.
The evidence does not support finding a reasonable likelihood
that Ms. Proctor would have had any further communications with

any law enforcement officer. The Government’s Brief provides a
fortune-telling crystal-ball picture of what various law enforcement
officers probably would have done if Ms. Proctor had lived. Fones

probably would have talked to Ms. Proctor more, and then Fones
probably would have related her vague purported statement
regarding David T.’s New York/Jamaica connections to Diller, and
then Diller probably would have evaluated that information, and
then—only if the information appeared potentially useful—he
45
153a

Case: 18-1319

Document: 003113415548

Page: 51

Date Filed: 11/25/2019

probably would have passed it along to DEA Agent Humphreys, and
then Agent Humphreys probably would have evaluated it, and
then—only if the information appeared potentially useful—he

might have decided he wanted to speak with Ms. Proctor. (App. 4547.)
The Government’s crystal ball fails to reveal one fact critical to
the Government’s hypothetical scenario: however much law
enforcement officers believe that they would have wanted to
communicate with Ms. Proctor, there is no evidence from which to
even infer that Ms. Proctor would have agreed to communicate with
them. The Government did not elicit any testimony or produce any
documents indicating in any way that Ms. Proctor, had she lived,
would have communicated with any law enforcement—local, state,
or federal. Ms. Proctor provided the only directly relevant testimony
at Hodge’s trial, where she testified that because she did not need
money or drugs, and was working for a telephone company, she was
“out of this [the witness/informant] business.” (App. 117-18.)
And ending her witness-informant activities was not only a
matter of Ms. Proctor’s choice about her future endeavors, but a
practical law enforcement matter. Because Ms. Proctor testified in
open court, her undercover persona was compromised, necessarily
46
154a

Case: 18-1319

Document: 003113415548

Page: 52

Date Filed: 11/25/2019

ending her usefulness for further controlled buys or obtaining
additional drug-related information. By late April 1992, as Fones
testified, Ms. Proctor was no longer cooperating with the Task Force
other than testifying at preliminary hearings regarding the four
buyers, and at David T.’s scheduled April 21 trial. (App. 445.)
Further, the Government’s speculation that Ms. Proctor, had
she lived, would have spoken with law enforcement assumes a fact
that neither evidence nor reasonable inference support: that Ms.
Proctor was holding back information waiting to disclose it after
David T.’s trial. As noted, Ms. Proctor met with Fones and Diller
numerous times, and purportedly told only Fones “early” in their
talks about David T.’s New York/Jamaica activities (apparently, the
one talk where Diller was not present). And from early 1991, after
the controlled buys, through April 1992, Ms. Proctor provided no
additional information to anyone. Unless Ms. Proctor was secreting
relevant information—and there is no evidence to suggest that—
further communication with law enforcement would have been
worthless. As an “outed” witness/informant, what possible
information could she have had that she hadn’t already
communicated to law enforcement?

47
155a

Case: 18-1319

Document: 003113415548

Page: 53

Date Filed: 11/25/2019

This evidence provides no basis for the jury to find that there
was a reasonable likelihood that Ms. Proctor would have
communicated with any law enforcement officer.
2. No reasonable likelihood that Ms. Proctor would have
communicated with a federal law enforcement officer.
Even assuming that there was a reasonable likelihood that Ms.
Proctor would have had further communication with some law
enforcement officer, no evidence supports finding a reasonable
likelihood that she would have communicated with a federal law
enforcement officer: “an officer or employee of the Federal
Government, or a person authorized to act for or on behalf of the
Federal Government or serving the Federal Government as an
adviser or consultant.” 18 U.S.C. § 1515(a)(4)(emphasis added).
As noted above, Ms. Proctor was a confidential informant
assigned to Carlisle Detective David Fones. If she would have had
further communications with some law enforcement officer, the
only reasonably likely officer was Fones. But he was not a federal
law enforcement officer. In 1992, Detective Fones was a municipal
police officer in Carlisle and also worked part time with the TTask
Force, a municipal task force that in 1992 included only local police
officers from Cumberland, York and Perry Counties—and did not
48
156a

Case: 18-1319

Document: 003113415548

Page: 54

Date Filed: 11/25/2019

include any federal law enforcement officers. (App. 205-14, 375-81.)
The Task Force conducted its operations solely under the
authority of state and local officials. In the 1991 Memorandum of
Understanding, signed by the then-Attorney General and President
of the PA District Attorneys Association (App. 937-42), the
Memorandum memorialized that the Task Force program was
subject to the control and supervision of the district attorney of the
county in which the Task Force operated and—other than a general
prefatory statement recognizing the importance of drug law
enforcement at all levels of government—did not include language
concerning federal involvement with the Task Force program. (App.
604-16.)
The next potential law enforcement candidate was Special
Agent Ronald Diller. The Government’s effort to cast Diller—a
member of the Task Force in 1992—as a “federal law enforcement
officer” does not comport with the record evidence.
Agent Diller, in 1990, began working in the Pennsylvania Office
of Attorney General, Bureau of Narcotics Investigation. He was
assigned to the Task Force as the coordinator, and the Task Force
was comprised of members of local police departments who came

49
157a

Case: 18-1319

Document: 003113415548

Page: 55

Date Filed: 11/25/2019

together, when off- duty, to investigate drug crimes that might cross
their county lines.
Diller had occasion to meet with Ms. Proctor several times while
she worked with Detective Fones. Even if it was reasonably likely
that Ms. Proctor would have had further communication with Diller
in connection with further drug investigations—and, again,
unrefuted evidence establishes that she would not have involved
herself in any further law enforcement activities—Diller was an
agent for the state, serving the state of Pennsylvania. He was not
“serving the federal government”, and he was not employed by the
Federal Government. Further, the Government did not present any
testimony that Diller was “serving the Federal Government as an
adviser or consultant”. Diller did testify that because local police
investigating drug activities did not have jurisdiction outside of the
Commonwealth of Pennsylvania, when a local investigation
suggested that drug activities involved out-of-state or international
activities, Diller would sometimes contact an appropriate federal
agency, such as the FBI, IRS, or DEA.
But any local or state law enforcement agent who got wind of
such activities could pick up the phone and call the FBI, IRS, or
DEA. Does every local and state law enforcement officer involved in
50
158a

Case: 18-1319

Document: 003113415548

Page: 56

Date Filed: 11/25/2019

potential federal offenses, drug-related or otherwise, qualify as
“serving as an adviser or consultant” to the Federal Government?
While DEA Agent Humphreys had communicated with Diller
on occasion, he did not know Fones, never met Ms. Proctor, and no
one ever asked him to interview her. Thus, even though Agent
Humphreys qualifies as a federal law enforcement officer, there is
no evidence from which the jury could conclude that it was
reasonably likely that, had she lived, Ms. Proctor would have
communicated with him.
As a final matter, if Ms. Proctor had lived, and David T. had
been convicted of drug-trafficking in state court—as Hodge was
convicted—there is no reasonably likelihood that federal law
enforcement would have been interested in anything Ms. Proctor
had to say about David T. If no federal investigation or prosecution
followed Hodge’s state court conviction, there is no reason to believe
that federal law enforcement would have been interested in
investigating or prosecuting such a small local street-level drug
dealer as David T.
3. No reasonable likelihood that Ms. Proctor would have
communicated with a federal law enforcement officer
with relevant and material information.
Finally, even if Ms. Proctor would have changed her mind to
51
159a

Case: 18-1319

Document: 003113415548

Page: 57

Date Filed: 11/25/2019

assist law enforcement officers and would have met with Agent
Humphreys, the record includes no evidence to suggest that she had
knowledge of any relevant and material information about drug
trafficking.

Fowler

communication

to

requires
law

that

the

enforcement

must

witness-victim’s
be

a

relevant

communication. See Fowler, 563 U.S. at 677. But the trial evidence
was that at some point Doreen Proctor told Detective Fones in
vague terms that David T.’s sources for cocaine might include a
New York City source, and that David Tyler made trips Jamaica—
though for reasons unstated. Significantly, Detective Fones
testified that Ms. Proctor never named any actual supplier, and he
did not memorialize these purported statements—which would
seem critical in a drug investigation— in any official police report
or personal notes. Nor did he discuss those purported statements
with anyone. There is no evidence that Ms. Proctor knew any
additional information about David T.’s alleged source in New York
or any other detailed information about his trips to Jamaica or
anything else.
As noted, the Government’s argument hypothesizes that Fones

probably would have related Ms. Proctor’s vague statement
regarding David T.’s New York source to Diller at the conclusion of
52
160a

Case: 18-1319

Document: 003113415548

Page: 58

Date Filed: 11/25/2019

the state cases. And that Diller probably would have evaluated the
information, and perhaps would have taken it “to the next level” by
communicating that information to DEA Agent Humphreys, and
Agent Humphreys possibly would have interviewed Doreen Proctor.
But even if this string of uncertain events would have occurred, and
even assuming that Ms. Proctor would have changed her mind
about cooperating with law enforcement, by the time Agent
Humphreys would have spoken with her, any information she had
would have been stale and not relevant. Ms. Proctor began acting
as a confidential informant in early 1991, David T. was arrested in
July, 1991, his trial was scheduled for April, 1992. So David T.
would not have had any contact with any supplier in New York or
Jamaica for almost a year by the earliest possible time that Ms.
Proctor might have communicated with Agent Humphreys.
So, even accepting that Ms. Proctor made statements to Fones
that the Government asserts, and even if she had agreed to
cooperate with the DEA if she had lived, and even if she repeated
that statement to Agent Humphreys, that information does not
qualify as a “relevant communication.” The statement is vague, and
does not involve any details relating to specific names or locations
of the suppliers. The evidence does not establish the likelihood of
53
161a

Case: 18-1319

Document: 003113415548

Page: 59

Date Filed: 11/25/2019

any “relevant” communication from Doreen Proctor.

* * * * * *
As a final matter that merits only a brief discussion, the
Government’s Brief spills much ink on the issue of the District
Court’s analytically provocative perspective on the application of

Fowler’s reasonable-likelihood standard, and Tyler’s purported
“invited error.” (Br. 34-42; App. 35-42.) The Government’s
discussion is gratuitous.
First, the Court’s standard of review is de novo.
Second, the Court “may affirm the District Court on any
grounds supported by the record, even if the court did not rely on
those grounds.” MRL Dev. I, LLC v. Whitecap Inv. Corp. (3d Cir.
2016).25

Third, the District Court’s legal analysis on reasonable

likelihood was dicta. The District Court granted Tyler’s motion on
the basis “that the evidence could not support a finding that [Tyler]
acted with an intent to prevent a communication [and that holding]
is determinative.” (App. 29.) The District Court stated explicitly
that the analysis that followed—including the thought-proving

Fowler discussion—was solely, “for the sake of clarity and
completeness.” Id.
25

823 F.3d 195, 202 (internal quotations omitted).
54
162a

Case: 18-1319

Document: 003113415548

Page: 60

Date Filed: 11/25/2019

CONCLUSION
WHEREFORE, for all the foregoing reasons, Appellee Willie Tyler
respectfully requests that this Court affirm the District Court’s
grant of Tyler’s Rule 29(a) motion for judgment of acquittal.
Respectfully submitted,
HEIDI R. FREESE, ESQ.
Chief Federal Public Defender

/s/

Ronald A. Krauss

RONALD A. KRAUSS, ESQ.
First Assistant Federal Public Defender
(Attorney ID No. 47938)

QUIN M. SORENSON, ESQ.
Assistant Federal Public Defender
100 Chestnut Street, Suite 306
Harrisburg, PA 17101
717-782-2237
Ronald_krauss@fd.org

Attorneys for Appellee,
Willie Tyler
Date: November 25, 2019

55
163a

Case: 18-1319

Document: 003113415548

Page: 61

Date Filed: 11/25/2019

CERTIFICATION OF BAR MEMBERSHIP,
WORD COUNT, IDENTICAL TEXT, AND VIRUS CHECK.
I, Ronald A. Krauss, Esquire, First Assistant Federal Public
Defender, certify that:
1) I am a member in good standing of the bar of this Court;
3) This Response Brief of Appellee contains 12,310 words;
2) The text of the electronic format of the Response Brief of Appellee
identical to the hard copy format;
3) A virus check was performed on the Response Brief of Appellee,
using Symantec Endpoint Protection, last update was November
24, 2019, and no virus was detected.
I make this combined certification under penalty of perjury,
pursuant to 28 U.S.C. § 1746.

Ronald A. Krauss

/s/
RONALD A. KRAUSS, ESQ.
Date: November 25, 2019

56
164a

Case: 18-1319

Document: 003113415548

Page: 62

Date Filed: 11/25/2019

CERTIFICATE OF SERVICE
I, Ronald A. Krauss, Esq., First Assistant Federal Public Defender, certify that I caused to be served on this date a hard copy of
the attached Response Brief of Appellee via Electronic Case Filing,
and/or by placing a copy in the United States mail, first class in
Harrisburg, Pennsylvania, and/or by hand delivery, addressed to
the following:
CARLO D. MARCHIOLI, ESQ.
United States Attorney’s Office
228 Walnut Street, Room 220
Harrisburg, PA 17101
carlo.d.marchioli@usdoj.gov

(717) 221-4482
Attorney for Appellee,
United States of America
MR. WILLIE TYLER
Appellant

Ronald A. Krauss

/s/
RONALD A. KRAUSS, ESQ.
Date: November 25, 2019

57
165a

